<html>
<title> - WELFARE AND MARRIAGE ISSUES</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
                      WELFARE AND MARRIAGE ISSUES

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 22, 2001

                               __________

                           Serial No. 107-28

                               __________

         Printed for the use of the Committee on Ways and Means



                    U.S. GOVERNMENT PRINTING OFFICE
74-227                      WASHINGTON : 2001

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone (202) 512�091800  Fax: (202) 512�092250
              Mail: Stop SSOP, Washington, DC 20402�090001





                      COMMITTEE ON WAYS AND MEANS

                   BILL THOMAS, California, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
E. CLAY SHAW, Jr., Florida           FORTNEY PETE STARK, California
NANCY L. JOHNSON, Connecticut        ROBERT T. MATSUI, California
AMO HOUGHTON, New York               WILLIAM J. COYNE, Pennsylvania
WALLY HERGER, California             SANDER M. LEVIN, Michigan
JIM McCRERY, Louisiana               BENJAMIN L. CARDIN, Maryland
DAVE CAMP, Michigan                  JIM McDERMOTT, Washington
JIM RAMSTAD, Minnesota               GERALD D. KLECZKA, Wisconsin
JIM NUSSLE, Iowa                     JOHN LEWIS, Georgia
SAM JOHNSON, Texas                   RICHARD E. NEAL, Massachusetts
JENNIFER DUNN, Washington            MICHAEL R. McNULTY, New York
MAC COLLINS, Georgia                 WILLIAM J. JEFFERSON, Louisiana
ROB PORTMAN, Ohio                    JOHN S. TANNER, Tennessee
PHIL ENGLISH, Pennsylvania           XAVIER BECERRA, California
WES WATKINS, Oklahoma                KAREN L. THURMAN, Florida
J.D. HAYWORTH, Arizona               LLOYD DOGGETT, Texas
JERRY WELLER, Illinois               EARL POMEROY, North Dakota
KENNY C. HULSHOF, Missouri
SCOTT McINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida
KEVIN BRADY, Texas
PAUL RYAN, Wisconsin

                     Allison Giles, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    Subcommittee on Human Resources

                   WALLY HERGER, California, Chairman

NANCY L. JOHNSON, Connecticut        BENJAMIN L. CARDIN, Maryland
WES WATKINS, Oklahoma                FORTNEY PETE STARK, California
SCOTT McINNIS, Colorado              SANDER M. LEVIN, Michigan
JIM McCRERY, Louisiana               JIM McDERMOTT, Washington
DAVE CAMP, Michigan                  LLOYD DOGGETT, Texas
PHIL ENGLISH, Pennsylvania
RON LEWIS, Kentucky

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.





                            C O N T E N T S

                               __________
                                                                   Page
Advisory of May 15, 2001, announcing the hearing.................     2

                               WITNESSES

Anderson, Hon. Mark, Representative, Arizona House of 
  Representatives................................................    10
Center for Law and Social Policy, Theodora Ooms..................    51
Edin, Kathryn, Northwestern University...........................    76
Fagan, Patrick F., Heritage Foundation...........................    59
Marriage Savers, Michael J. and Harriet McManus, accompanied by, 
  Philip Cofer, Springdale, MD, and Terri Lucas, Lanham, MD......    21
National Marriage Project, and Rutgers University, David Popenoe.    43
National Partnership for Women & Families, Laurie Rubiner........    82
Oklahoma Health and Human Services, and Oklahoma Department of 
  Health, Hon. Jerry Regier......................................    15
Steuerle, Eugene C., Urban Institute.............................    89

                       SUBMISSIONS FOR THE RECORD

Alternatives to Marriage Project, Boston, MA, statement..........   107
NOW Legal Defense and Education Fund, New York, NY, Jacqueline K. 
  Payne, Martha Davis, Yolanda Wu, and Sherry Leiwant, statement 
  and attachment.................................................   108


                      WELFARE AND MARRIAGE ISSUES

                              ----------                              


                         TUESDAY, MAY 22, 2001

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:00 p.m., in 
room B-318 Rayburn House Office Building, Hon. Wally Herger 
(Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE COMMITTEE ON WAYS AND MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-1025
FOR IMMEDIATE RELEASE
May 15, 2001
HR-5


                      Herger Announces Hearing on

                      Welfare and Marriage Issues

    Congressman Wally Herger (R-CA), Chairman, Subcommittee on Human 
Resources of the Committee on Ways and Means, today announced that the 
Subcommittee will hold a hearing on welfare and marriage issues. The 
hearing will take place on Tuesday, May 22, 2001, in room B-318 of the 
Rayburn House Office Building, beginning at 2:00 p.m.

    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include program administrators, researchers, and experts 
on marriage and family formation issues. However, any individual or 
organization not scheduled for an oral appearance may submit a written 
statement for consideration by the Committee and for inclusion in the 
printed record of the hearing.

BACKGROUND:

    The Personal Responsibility and Work Opportunity Reconciliation Act 
of 1996 (P.L. 104-193), commonly referred to as the 1996 Welfare Reform 
Law, made dramatic changes in the Federal-State welfare system designed 
to aid low-income American families. The law repealed the former Aid to 
Families with Dependent Children program, and with it the individual 
entitlement to cash welfare benefits. In its place, the 1996 
legislation created a new Temporary Assistance for Needy Families 
(TANF) block grant, which provides fixed funding to States to operate 
programs designed to achieve several purposes: (1) provide assistance 
to needy families, (2) end the dependence of needy parents on 
government benefits by promoting job preparation, work, and marriage, 
(3) prevent and reduce the incidence of out-of-wedlock pregnancies, and 
(4) encourage the formation and maintenance of two-parent families.

    The continued decline of marriage and rise in single-parent 
families in recent decades have serious implications for American 
society, and especially children. Children raised by single parents are 
much more likely to live in poverty, as well as to suffer child abuse 
and neglect, drop out of high school, and have children of their own 
outside of marriage, often repeating the cycle of dependence.

    Against this backdrop, the 1996 Welfare Reform Law included a 
number of provisions designed to discourage illegitimacy and promote 
marriage and family formation. For example, in addition to broad 
flexibility to spend TANF block grants for such purposes, States are 
eligible for bonuses for reducing illegitimacy and may limit benefits 
for subsequent births to families already on welfare. Despite such 
provisions, however, few States appear to use TANF funds specifically 
to promote marriage and family formation, and the results of current 
efforts are limited.

    In announcing the hearing, Chairman Herger stated: ``I am very 
concerned by the continued decline of the married, two-parent family in 
America. Just today the Census Bureau reported that, during the past 
decade, the percentage of families with children headed by women with 
no husband present increased four times as fast as married-couple 
families with children. These trends raise important issues in every 
income bracket. But given the likelihood children in single-parent 
households will live in poverty, the implications are especially 
serious for lower-income families. That's why Congress allowed States 
to spend TANF funds to promote marriage and discourage illegitimacy. 
It's time to review what States have done, examine what's working, and 
consider whether any additional measures are needed to better 
strengthen families.''

FOCUS OF THE HEARING:

    The focus of the hearing is to review how States have used TANF 
funds to promote marriage and family formation. The Subcommittee also 
will receive testimony on additional approaches or programmatic changes 
that may hold promise in better promoting marriage and family formation 
and discouraging illegitimacy.

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

    Any person or organization wishing to submit a written statement 
for the printed record of the hearing should submit six (6) single-
spaced copies of their statement, along with an IBM compatible 3.5-inch 
diskette in WordPerfect or MS Word format, with their name, address, 
and hearing date noted on a label, by the close of business, Tuesday, 
June 5, 2001, to Allison Giles, Chief of Staff, Committee on Ways and 
Means, U.S. House of Representatives, 1102 Longworth House Office 
Building, Washington, D.C. 20515. If those filing written statements 
wish to have their statements distributed to the press and interested 
public at the hearing, they may deliver 200 additional copies for this 
purpose to the Subcommittee on Human Resources office, room B-317 
Rayburn House Office Building, by close of business the day before the 
hearing.

FORMATTING REQUIREMENTS:

    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.

    1. All statements and any accompanying exhibits for printing must 
be submitted on an IBM compatible 3.5-inch diskette WordPerfect or MS 
Word format, typed in single space and may not exceed a total of 10 
pages including attachments. Witnesses are advised that the Committee 
will rely on electronic submissions for printing the official hearing 
record.

    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.

    3. A witness appearing at a public hearing, or submitting a 
statement for the record of a public hearing, or submitting written 
comments in response to a published request for comments by the 
Committee, must include on his statement or submission a list of all 
clients, persons, or organizations on whose behalf the witness appears.

    4. A supplemental sheet must accompany each statement listing the 
name, company, address, telephone and fax numbers where the witness or 
the designated representative may be reached. This supplemental sheet 
will not be included in the printed record.

    The above restrictions and limitations apply only to material being 
submitted for printing. Statements and exhibits or supplementary 
material submitted solely for distribution to the Members, the press, 
and the public during the course of a public hearing may be submitted 
in other forms.

    Note: All Committee advisories and news releases are available on 
the World Wide Web at ``http://waysandmeans.house.gov''.

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                <F-dash>


    Chairman Herger. Welcome to today's hearing on welfare and 
marriage. It is hardly news that the institution of marriage 
today is under assault on several fronts. It is also not news 
that children often suffer when marriages break up or never 
form. Here is what the National Commission on Children, which 
included then Governor Bill Clinton, and Children's Defense 
Fund President Marian Wright Edelman reported back in 1991, 
quote, ``When parents divorce or fail to marry, children are 
often the victims. Children who live with only one parent, 
usually their mothers, are six times more likely to be poor 
than children who live with both parents. They also suffer more 
emotional, behavioral, and intellectual problems. They are at 
greater risk of dropping out of school, alcohol and drug abuse, 
adolescent pregnancy and childbearing, juvenile delinquency, 
mental illness and suicide,'' end of quote.
    This is not to disrespect the millions of single moms and 
dads working hard to raise a family alone. They are to be 
commended for their daily struggles, which are often heroic. 
But as legislators charged with overseeing government programs 
to help poor families with children, this Subcommittee cannot 
turn a blind eye to the negative effects family breakdown can 
have on children. So what are we to do?
    For starters, we must recognize the challenges we face. At 
least three major social trends are at work here. First, 
millions of marriages are being delayed or never occur as more 
and more young people cohabit. Second, out-of-wedlock 
childbearing remains at record levels, with one in three 
children born outside of marriage. And, third, divorce remains 
at near-record levels.
    Yet even within the statistics are faint glimmers of hope. 
In a recent survey, 82 percent of unwed mothers reported they 
were romantically involved with their children's father at the 
time of the child's birth. Almost half were living together, 
and the majority of these unmarried mothers and fathers believe 
they have a good chance of marrying the other parent. So a key 
question is what happens to these families that keeps them from 
forming permanent relationships? What can or should we do to 
help young couples and new parents form more permanent 
relationships, including, when appropriate, marriage?
    In 1996, the welfare reform law attempted to answer the 
latter question by allowing States to use cash welfare funds to 
promote marriage and family formation. The logic was clear. If 
States discourage out of wedlock childbearing and encourage 
marriage, welfare dependence will shrink and children will be 
better off. However, only a few States have taken up this 
challenge. We are fortunate to have witnesses today from two 
States operating programs in this area, Arizona and Oklahoma. 
We look forward to their testimony. We also will hear from 
researchers and experts about other ways to promote marriage 
with certain cautions. Such cautions are not lost on us. We 
should be clear that no one is talking about forcing anyone to 
marry.
    Americans rightly are concerned about government 
involvement when it comes to sensitive issues like childbearing 
and family formation. I am concerned about that, as well. But 
just as we agree on removing marriage penalties in the tax 
code, we should also think about removing marriage penalties in 
public benefit programs. With the new welfare law, we started 
to take steps in that direction.
    Today, we will hear about what is working and consider what 
more can and should be done. I look forward to all the 
witnesses' testimonies. Without further objection, each Member 
will have the opportunity to submit a written statement and 
have it included in the record at this point.
    Mr. Cardin, would you like to make an opening statement?
    [The opening statement of Chairman Herger follows:]

   Opening Statement of the Hon. Wally Herger, M.C., California, and 
               Chairman, Subcommittee on Human Resources

    Welcome to today's hearing on welfare and marriage. It's hardly 
news that the institution of marriage today is under assault on several 
fronts. It's also not news that children often suffer when marriages 
break up or never form. Here's what the National Commission on 
Children, which included then-Governor Bill Clinton and Children's 
Defense Fund President Marian Wright Edelman, reported back in 1991:

        When parents divorce or fail to marry, children are often the 
        victims. Children who live with only one parent, usually their 
        mothers, are six times more likely to be poor than children who 
        live with both parents. They also suffer more emotional, 
        behavioral, and intellectual problems. They are at greater risk 
        of dropping out of school, alcohol and drug use, adolescent 
        pregnancy and childbearing, juvenile delinquency, mental 
        illness, and suicide.

    This is not to disrespect the millions of single moms and dads 
working hard to raise a family alone. They are to be commended for 
their daily struggles, which are often heroic. But as legislators 
charged with overseeing government programs to help poor families with 
children, this Subcommittee cannot turn a blind eye to the negative 
effects family breakdown can have on children. So what are we to do?
    For starters, we must recognize the challenges we face. At least 
three major social trends are at work here. First, millions of 
marriages are being delayed or never occur as more and more young 
people ``cohabit''. Second, out-of-wedlock childbearing remains at 
record levels, with one in three children born outside marriage. And 
third, divorce remains at near-record levels.
    Yet even within these statistics are faint glimmers of hope. In a 
recent survey, 82 percent of unwed mothers reported they were 
romantically involved with their children's fathers at the time of the 
child's birth. Almost half were living together. And the majority of 
these unmarried mothers and fathers believe they have a good chance of 
marrying the other parent.
    So a key question is what happens to these families that keeps them 
from forming permanent relationships? And what can or should we do to 
help young couples and new parents form more permanent relationships 
including, when appropriate, marriage?
    The 1996 welfare reform law attempted to answer the latter question 
by allowing States to use cash welfare funds to promote marriage and 
family formation. The logic was clear. If States discourage out-of-
wedlock childbearing and encourage marriage, welfare dependence will 
shrink and children will be better off. However, only a few States have 
taken up this challenge. We are fortunate to have witnesses today from 
two States operating programs in this area, Arizona and Oklahoma. We 
look forward to their testimony. We also will hear from researchers and 
experts about other ways to promote marriage, with certain cautions. 
Such cautions are not lost on us. We should be clear that no one is 
talking about forcing anyone to marry.
    Americans rightly are concerned about government involvement when 
it comes to sensitive issues like childbearing and family formation. I 
am concerned about that too. But just as we agree on removing marriage 
penalties in the tax code, we should also think about removing marriage 
penalties in public benefit programs.
    With the new welfare law, we started to take steps in that 
direction. Today we will hear about what is working, and consider what 
more can and should be done. I look forward to all of the witnesses' 
testimony.
    Mr. Cardin?

                                <F-dash>


    Mr. Cardin. Well, thank you, Mr. Chairman. Let me first 
state that I agree with the comments that you have made. I 
think there is general consensus that marriage can benefit 
children. All things being equal, children in married families 
face fewer hurdles than those with one parent attempting to 
fill two roles. Statistical comparisons between the poverty 
status of children in single parent homes versus those of 
married homes clearly highlight this divide. Of course, we must 
recognize that these generalizations do not apply to every 
circumstance, particularly when domestic violence is present, 
and I very much appreciate your comments of caution about the 
role the government should play in encouraging marriage.
    However, recognizing the benefits of marriage and deciding 
whether government should and effectively can encourage couples 
to walk down the aisle are not the same thing. We need to be 
honest about the lack of information we have on specific 
programs designed to promote marriage. To avoid wasting 
taxpayer money on unproven programs, we may be wise to 
establish a demonstration project to find out what works and 
what does not work to encourage and sustain marriage.
    The bipartisan provisions in the legislation that was 
authored by our colleague, Mrs. Johnson, and myself, and was 
passed by this Committee and the full House last year, 
contained some programs that would have helped in this area. I 
think that can be a model for our work this year. There are 
also some general steps that we can take to make marriage more 
likely to occur and more likely to last.
    For example, we can eliminate disincentives to marriage, 
including barriers to two-parent families participating in 
Temporary Assistance for Needy Families (TANF). We should start 
by reviewing the Federal two-parent work requirements in TANF, 
which may actually discourage States from serving low-income 
married families. Mr. Chairman, the only obstacle that could 
prevent us from forging a bipartisan approach to strengthening 
marriage would be if such an effort became a code word for 
cutting poverty programs or targeting single parents for 
punitive action. I hope this will not happen.
    We should all recognize that the connection between 
marriage and poverty is a two-way street. Increasing marriage 
may help alleviate poverty, but reducing economic hardship can 
also promote marriage. Consider a program in Minnesota, which 
found that welfare recipients were more likely to get married 
and stay married when they were allowed to increase their 
income by supplementing low wages with a continued partial 
welfare benefit.
    Listen to the testimony we will hear later today about how 
the lack of economic opportunity can affect decisions on 
marriage. In short, low-income mothers have told researchers 
that fathers who have little prospect of bringing home a 
regular paycheck are not marriage material. Just think for a 
moment about how the problems that poverty brings into a 
neighborhood, such as crime, drug addiction and hopelessness, 
presents additional barriers to family formation. All these 
issues suggest that we should do more to reduce poverty, not 
less, if we are truly interested in creating an environment in 
which parents are more likely to become and stay married.
    I look forward to hearing the witnesses today and working 
with you, Mr. Chairman, so that we can forge a bipartisan 
approach to encourage marriage and remove the disincentives 
that are included in existing law.
    [The opening statement of Mr. Cardin follows:]

    Opening Statement of the Hon. Benjamin L. Cardin, M.C., Maryland

    Mr. Chairman, I think there is a general consensus that marriage 
can benefit children. All things being equal, children in married 
families face fewer hurdles than those with one parent attempting to 
fill two roles. Statistical comparisons between the poverty status of 
children in single-parent homes versus those in married homes clearly 
highlight this divide. Of course, we must recognize these 
generalizations do not apply to every circumstance, particularly when 
domestic violence is present.
    However, recognizing the benefits of marriage and deciding whether 
government should or effectively can encourage couples to walk down the 
aisle are not the same thing. We need to be honest about the lack of 
information we have on specific programs designed to promote marriage. 
To avoid wasting the taxpayers money on unproven programs, we may be 
wise to establish a demonstration project to find out what works and 
what doesn't work to encourage and sustain marriage. The bipartisan 
provisions on fatherhood and marriage that this subcommittee and the 
full House passed last year, but which were not considered by the other 
body, could act as model for such a program.
    There are also some general steps we can take to make marriage more 
likely to occur and more likely to last. For example, we can eliminate 
disincentives to marriage, including barriers to two-parent families 
participating in TANF. We should start by reviewing the Federal two-
parent work requirement in TANF, which may actually discourage States 
from serving low-income, married families.
    Mr. Chairman, the only obstacle that could prevent us from forging 
a bipartisan approach to strengthening marriage would be if such an 
effort became a code-word for cutting poverty programs or targeting 
single parents for punitive action. I hope this will not happen.
    We should all recognize that the connection between marriage and 
poverty is a two-way street: increasing marriage may help alleviate 
poverty, but reducing economic hardship also promotes marriage.
    Consider a program in Minnesota which found that welfare recipients 
were more likely to get married and to stay married when they were 
allowed to increase their income by supplementing low-wages with a 
continued, partial welfare benefit.
    Listen to testimony we will hear later today about how the lack of 
economic opportunity can affect decisions on marriage. In short, low-
income mothers have told researchers that fathers who have little 
prospect of bringing home a regular paycheck are not marriage material.
    And just think for a moment about how the problems that poverty 
brings into neighborhoods, such as crime, drug addiction and 
hopelessness, present additional barriers to family formation. All of 
these issues suggest that we should do more to reduce poverty, not 
less, if we are truly interested in creating an environment in which 
parents are more likely to become and stay married.
    I look forward to hearing from our witnesses about their 
perceptions on these important issues. Thank you.

                                <F-dash>


    Chairman Herger. Thank you very much. I appreciate the 
comments of the ranking Member, and I think we share some good 
intentions and goals here. I thank you very much, Mr. Cardin. 
Before we move on to our testimony this afternoon, I want to 
remind witnesses to limit their oral statements to five 
minutes. However, without objection, all of the written 
testimony will be made part of the permanent record. Will the 
witnesses for the first panel please have a seat?
    I would like to recognize our colleague from Arizona, Mr. 
Hayworth, to introduce our first panelist, Representative 
Anderson, Chairman of the Human Services Committee of the 
Arizona House of Representatives.
    Mr. Hayworth.
    Mr. Hayworth. Mr. Chairman, Members of the Subcommittee, 
thank you. Ladies and gentlemen, good afternoon. It is my honor 
to introduce an old friend, State Representative--from our 
great State of Arizona--Mark Anderson. As the chairman 
mentioned, Mark serves as chairman of the Human Services 
Committee in the Arizona State House. Under his chairmanship, 
Mark has been one of the key architects of Arizona's welfare 
reform efforts. Through his leadership, the welfare rolls in 
Arizona have been reduced 40 percent since 1996.
    Arizona has also been successful in reducing births to 
unmarried and teen mothers who face a greater-than-normal risk 
for poverty. This is partly due to Arizona's efforts to 
supplement its abstinence education program by adding an 
abstinence-until marriage program to target teens and young 
adults with this important message. As a result, in September 
of 2000, Arizona was one of only five States to receive a $20 
million bonus from the Federal government for decreasing its 
out-of-wedlock birth rates.
    Most recently, Representative Anderson was the sponsor of 
legislation creating marriage skills training courses, to be 
offered by community-based institutions and organizations and a 
media campaign to promote healthy marriage and the need for 
marriage preparation. I am glad Mark is here today to share 
with the Subcommittee the success that Arizona has had in both 
reducing out-of-wedlock birth rates and encouraging healthy 
marriages. The success of Arizona to promote marriage can be 
used as a model for the rest of the Nation as this Congress 
begins to discuss the reauthorization of Temporary Assistance 
to Needy Families. With that, Representative Anderson, welcome.
    Chairman Herger. Thank you, Mr. Hayworth. I would now like 
to recognize the gentlelady from Connecticut, Mrs. Johnson, to 
recognize a couple of her constituents.
    Mrs. Johnson. Well, thank you. They are not directly my 
constituents, but I want to specifically welcome Mr. and Mrs. 
McManus to this table. I appreciate your input at this 
important hearing and your thoughts about how we can strengthen 
marriage at the same time we reduce dependence on welfare. They 
are not only contributing today themselves, but their son is my 
chief of staff on the Health Subcommittee of Ways and Means, 
and has dedicated many years to helping Congress find the right 
way to solve our problems in the health-care area. So it is a 
special privilege to have you here today.
    Mr. McManus. Thank you for your gracious comments.
    Chairman Herger. Thank you. Next I would like to recognize 
a Member of our Committee, from Oklahoma, Mr. Watkins, to make 
introductions.
    Mr. Watkins. Thank you, Mr. Chairman and Members of the 
Committee. It is my real honor and privilege to introduce a 
long-time friend. He is nationally recognized as a speaker on 
youth and family, and specifically on marriage and health and 
juvenile justice, and also has contributed to many books, 
working on many books and many periodicals on various social 
issues. But, also, let me say right now my friend Jerry Regier 
is serving as Governor Frank Keating's Cabinet Secretary for 
Health and Human Services, and he serves as Acting Director of 
the Oklahoma State Department of Health. He was appointed 
acting director back on June 1st of 2000, to restore integrity 
in the Department of Human Services and the Health department, 
where we had a number of problems, but as Secretary of the 
Department of Health and Human Services, he oversees 70 boards 
and commissions and 13 different agencies of the Department of 
Health and Human Services. He has also held several key 
appointments, one in 1992, by President Bush, 41st President 
Bush, of this country, as National Officer of Juvenile Justice 
and Delinquency Prevention in the Department of Justice in 
1981, by President Reagan, who appointed him as Health and 
Human Services, to serve as Associate Commissioner for the 
administration of Children, Youth and Families, and established 
in 1981 the Family Research Council.
    So my friend Jerry Regier has got a long list of 
achievements and accomplishment and dedication to youth and 
also to families. I would just like to make this remark? My 
colleague, Mr. Cardin, mentioned about reducing poverty. I can 
assure you that is a situation, and having been raised in a 
broken home myself--we used to call it broken home--and 
poverty, and a mother who did everything--she said we were 
going to stay off welfare--I can assure you that one of the 
things that destroyed our family and probably motivated me to 
be in politics today is because I had to go back and forth to 
California three times with my family before I was 10 years of 
age to search for a job.
    It destroyed our family. My father was an alcoholic and 
died an alcoholic, and probably because he did not have the 
self-esteem of being able to bring a paycheck home to his 
family. So that has been motivational in my life. I would just 
like to say you can have a broken home and the separation and 
all. It can either work in two ways. One, you can say I am not 
going to let that happen in my own family and try to do 
something with your life, or you can let it take you down to 
the bottom of the gutter, and sometimes they use that as an 
excuse, and poverty plays a big role in that.
    So, Mr. Chairman and to the Committee, I think it is a very 
timely time to have this meeting.
    Mr. Cardin. Mr. Chairman, if you would just yield for one 
moment.
    Chairman Herger. I will yield.
    Mr. Cardin. I notice that the McManuses are accompanied by 
Mr. Cofer and Ms. Lucas, who happen to come from the State of 
Maryland. Now, they do not come from my district, but we are 
going through a redistricting in Maryland, so I am not sure 
what my district will look like. So I would like to welcome you 
to our Committee.
    Chairman Herger. Well, thank you, Mr. Cardin, for 
recognizing our other witnesses. So, with that, Mr. Anderson, 
we would like to hear from you for testimony, please.

 STATEMENT OF THE HON. MARK ANDERSON, CHAIRMAN, HUMAN SERVICES 
COMMITTEE, AND REPRESENTATIVE, ARIZONA HOUSE OF REPRESENTATIVES

    Mr. Anderson. Thank you, Mr. Chairman and Members. For the 
record, my name is Mark Anderson. I chair the Human Resources 
Committee in the Arizona House of Representatives. Thank you 
for this opportunity to speak with you today regarding welfare 
reform and marriage policy. I have provided packets of 
information which convey the essence of the research and the 
background on the issue. I believe the reason that I am before 
you today is that I was the prime sponsor of legislation which 
passed and became law last year, that allocated $1 million of 
TANF money for marriage skills courses, to be provided by 
community-based organizations.
    The courses are neither therapy nor counseling, but are 
based on proven educational curricula. The legislation also 
provided for $75,000 for the production of a healthy marriage 
handbook that will be given to all Arizonans applying for 
marriage licenses and $75,000 for vouchers for low-income 
couples who want to take a marriage skills course and need 
financial assistance.
    The legislation also established a Marriage and 
Communication Skills Commission that oversees the 
implementation of the legislation. As you are certainly aware, 
the wheels of government turn slowly, and the Request for 
Proposals (RFP) for the contract to provide the courses was not 
let until this year. Bids are now in, and the Marriage and 
Communications Skills Commission meets in 2 days to make its 
recommendations for allocating the funding.
    As you begin the process of the reauthorization of the TANF 
block grant, I would like to strongly encourage you to urge 
states to develop policies and programs that strengthen 
marriage with the goal to lower the divorce rate.
    I want to briefly mention a successful program in Arizona 
that I believe is a model for how marriage skills policy can be 
developed. In 1997, we passed our version of welfare reform in 
Arizona in response to the 1996 Personal Responsibility and 
Work Opportunity Reconciliation Act. In that legislation was a 
provision to combine roughly $1.5 million of Title V abstinence 
education money with 2 million TANF dollars to create a pot of 
$3.5 million, which has since increased to $4 million, for an 
abstinence until marriage program.
    The program is based on the principle that abstinence for 
unmarried young people is the best choice and practical skills 
are taught that enable someone choosing abstinence to be 
successful in achieving that goal. Results from that program 
are now coming in. Last year, Arizona was the second-best State 
in the nation at reducing out-of-wedlock births, as Congressman 
Hayworth mentioned, which enabled us to win one of the Federal 
$20 million bonus awards.
    However, when I first introduced abstinence education 
legislation in 1995, many legislators were very skeptical and 
the legislation was defeated. Yet two years later, abstinence 
was accepted as an idea worth trying. Now abstinence is 
regarded as the primary theme of the most sex education being 
done in Arizona. Marriage skills education will undoubtedly 
follow the same pattern. At first, there is a healthy 
skepticism among lawmakers, followed by a willingness to try 
it, and ultimately, based on the successful results, an 
acceptance of the policy.
    Both abstinence until marriage and marriage skill programs 
are based in sound health policy. Scientific research indicates 
that the choice to engage in early premarital sex increases 
one's chances of experiencing numerous unhealthy outcomes, 
making abstinence a healthier lifestyle choice. However, 
without teaching the skills to remain abstinent, success will 
be extremely limited. Likewise, preparing for a healthy 
marriage includes communication and empathy for one's spouse. 
If a person can achieve and maintain a healthy marriage, 
studies show they reduce their risk substantially of 
experiencing a number of negative outcomes.
    Abstinence and marriage are health and lifestyle issues 
similar to smoking, drug use or proper diet that schools 
already address. Education is a legitimate function of 
government, including educating citizens in ways that will 
promote healthy living. The goal for marriage policy should not 
be to eliminate divorce, as noble as that may be. Rather merely 
lowering the divorce rate substantially will result in 
significant savings in court costs, child support enforcement, 
domestic violence programs, foster care, and so on.
    Recently, the nation of Australia conducted a study to 
determine the cost of divorce and discovered that the results 
of divorce cost $6 billion dollars a year for that nation. 
Australia has approximately one-fourteenth the number of people 
as the United States. This would equate to a cost of about $84 
billion here in this country. I believe it is time to take a 
serious look at our priorities as we engage in a discussion of 
the reauthorization of the welfare block grant.
    How can we prevent people from becoming dependent on the 
government in the first place? How can we increase the number 
of children growing up in homes with a loving mother and 
father? First, Congress must commit to the principle of healthy 
marriage, and second give people the skills to make this goal a 
reality. It has worked for abstinence until marriage policy in 
Arizona and it can work for marriage policy here, as well. I 
would be happy to answer any questions.
    [The prepared statement of Mr. Anderson follows:]

     Statement of the Hon. Mark Anderson, Chairman, Human Services 
    Committee, and Representative, Arizona House of Representatives

    For the record, my name is Mark Anderson. I chair the Human 
Services Committee in the Arizona House of Representatives. Thank you 
for this opportunity to speak with you today regarding welfare reform 
and marriage policy. I have provided packets of information which 
convey the essence of the research and background on this issue.
    I believe the reason I am before you today is that I was the prime 
sponsor of legislation which passed and became law last year that 
allocated one million dollars of TANF money for marriage skills 
courses. Provided by community-based organizations, the courses are 
neither therapy nor counseling, but are based on proven educational 
curricula. The legislation also provided 75 thousand dollars for the 
production of a ``healthy marriage'' handbook that will be given to all 
Arizonans applying for a marriage license and 75 thousand dollars for 
vouchers for low income couples who want to take a marriage skills 
course and need financial assistance. The legislation also established 
a Marriage and Communication Skills Commission that oversees the 
implementation of the legislation.
    As you are certainly aware, the wheels of government turn slowly, 
and the RFP for the contracts to provide the courses was not let until 
this year. Bids are now in, and the Marriage and Communication Skills 
Commission meets in two days to make their recommendations for 
allocating the funding.
    As you begin the process of re-authorization of the TANF block 
grant, I would like to strongly encourage you to urge states to develop 
policies and programs that strengthen marriages with the goal to lower 
the divorce rate.
    I want to briefly mention a successful program in Arizona that I 
believe is a model for how successful marriage skills policy can be 
developed.
    In 1997, we passed our version of welfare reform in Arizona in 
response to the 1996 PRWORA act. In that legislation was a provision to 
combine roughly 1.5 million dollars of Title V abstinence education 
money (including the state match) with two million TANF dollars to 
create a pot of 3.5 million dollars (it has since been increased to 4 
million dollars) for an abstinence-until-marriage program.
    The program is based on the principle that abstinence for unmarried 
young people is the right choice, and practical skills are taught that 
enable someone choosing abstinence to be successful in achieving that 
goal. The results from that program are now coming in. Last year 
Arizona was the second best state in the nation at reducing out-of-
wedlock births, which enabled us to win one of the 20 million dollar 
bonus awards.
    However, when I first introduced abstinence education legislation 
in 1995, many legislators were very skeptical and the legislation was 
defeated. Yet, two years later, abstinence was accepted as an idea 
worth trying. Now, abstinence is regarded as the primary theme of most 
sex education being done in Arizona.
    Marriage skills education will undoubtedly follow the same pattern. 
At first, there is a healthy skepticism among lawmakers, followed by a 
willingness to try it, and finally, based on the successful results, an 
acceptance of the policy.
    Both abstinence-until-marriage and marriage skills programs are 
based in sound health policy. Scientific research indicates that the 
choice to engage in early premarital sex increases one's chances of 
experiencing numerous unhealthy outcomes, making abstinence a healthier 
lifestyle choice. However, without teaching the skills to remain 
abstinent, success will be extremely limited.
    Likewise, preparing for a healthy marriage also requires developing 
or having a set of skills that includes communication and empathy for 
one's spouse. If a person can achieve and maintain a healthy marriage, 
studies show they reduce their risk substantially of experiencing a 
number of negative outcomes.
    Abstinence and marriage are health and lifestyle issues, similar to 
smoking, drug use or proper diet that schools already address. 
Education is a legitimate function of government, including educating 
citizens in ways that will promote healthy living.
    The goal for marriage policy is not to eliminate divorce, as noble 
as that may be. Rather, merely lowering the divorce rate substantially, 
will result in significant savings in court costs, child support 
enforcement, domestic violence programs, foster care, and on and on.
    Recently, the nation of Australia conducted a study to determine 
the costs of divorce and discovered that the results of divorce cost 
six billion dollars a year. Australia has approximately one fourteenth 
the number of people as the United States. This would equate to a cost 
of 84 billion dollars here in this country.
    I believe it is time to take a serious look at our priorities as we 
engage in a discussion of the re-authorization of the welfare block 
grant.
    How can we prevent people from becoming dependent on government in 
the first place? How can we increase the number of children growing up 
in homes with a loving mother and father?
    First, Congress must commit to the principle of healthy marriage, 
and secondly give people the skills to make this goal a reality. It has 
worked for abstinence-until-marriage policy in Arizona, and it can work 
for marriage policy here as well.
    As we look at marriage policy as it relates to the bigger picture 
of welfare reform, there is no doubt that the two are inextricably 
linked.
    Arizona, like most states, has successfully reduced the number of 
families on cash assistance by half. Most of these parents are now 
working, struggling to make ends meet, but doing the responsible thing.
    As I see it, our main task now is to do three things regarding 
welfare reform.
    First, we need to ensure that those who have left the rolls and are 
striving to be self-sufficient have enough support; such as, child 
care, transportation and training, to fully transition and not fall 
back onto the system.
    Second, we need to address the multiple barriers of those who are 
still on cash assistance. One of the most significant barriers for 
example, is substance abuse.
    The third priority of welfare reform must be prevention. We must 
ask the questions, ``How do people come to be on welfare? What 
interventions could we make in society to stop the cycle of 
dependency?''
    To answer these questions, I first looked to the drafters of the 
historic federal welfare reform legislation of 1996. The language of 
the federal law states, ``(1) Marriage is the foundation of a 
successful society. (2) Marriage is an essential institution of a 
successful society which promotes the interests of children and (3) 
promotion of responsible fatherhood and motherhood is integral to 
successful child rearing and the well being of children.''
    The drafters went on to clearly describe the four purposes of 
welfare reform. They are:
    (1) Provide assistance to needy families so that children may be 
cared for in their own homes or in the homes of relatives;
    (2) End the dependence of needy parents on government benefits by 
promoting job preparation, work and marriage;
    (3) Prevent and reduce the incidence of out-of-wedlock pregnancies; 
and
    (4) Encourage the formation and maintenance of two-parent families.
    In essence, the four purposes indicate that the key to breaking the 
cycle that leads to substance abuse, addiction, irresponsible sexual 
behavior and dependency on government is enabling children to be raised 
in two-parent, married households.
    Though there are many brave, caring single parents raising their 
children alone, nearly all the recent studies have shown that children 
raised in homes where a healthy marriage is present, do better in every 
category of mental, physical and emotional well being.
    Marriage is a personal and (often) sacred commitment between two 
people in love. However, it is not a choice that has no effect on 
society, like choosing a flavor of ice cream. The breaking down of a 
marriage, or even existing in a marriage wracked by conflict and 
violence, is the essential source of a host of social problems.
    Government, funded by tax dollars, then steps in to clean up the 
effects of these social problems. In Arizona, we fund child support 
enforcement ($37.7 M), domestic violence shelters ($9.7 M), child 
protective services ($113.4M), and millions more for juvenile courts, 
domestic relations courts, cash assistance to welfare clients, etc.
    It is time to move in the direction of prevention. As a first step, 
marriage skills courses are going to be offered to young couples 
preparing for marriage.
    These courses have been proven to be effective in places where they 
are being taught around the country. The Bar Association course, called 
PARTNERS, is currently being taught in 175 schools in 30 states.
    Young people who understand what marriage is about, and who have 
the skills to communicate when differences arise, will have a much 
better chance at success in the most important relationship of their 
life.
    Their children will benefit by growing up in a stable home where 
the parents model appropriate, loving communication, thus breaking the 
cycle that leads to drug abuse, teen pregnancy, violence and 
dependency.
    Will these prevention steps achieve a 100% success rate? No, they 
will not. Divorce will still be a reality, even for some who take the 
courses and learn the skills. This is not a panacea. It is a modest 
step to address the source of many of our societal problems.
    Organizations as diverse as the conservative Heritage Foundation 
and the moderate National Conference of State Legislatures support 
these types of programs.
    With TANF re-authorization next year, Congress has a chance to lead 
on the issue of strengthening marriage, which the Heritage Foundation 
calls, ``the nation's paramount social goal over the next decade.''
    Let's give these programs a chance to make a difference in our 
children's lives. Let's strengthen our families, break the cycle of 
drug addiction and give our children a better future.
    Marriage has become one of modern America's most controversial 
subjects. It's time to put this important topic on the table for public 
discussion. Because our marriages are falling apart at an alarming 
rate, our society is suffering tremendous damage.
    A report released by the National Marriage Project at Rutgers 
University found a substantial weakening of the institution of marriage 
in America. The researchers said the U.S. marriage rate has never been 
lower, the divorce rate remains high and Americans' marriages are less 
happy than in the past.
    ``Marriage is a fundamental societal institution,'' the National 
Marriage Project report says. ``It is central to the nurture and 
raising of children. It is the `social glue' that reliably attaches 
fathers to children. It contributes to the physical, emotional and 
economic health of men, women and children, and thus to the nation as a 
whole.''
    When marriages break apart, or fail to form in the first place, 
there is a heavy human cost, but taxpayers are also paying taxes to 
government for things like child support enforcement, domestic violence 
programs, child abuse and neglect, not to mention welfare benefits to 
mothers who are dependent due to divorce and court system costs. If we 
can reduce the divorce rate in any measurable fashion, it will save the 
taxpayers substantial dollars.
    Providing marriage skills education will not create greater 
government involvement in people's lives. In reality it will reduce 
government involvement. Anyone having gone through a nasty divorce 
knows that government (through the courts) dictates how much child 
support will be paid, when the non-custodial parent may see his or her 
own children and even whether or not the custodial parent may move to 
another state! That is certainly government control. Getting divorced 
or having children out-of-wedlock can be sure ways to ensure that 
government is involved in your life.
    The marriage strengthening courses that I am advocating are not 
government-developed, government-taught or mandated by government upon 
the citizens.
    The courses I am referring to are developed by private 
organizations that have learned over the years what works. They have 
documented track records of success at helping couples prepare for 
marriage and preserving existing marriages. The courses can be taught 
by trained individuals at minimal expense and will be offered as an 
option and opportunity to those interested in learning the skills to 
create and maintain a strong marriage.
    If the courses are taught in high schools, other courses, such as 
mathematics do not need to be dropped in order to offer marriage and 
relationship skills as an elective. This is not a zero sum game as some 
naysayers claim. Of course, children must be taught math, science, 
reading and history. Perhaps if they learned communication, listening 
and the other skills necessary to be a good marriage partner, they 
would also perform better in all the other academic disciplines.
    In fact, government has already spent significant money researching 
the problem of family dysfunction. The information should be put to use 
to develop policies that reduce family breakdown. Policymakers in 
Congress are no doubt looking for solutions that work.
    Anyone interested in finding out more about the marriage education 
movement should visit the smartmarriages.com website, which is a 
clearing house for the many types of educational programs in this 
burgeoning field.
    In 1999, the state of Florida courageously led the way by passing 
the Marriage Preparation and Preservation Act. By a nearly unanimous 
vote, the bi-partisan bill was easily adopted and signed into law by 
the governor. This legislation mandates that high school seniors must 
take a marriage and relationship skills course in order to graduate 
from high school.
    Florida also gives a nice discount off the marriage license fee for 
couples who can show they have taken a marriage preparation course. 
There is a waiting period to obtain a license of an extra three days 
for couples who have not taken a course.
    Governors Keating of Oklahoma, Huckabee of Arkansas and Leavitt of 
Utah are all strong proponents of strengthening marriage and are 
working in high-profile ways to reduce divorce in their states and 
educate their citizens as to the value of a healthy marriage. The 
movement to improve the quality of all marriages and families is 
actually a response to what Americans are calling for and is gaining 
momentum as policymakers catch up.
    If couples improve communication, who will benefit the most? The 
children. Numerous individuals who have grown up as children of 
divorced parents have spoken to me and written to me of the need for 
this legislation. The pain that these people have experienced perhaps 
could be prevented for future children if we as a society are willing 
to take up the challenge and address the problems associated with 
broken families.
    Finally, the longest term evaluation of a skills-based, premarital 
training ever conducted has been a study comparing couples trained in 
marriage skills to matched control couples (Markman, Floyd, Stanley & 
Storasli, 1998; Markman et al., 1993; Stanley et al., 1995). Trained 
couples have been shown to have about half the likelihood of breaking 
up or divorcing, have demonstrated greater relationship satisfaction 
and have shown lower problem intensity than the control couples, up to 
five years following a weekend training.
    For countless couples whose marriages have been saved, and for 
their children who are now thriving in a loving home, there is no doubt 
that marriage skills training works.
    In conclusion, it is possible to lower the divorce rate in the 
United States of America, and if it can be done, it should.

                                <F-dash>


    Chairman Herger. Thank you very much, Mr. Anderson; and now 
we will hear from the Secretary of the Oklahoma Department of 
Health and Human Services, Mr. Jerry Regier.

STATEMENT OF THE HON. JERRY REGIER, CABINET SECRETARY, OKLAHOMA 
   HEALTH AND HUMAN SERVICES, AND ACTING DIRECTOR, OKLAHOMA 
                      DEPARTMENT OF HEALTH

    Mr. Regier. Thank you, Mr. Chairman. I appreciate the 
opportunity to come and tell a little bit about what we are 
doing in the State of Oklahoma. Governor Frank Keating has 
taken leadership in setting up the marriage initiative, and I 
would like to share some details. In my written testimony, I 
talk about the role of government, and I will not spend a lot 
of time there, except to say the government is already involved 
in families. I was recently at a national conference and a 
local judge from Michigan put it this way. If you want 
strangers from the government to tell you when to see your 
child, how much money you should send them each month, how and 
when you can communicate and how to divide the assets of the 
marriage, then file for divorce. She went on to say, as a 
judge, if you want to keep the government out of your life, 
stay married.
    I thought it was put very well, and what we are trying to 
do in Oklahoma is reduce divorce and thereby keep government 
out of people's lives, in terms of the way that they get 
involved during the divorce. The Governor has taken bold 
leadership, and I think in a State, whenever you do a public 
policy initiative, the first foundational steps are critical. I 
have outlined several of those steps that we have taken. One is 
that the Governor set out a measurable goal. He said he would 
like to reduce divorce by a one-third in the next 10 years, and 
so he set out the goal for everybody to begin to try to reach.
    Second, we followed some key principles in our efforts that 
I think are critical to laying a foundation for really seeing 
something happen from a public policy standpoint. One of those 
is we made very sure that we had a multi-sector strategy. This 
cannot be a strategy where we just say to the religious 
community you take care of it, or that we say to any other 
community you take care of it, even the government.
    So we took a multi-sector approach. We have seven sectors 
that we brought to an initial conference that the Governor had 
on marriage, and this was an opportunity for us to educate, to 
inform, as well as to get information from these folks. We 
invited 30 leaders from each of those seven sectors: community 
service providers, education, business, media, religious, 
government and legal.
    Another principle, is that you must have leadership at the 
top. If you are going to take on something like this, the 
Governor really has to be committed to it, and our Governor is 
committed to it. He also committed me to provide direct 
leadership, as his Cabinet Secretary.
    Another principle was ongoing operational management. 
Anytime you set a policy goal, in order to reach that goal, you 
must take the steps necessary to get there. We bid out the 
operational management and the firm of Public Strategies got 
that bid. They have been providing the structure for us to take 
the marriage initiative forward.
    The final principle that we followed, is that you must 
commit some significant funding. Very few public policy efforts 
are going to be successful if there is not significant funding. 
In Oklahoma, we have reduced our welfare rolls by 80 percent 
over the last 6 years, and consequently, if we could call it, 
quote, ``a surplus'' that has come out of the TANF, it would be 
about $100 million. The Governor committed 10 percent of that, 
$10 million, and Department of Human Services (DHS) has set 
that aside for us to develop programs to support and encourage 
marriage.
    I want to talk about the two tracks that we have taken. One 
track is a religious track and others will talk about that more 
fully, but we now have about 550 religious leaders that have 
committed to signing an Oklahoma marriage covenant. Basically, 
that says they will not marry within their religious faith or 
their sphere of influence without 4-6 months of premarital 
counseling, and that they will also work to develop mentors 
within their area of influence.
    Secondly, what I would call the secular track. In this 
track we have taken three existing structures--the health 
department, which is psychologists involved in a guidance 
system in all of our counties across the State. Secondly, we 
have taken the social workers from DHS, which is the welfare 
workers. Thirdly, we have taken the extension service of the 
land grant college, Oklahoma State University. Each of these 
structures are already in place; educators in the extension 
system, social workers and psychologists.
    We are developing a service delivery system that will 
deliver marriage education, skills building education, across 
the State through these structures. We are in the process of 
signing that contract. We have chosen a curriculum, which I 
talk about in the written testimony, called PREP, Prevention 
and Relationship Enhancement Program, and we have primarily 
chosen that curriculum because it is a very research-based, 
skills-building kind of curriculum. We appreciate the support 
that you can give to efforts like ours at the State level. 
Thank you.
    [The prepared statement of Mr. Regier follows:]

Statement of the Hon. Jerry Regier, Cabinet Secretary, Oklahoma Health 
 and Human Services, and Acting Director, Oklahoma Department of Health

    Mr. Chairman and members, thank you for the opportunity to appear 
before this subcommittee of the Ways and Means Committee in order to 
talk about the efforts of Governor Frank Keating and the State of 
Oklahoma to support and promote marriage utilizing TANF funds.
Introduction--What can Government do?
    Some will say that the role of government in supporting the 
institution of marriage should be hands-off. I strongly disagree. As 
the Governor's Secretary for Health and Human Services for the state of 
Oklahoma, I oversee 12 agencies in my Cabinet. All of these agencies 
commit major portions of their annual expenditures to the results of 
the dissolution of marriage and the breakdown of family. Expenditures 
on foster care, child abuse and neglect investigation, adoption, non-
marital births, juvenile delinquency, and a myriad of other programs 
are primarily, although not always, the results of either families not 
forming through marriage in the first place, or because of absent 
parents due to divorce.
    According to Census 2000 figures, more Oklahoma families are living 
together and are not getting married. Unmarried couples skyrocketed in 
our state from 27,000 in 1990 to over 53,000 in 2000. That's nearly a 
100% increase. Couples give various reasons for the trend, from wanting 
to avoid the marriage tax penalty to wanting to try out relationships 
before marrying. Another Census figure shows that the largest family 
demographic trend in Oklahoma is the proliferation of single mother 
households. The number has climbed in the past ten years almost 22% to 
over 94,000 single moms in 2000. The latest census numbers confirm that 
Oklahoma needs to move forward with the Marriage Initiative to build 
and encourage strong, healthy marriages.
    Therefore, it is not a matter of whether the government should be 
involved . . . they already ARE involved. The question is more ``What 
role should government play to restore, promote, and honor the 
institution of marriage so that marriages will flourish and be 
strong?'' Recently at a national marriage conference, a local judge 
from Michigan, Judge Helen Brown, put it this way . . .

          If you want strangers from the government, through its court 
        representative, to tell you when you can see your child, how 
        much money you should send them each month, how and when you 
        can communicate, and how to divide the assets of our marriage 
        then file for divorce. But if you want to keep the government 
        OUT of your life . . . then STAY MARRIED!

    So we believe that by strengthening marriage and reducing divorce, 
we are promoting less government involvement in families. Most 
legislators, when faced with the question of what role government can 
or should play in marriage, will propose new legislation. But in 
Oklahoma we wanted to take a different approach. We started somewhere 
else and I want to outline that process.
Putting Marriage on the Public Agenda
    In 1998, Governor Keating asked the University of Oklahoma and 
Oklahoma State University economists for a joint study on what Oklahoma 
needed to do to become a more prosperous state. He got the usual 
economic analysis relating to tax issues and regulatory reform issues 
but then he also got some surprising results. The economic researchers 
found some social indicators that were hurting Oklahoma's economy. They 
mentioned Oklahoma's high divorce rate, high rates of child deaths due 
to child abuse and equally high rates of out-of-wedlock births. One OSU 
economist wrote in an editorial, ``Oklahoma's high divorce rate and low 
per-capita income are interrelated. They hold hands. They push and pull 
each other. There's no faster way for a married woman with children to 
become poor than to suddenly become a single mom.''
    The study prompted the Governor to develop a strong social agenda 
that he unveiled in his 2nd Inaugural (1999) and State of State 
address. He set four bold social goals and convened the nation's first 
Governor and First Lady's Conference on Marriage held in Oklahoma at 
the Governor's Mansion in March of 1999.
Building the Foundation
    Knowing that the first steps are critical to making a policy plan 
work, it was essential that we build a solid foundation to ensure that 
the Governor's goal of reducing divorce and strengthening marriage was 
more than simply a political statement. Therefore, we followed several 
strategic steps:
    First, we knew that such an initiative would need bold leadership. 
So, Governor Keating stepped out boldly and announced a specific, 
measurable goal--to reduce divorce in Oklahoma by 1/3 by the year 2010. 
We knew at the time that the state's divorce rate was #2 in the nation 
by state of residence, and the Governor wanted the challenge and 
accountability of setting a measurable goal.
    We specifically rejected the idea of appointing a Commission to 
study marriage and divorce in Oklahoma and decided to initiate a Summit 
to educate broad state leadership on the issue of marriage and divorce 
in Oklahoma. This was a very successful beginning.
    Second, we committed to certain key principles to guide us.
    Our first principle was one of community collaboration and broad 
involvement through a multi-sector strategy. We chose to personally 
invite 30 leaders from each of seven sectors to the Governor and First 
Lady's Conference on Marriage with a purpose of educating and informing 
of the cost of divorce to the economy of our state, as well as the need 
to promote and honor marriage. Those seven sectors are: community 
service providers, education, business, media, religious, government, 
and legal.
    The second key principle was to ensure leadership at the top. The 
Governor has been very committed to this effort, and I, as Secretary, 
have provided direct leadership to the plan and strategy.
    The third key principle was ongoing operational management. To 
manage the ongoing day-to-day activities of the Marriage Initiative, we 
accepted bids for a Project Manager. Public Strategies, Inc., won the 
bid and has facilitated tasks within the parameters of the Oklahoma 
Marriage Initiative as follows:
    <bullet> Provide management of the varied projects and activities 
of the overall Marriage Initiative;
    <bullet> Plan, develop, implement and coordinate a Governor and 
First Lady's Annual Marriage Conference;
    <bullet> Plan, develop and implement a statewide marriage skills 
service delivery system;
    <bullet> Provide central point for resource materials, resource 
persons, and the development of a Marriage Resource Center;
    <bullet> Coordinate research of divorce and marriage in Oklahoma, 
including data gathering and analysis;
    <bullet> Provide media support and awareness;
    <bullet> Initiate, plan and implement planning and status meetings 
of Steering Committee, project director and staff, advisory boards, 
separate project managers, and sector leaders;
    <bullet> Develop and utilize national consultants; and
    <bullet> Coordinate seminars, conferences and other training 
opportunities.
    The final principle was to commit significant funding. Very few 
public policy efforts will be successful without a commitment to 
funding. And since three of the four goals of the 1996 Welfare Law 
relate to marriage, we look to Federal TANF funds to support the 
Marriage Initiative. Oklahoma has dramatically reduced welfare roles by 
80% over the past six years, leaving approximately $100 million in 
``surplus''. This welfare surplus provided an excellent resource and 
Governor Keating boldly asked the DHS Board to set aside 10% or $10 
million for Marriage Initiative programs and services. The Board 
concurred and the money has been reserved to fund strategies to 
strengthen marriage and reduce divorce.
    Finally, we have committed to communicating a balance in our 
approach. Our efforts are targeted at strengthening marriage and not at 
bashing divorce. Divorce will happen, and sometimes must happen. 
Therefore, we want to clearly communicate the societal economic impact 
of divorce, as well as the value of the institution of marriage. 
Marriage should be encouraged as an institution to be in, rather than 
an institution to simply make it harder to get out of.
The Marriage Initiative Implementation--Two Parallel Tracks
    The implementation of the Marriage Initiative has taken two 
parallel tracks--a religious track and a secular track.
    The religious track was launched on Valentine's Day 2000, as 
leaders of almost every denomination and faith throughout Oklahoma 
joined the Governor and First Lady at the State Capitol to pledge that 
they would work toward preparing couples for the complexities of 
marriage. Under the leadership of Dr. Anthony Jordan, the State's 
religious leaders signed a marriage covenant, committing to encourage 
more pre-marital counseling for couples in their churches and other 
house of worship. They also committed to encourage and develop marriage 
mentoring. Since Valentine's Day 2000, over 550 religious leaders have 
now signed these Oklahoma Marriage Covenants.
    The secular track consists of reviewing the current government 
infrastructure as it relates to social service delivery to see where 
the Marriage Initiative could capitalize on the already existing 
infrastructure to reach its ultimate goal of providing marital 
education and skills-building marriage strengthening opportunities to 
any Oklahoma couple. We developed training for government workers and 
private providers to disseminate marriage and relationship education 
services in all 77 counties.
    The infrastructure partnership we've developed includes three 
existing statewide structures. First, the Oklahoma State Health 
Department has pledged its psychologists, child guidance staff, and 
home-visiting nurses. Second, Oklahoma State University has a system of 
``Cooperative Extension Service'' educators ready to provide 
educational opportunities to adults. And thirdly, the Department of 
Human Services has social workers eager for places to refer TANF 
clients for marriage and relationship services. Each of the three 
agencies already has staff in most or all of Oklahoma's counties.
    The primary goal of the service delivery system is to deliver 
relationship educational services to couples, both married and 
unmarried, that are skills-based and research-based. Marriage success 
can be learned. There are tools that are available that will empower 
the couple to communicate effectively, resolve conflict and handle 
other problems that, if unchecked, can lead to divorce. The chosen 
curriculum is the Prevention and Relationship Enhancement Program 
(PREP) Co-Directors of this curriculum are Drs. Scott Stanley and 
Howard Markman, based at the University of Denver.
    We chose this curriculum because it has the strongest research base 
and evaluation record. PREP was originally designed as a program to 
prevent marital distress and divorce, based on an empirical analysis of 
risk factors. While most often used with younger premarital couples the 
materials are also widely used to help married couples at various 
stages throughout the marriage.
    In general, most of the best-known couples and marriage education 
programs have been offered to middle income white couples. By contrast 
PREP has been used with diverse populations including foreign 
countries. As an example of utilization of preventive services on a 
large scale, PREP is now widely utilized in all branches of the Armed 
Services. The preventive focus, hands on skills approach, format 
flexibility, and empirical basis have supported the adoption of the 
materials by the military. Since the armed forces are comprised of many 
younger couples at relatively high risk due to low income, stresses of 
military life, and dislocation from systems of social support, this 
population has some similarity to the kinds of couples and families 
that TANF funding was primarily targeted to aid.
    The Oklahoma Marriage Initiative Scholars-in-Residence, Drs. Les 
and Leslie Parrott, have been another resource available to Marriage 
Initiative projects and programs. Early on Governor Keating pledged to 
bring national marriage experts to the state to begin training pastors 
and other professionals. The Parrotts, nationally respected authors and 
professors of unique relationship courses at Seattle Pacific 
University, were recruited as ``Marriage Ambassadors.'' Their training 
expertise has been available to assist thousands of Oklahomans seeking 
to build marriage programs and/or to strengthen their own marriages.
    Based as adjunct facility out of Oklahoma State University, their 
contributions also include raising awareness statewide through media 
interviews and speaking engagements, conducing Mentor training events 
(both in the religious community and in the government sectors), 
sharing messages of positive relationship skills through conducting 
college and university ``Can You Relate Days,'' and training 
organizations in the curriculum they developed, ``Saving Your Marriage 
Before It Starts.''
Benchmarks for Success
    In Oklahoma, we are committed to evaluating the outcomes of our 
efforts to strengthen marriage and reduce divorce. The Oklahoma 
Marriage Initiative is working hard to improve the data available to 
assist in best targeting services and programs to appropriate 
populations.
    The evaluation of the Oklahoma Marriage Initiative, to be conducted 
by the Bureau for Social Research at Oklahoma State University, will be 
comprised of: (1) a statewide poll to assess attitudes about marriage, 
family, and childrearing, and to collect demographic data on marriage 
and divorce rates in Oklahoma, (2) a multi-method evaluation of the 
training and delivery system, and (3) suggestions for evaluating other 
education and service programs. A five-part evaluation system is 
proposed to address these three areas.
    One major part of the evaluation component is to construct a phone 
survey instrument that will be used to gather baseline data on 
attitudes about marriage and family; demographics on divorces, 
marriages, cohabitation; relational dynamics, etc. When right questions 
are asked up front, they will provide a benchmark for any changes that 
occur in the state. Government data on marriage and divorce is becoming 
harder to come by or, when found, is poorly organized, and the survey 
method is one way to circumvent these problems.
    The Marriage Initiative Research Advisory Group, consisting of 
several nationally renowned and Oklahoma researchers, will assist in 
developing a strong research and evaluation plan. Members of that group 
are:
    Robin Dion, PhD--is a research psychologist at Mathematica Policy 
Research Inc., which has offices in Washington D.C. and Princeton, N.J. 
This widely respected research firm has conducted studies in health 
care, welfare, education employment and nutrition. Dr. Dion is 
currently the Principal Investigator for a federally funded research 
project, Strengthening Families with a Child Born Out-of-Wedlock. The 
project grows out of the research on Fragile Families directed by Sara 
McLanahan (Princeton University) and Irwin Garfinkle (Columbia 
University).
    Ron Haskins, PhD--is currently a senior fellow at the Brookings 
Institution, and Co-Director of the new project Welfare Reform and 
Beyond. Dr. Haskins was former Majority Staff Director of the 
Subcommittee on Human Resources, Committee on Ways and Means, US House 
of Representatives. As such he was deeply involved in the development 
of the welfare reform legislation. He obtained his Ph.D. in 
developmental psychology at UNC--Chapel Hill. He has strong interests 
in research and program evaluation. Haskins was author of the 1996, 
1998 and 2000 editions of the Green Book, and has published widely on 
welfare reform and other related subjects.
    Norval Glenn, PhD--is the Ashbel Smith Professor of Sociology and 
Stiles Professor of American Studies at the University of Texas. Dr. 
Glenn specializes in family sociology, social change and survey 
research. He has been involved with numerous national social indicator 
surveys on marriage, divorce, cohabitation, and out-of-wedlock births. 
His recent research has dealt with the longitudinal course of marital 
success.
    Mark Neilson, PhD--joins the group from the National Opinion 
Research Center, affiliated with the University of Chicago and conducts 
survey research in the public interest for various agencies and 
organizations. The research studies done by NORC often deal with 
important public policy issues. They have extensive experience with 
collecting data via survey methods that are later used to shape and 
inform public policy.
    Howard Markman, PhD--is a professor of psychology and co-director 
of the Center for Marital and Family Studies at the University of 
Denver. He is internationally known for his work on the prediction and 
prevention of divorce and marital distress. Among his many published 
works on the subject is, ``We Can Work It Out: Making Sense Out of 
Marital Conflict.'' As a co-founder of the PREP approach he has 
appeared nationally on many network programs.
    Scott Stanley, PhD--is a senior program consultant to the Oklahoma 
Marriage Initiative. He is one of the co-developers of the PREP program 
(Prevention and Relationships Enhancement Program) which is the 
curriculum that will be adapted for use in the planned couple 
workshops. PREP is the country's only research-based, longitudinally-
test marital preparation curriculum.
    Theodora Ooms--is also a Senior Program Consultant to the Oklahoma 
Marriage Initiative. She is the Director of the Resource Center on 
Couples and Marriage Policy at CLASP in Washington, D.C. A former 
social worker and family therapist she directed the Family Impact 
Seminar for 17 years. Her interest areas include marriage, couples, 
unwed fathers, low-income families and poverty.
    Oklahomans:
          Pat Knaub, PhD--Oklahoma State University, College of Human 
        Environmental Sciences.
          Christine Johnson, PhD--Oklahoma State University, Bureau for 
        Social Research.
          Don Hebbard, EdD--Director of Marriage Education, Oklahoma 
        Marriage Initiative.
          Mary Myrick, APR--Project Director of the Oklahoma Marriage 
        Initiative.
          Secretary Jerry Reiger--Oklahoma Health and Human Services 
        Cabinet Secretary.
          Raymond Haddock--Oklahoma Department of Human Services.
Conclusion
    Mr. Chairman and Committee Members, Governor Keating has widely 
said that in Oklahoma it is easier to get a marriage license than it is 
to get a fishing license and it is easier to get out of a marriage than 
it is to get out of a Tupperware contract. We have taken significant 
steps in Oklahoma to change our culture of divorce.
    Oklahoma has demonstrated its ability to implement the welfare 
reform policies of this Congress as evidenced by the fact that we 
received two congressional bonuses for reducing our welfare roles. In 
the coming months and years, you will see no less commitment from our 
state on this important prevention and promotion strategy . . . to 
prevent divorce by promoting marriage.
    We pledge to continue to be responsible and effective with the TANF 
surplus resources we allocate to strengthen marriage relationships. We 
are appreciative of this opportunity to provide state testimony and 
encourage your aggressive support of the Oklahoma Marriage Initiative 
approach to meeting the goals of TANF legislation.
    Jerry Regier is Cabinet Secretary of Health and Human Services for 
the State of Oklahoma. A more detailed Marriage Initiative plan and 
update of activities can be accessed at: www.governor.state.ok.us/
marriageconf.html. Email communication can be sent to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3f555a4d4d46114d5a58565a4d7f585049114c4b5e4b5a115054114a4c">[email&#160;protected]</a> or the Project Manager, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="91fcf0e3e8d1e1e4f3fdf8f2e2e5e3f0e5f4f6f8f4e2bff2fefcbf">[email&#160;protected]</a>

                                <F-dash>


    Chairman Herger. Thank you very much, Mr. Regier, for your 
testimony; and now the Co-Chairs of Marriage Savers, Mike and 
Harriet McManus.

    STATEMENT OF MICHAEL J. AND HARRIET McMANUS, CO-CHAIRS, 
  MARRIAGE SAVERS, POTOMAC, MARYLAND, ACCOMPANIED BY, PHILIP 
 COFER, SPRINGDALE, MARYLAND, AND TERRI LUCAS, LANHAM, MARYLAND

    Mr. McManus. We are deeply honored to be here and thrilled 
that you are interested in marriage as it regards welfare. I 
never really realized until about year ago that one of the key 
provisions of your welfare reform law was to increase the 
number of two-parent families and to strengthen them, and this 
is exactly what we are about. I am not a researcher. I am not a 
therapist. I am not a pastor. I am a journalist, the kind of 
people you like to throw rocks at. I write a syndicated column, 
called ``Ethics in Religion,'' and some years ago, in Modesto, 
California, the newspaper that publishes my column invited me 
to speak to the clergy of that area.
    I had written a number of columns about what might be done 
to reduce the divorce rate, but I had not seen any evidence 
that the columns made any difference. So when I had a chance to 
speak to all the pastors in the community at one time, I said 
why don't you consider creating what might be called a 
``Community Marriage Policy'' here, with the conscious goal of 
pushing down the divorce rate, doing things that we know work. 
For example, Catholics require six months of marriage 
preparation. Protestants generally do not have any time 
requirement in their marriage preparation process.
    I said: Can you Protestants think about a 4-month minimum, 
at least? Catholics, also, were experimenting with the use of a 
premarital inventory that gives the couple who is preparing for 
marriage an objective view of their strengths and weaknesses. 
It could also be used as a way to bridge to older couples who 
could be mentoring them and to talk through the issues that the 
young couples are facing as they try to build a lifelong 
marriage. The clergy of Modesto signed a ``Community Marriage 
Policy'' that said their goal was to radically reduce the 
divorce rate of those married in area churches. Well, they have 
done much more than that.
    The divorce rate in Modesto in 15 years has come down 47.6 
percent. On page three of my testimony, I also point out that 
the number of marriages in the community has risen, by 12 
percent. At the same time, these two elements of decreasing the 
divorce rate and increasing the marriage rate has meant that 
there are many thousands more families who have solid homes and 
children growing up in homes that are solid. Children of 
divorce are twice as likely to drop out of school. They are 
three times as likely to have a baby out-of-wedlock. What if 
you had more marriages that work?
    Well, you should see a drop in the school dropouts and in 
children having babies out-of-wedlock, and that is exactly what 
happened. The school dropout rate in Modesto is down 20 
percent, and the birth rate of teenagers is down 30 percent. It 
is down nationally all over, but it is only down about 10 to 15 
percent, so this is two-to-three times the rate of the United 
States. We have created these ``Community Marriage Policies'' 
now in 142 cities and towns across the country. These 
communities--we do not have data on all of them, but in 35 of 
them we have data, comparing the number of divorces before they 
began the program and signed the community marriage policy with 
the years afterward, and in 32 of the 35, the divorce rates are 
down dramatically.
    For example, in Chattanooga, they are down 19 percent in 3 
years. That is actually moving faster than Modesto did. The 
core idea of what we are doing is mentor couples, and I would 
like my wife to tell you about that.
    Mrs. McManus. In every church or synagogue, there are 
couples with strong, vibrant marriages who could use their own 
marriage as a tool, as a gift, to walk alongside other couples 
who are contemplating marriage, other couples whose marriages 
are in crisis. These are mentoring couples that could be 
available to go the distance with couples that are needy. All 
that these couples need have done is to be invited, equipped, 
inspired to become the mentoring couple. These mentoring 
couples are exactly what we recruited in our own home church in 
Bethesda, Maryland.
    We trained 53 mentor couples in a premarital program. They 
were available for 308 couples considering marriage. Of those 
308, 250 ultimately got married, and 50 decided to walk away 
from their relationship; six became married and were divorced. 
This same concept can be used to form mentoring couples at 
other stages of the marital lifecycle, those couples who are in 
crisis and need assistance. So this is a tool where a mentor 
couple can really make a difference, and couples can be 
couples, such as my husband and myself or Terri and Philip 
here, whom we have mentored.
    They came to us as a seriously dating couple. Ultimately, 
they explored their relationship, decided to get married, and 
they are going to be married this August. So couples who are a 
great reservoir, a great resource, who are sitting in the pews 
of our Nation's churches Sunday after Sunday can be invited to 
come out and bridge the generational gap, to be able to make a 
difference in the face of marriage in our Nation. As our mentor 
motto at our church in Bethesda is before you tight the knot, 
let us show you the ropes.
    [The prepared statement of Mr. and Mrs. McManus follows:]

   Statement of Michael J. and Harriet McManus, Co-Chairs, Marriage 
                       Savers, Potomac, Maryland

    Thank you for giving us the opportunity to testify on welfare and 
marriage issues. We are Mike and Harriet McManus, founders and Co-
Chairs of Marriage Savers, a non-profit group whose goal is to push 
down the divorce rate and increase the marriage rate. We were organized 
in 1996 the year welfare reform was passed by Congress. Our work has 
been totally with churches and synagogues, not the government, until 
recent weeks.
    We were surprised to learn, about a year ago, that the primary 
goals of the 1996 Welfare Reform law are to promote marriage! Very few 
people know this. While the ``M'' word is not in the law, the 
legislation creating a new Temporary Assistance for Needy Families 
(TANF) block grant, said its purpose is four-fold:
    1. Provide assistance to needy families;
    2. End the dependence of the needy parents on government;
    3. Prevent and reduce the incidence of out-of-wedlock pregnancies 
without increasing the abortion rate; and
    4. Encourage the formation and maintenance of two-parent families.
    Clearly, the best way to accomplish all four goals is to reduce the 
divorce rate and increase the marriage rate. The Census Bureau reported 
on May 14 that only 51.6% of American households are headed by married 
couples--the lowest rate in history! In 1970, nearly three-fourths were 
led by married couples.
    However, most states have ignored the law's clear intent in this 
area, in our view. So far, 47 states have done absolutely nothing to 
cut the divorce rate or promote marriage. Yet there is a surplus of $7 
billion of TANF money that the states have not drawn upon. This is a 
scandal. Immense sums are available, and they are not being used to 
strengthen marriage, or to reduce the divorce rate. That's why one of 
Marriage Savers' recommendations is that in reauthorizing TANF, that 5% 
to 10% of the money be set aside for grants that might be made by the 
Department of Health and Human Services to fund demonstration programs 
designed to increase the marriage rate in America and slash the divorce 
rate.
    What can be done? Divorce rates can be cut in half and the marriage 
rate can be increased. This is not simply a dream or a fond hope. 
Marriage Savers has worked with the clergy of over 140 cities, dozens 
of which have slashed their divorce rates. Let me summarize our 
experience with the first city where I sold clergy on the idea of 
creating what I call a Community Marriage Policy <Register>, Modesto, 
CA., whose divorce rate is now down 47.6%!

            The Modesto Community Marriage Policy <Register>

    In 1986 I was invited to address the clergy of Modesto, California 
by The Modesto Bee, which published the nationally syndicated column I 
have written for 20 years, ``Ethics & Religion.'' In my speech, I urged 
the pastors, priests and rabbis of the area to adopt what I called a 
''Community Marriage Policy <Register>'' with the conscious goal of 
``pushing down the area's divorce rate.'' I noted that some churches 
were already taking steps to lower the divorce rate. Catholics, for 
example, require six months of marriage preparation, while most 
Protestants set no time requirement. Catholics were also the first to 
train couples in solid marriages to help prepare couples for a 
marriage. They are called ``sponsor couples'' or ``mentor couples.'' 
Catholics typically require engaged couples to take a ``premarital 
inventory'' that can predict with 80% accuracy who will divorce. And a 
tenth of those taking an inventory, break an engagement. Those who do 
so, have the same scores as those who marry and later divorce. Thus 
they are avoiding a bad marriage before it begins, and the rest are 
helped to build a lifelong marriage.
    I pointed out that the states with America's lowest divorce rates 
are the predominantly Catholic states of the Northeast. (The divorce 
rate of Massachusetts is about one-third that of Oklahoma, Arkansas or 
Tennessee!) Catholics were also the first to start a wonderful marriage 
enrichment weekend called ``Marriage Encounter,'' which prompts four 
out of five couples to fall back in love. That's what happened to my 
wife and me when we attended. . . . Further, a dozen Protestant 
denominations now conduct Marriage Encounters: Episcopalians, 
Methodists, Baptists, Assemblies of God, Lutherans, etc. I asked 
Modesto clergy, ``Why doesn't every church plan an annual event like a 
Marriage Encounter to strengthen the existing marriages in the 
church?''
    Further, I made a prediction: ``If the churches and synagogues of 
Modesto were to implement what we know works to prepare for a lifelong 
marriage, or strengthen existing ones, I believe the divorce rate here 
would come down 50% in five years. Why do I say so? Europe's divorce 
rate is about half that of the U.S. and less than 10% of the people in 
Great Britain, France or Germany attend church weekly. The Gallup Poll 
reports that four out of ten adults in America are in church or 
synagogue in any week. With a church attendance that is four times that 
of Europe, we ought to be able to at least reduce our divorce rate at 
least to the level of Europe.
    Some 95 pastors, priests and a rabbi in Modesto did agree to create 
America's first Community Marriage Policy <Register>. In their preamble 
clergy said, ``It is the responsibility of pastors to set minimal 
requirements to raise the quality of commitment in those we marry. We 
believe that couples who participate in premarital testing and 
counseling will have a better understanding of what the marriage 
commitment involves.''
    Specifically, clergy required ``a minimum of four months of 
preparation'' and to take a premarital inventory ``to help the couple 
evaluate the maturity of their relationship objectively.'' Clergy also 
pledged to provide ``a mature married couple'' to help couples to bond. 
Finally, pastors set a goal ``to radically reduce the divorce rate of 
those married in area churches.''
Modesto Divorce Rate Plunges 47.6%
    Much more than that goal has been achieved. The divorce rate for 
the entire Modesto metro area has plunged 47.6%--nearly cut in half, as 
I predicted. True, it has taken 15 years, not five. Yet this is clear 
evidence that the Community Marriage Policy <Register> works. In the 
table below, according to the Stanislaus County Clerk, the number of 
divorces in 2000 is 24% less than the 1986 number, even though the 
population has grown from 307,000 to 441,400, a 43% increase in the 
county's population over 14 years. By measuring the number of divorces 
per 1,000 population in both years, a consistent comparable figure 
emerges. The rate fell from 6 divorces per 1,000 residents in 1986 to 
3.16 divorces per 1000 people in 2000, or 47.6%.

                                           MODESTO (STANISLAUS COUNTY)
----------------------------------------------------------------------------------------------------------------
                                                                                          Divorce      Marriage
                                                  Marriages     Divorces    Population   rate/1000    rate/1000
----------------------------------------------------------------------------------------------------------------
1986...........................................        1,391        1,852      307,000         6.03          4.5
1999...........................................        2,211        1,668      435,500         3.83          5.1
2000...........................................           na        1,396      441,400         3.16  ...........
----------------------------------------------------------------------------------------------------------------

Modesto Marriage Rate Rises 12.3%
    There is a second important story in this data. Note that in 1986 
there were more divorces in Modesto than marriages--1,852 divorces and 
only 1,391 marriages! But the Community Marriage Policy <Register> 
reversed that trend by pushing up the marriage rate. In 1999, the last 
year with data, there were 2,211 marriages, a big jump from 1,391. 
While most of the growth of marriages is attributable to the area's 
rapid population growth, the marriage rate has increased 12.3%. By 
contrast, the U.S. marriage rate has been declining. It fell 17.8% 
nationally, in the years Modesto's marriage rate has moved in the 
opposite direction.
Teen Dropout and Birth Rates Plunge
    Children of divorce are twice as likely as those from intact 
families to drop out of school and are three times as likely to give 
birth out-of-wedlock. If divorce rates fall and marriage rates rise, 
more children will be successful. In fact, within just seven years, 
teen dropouts in Stantislaus County did fall 20% and births to 
teenagers plunged 30%, or about three times the U.S. decline.

     Divorces Plunge in 32 Cities With Community Marriage Policies 
                               <Register>

    Nor is Modesto's achievement unique. More than 140 cities have now 
adopted a Community Marriage Policy <Register> or a Community Marriage 
Covenant <Register> as some cities call them. Divorces have plunged in 
32 of 35 cities where a Community Marriage Policy <Register> has been 
established, and data on divorces checked with county clerks. In each 
of the 32 cities, divorces fell at least 10 times more than they have 
in the United States! U.S. divorces have fallen from 1,181,000 in 1979 
to 1,163,000 in 1997, a decline of only 1.5% in 19 years. By contrast, 
in an average city such as Baton Rouge or Springdale, AR divorces fell 
6% in one year after adopting a Community Marriage Covenant <Register>. 
That is four times the U.S. drop in one-nineteenth of the time, or 76 
times better than the U.S. (4 <greek-e> 19 = 76).
    Further, divorces are falling much faster in many cities than they 
have in Modesto. In only three years, divorces fell 18% in Corvallis, 
OR and by 19% in Chattanooga. Their 6% annual decline is twice as fast 
as the 3% annual drop in Modesto. Even more dramatic is what happened 
in El Paso where divorces plummeted from 3,176 in 1996 when a CMP was 
adopted, to 2,179 in 1999. That's nearly a one-third decline in three 
years. Finally, consider Kansas City, KS and two suburban counties. In 
1995, the year before it adopted a Community Marriage Policy <Register> 
there were 1,530 divorces. The CMP was adopted in 1996. By 1997, there 
were only 1,001 divorces in the two county area, and a remarkable 863 
in 1999. That's a stunning 44% plunge in only four years. Meanwhile, in 
Kansas City, MO and its suburbs, divorces actually rose!
    Why? There were no churches organized in Missouri, and the Kansas 
City Star published a number of stories about the Kansas pioneering, 
but the stories only appeared on the Kansas page of the paper. 
Missourians did not know there was a Community Marriage Policy 
<Register> across the river. However, the press coverage in Kansas must 
have persuaded many Kansans in tough marriages to persevere. Within a 
single metropolitan area, the divorce climate was transformed back to a 
marriage climate, while the divorce climate reigned supreme in Kansas 
City, MO.

             The Core Marriage-Saving Idea: Mentor Couples

    My wife Harriet, Co-Chair of Marriage Savers, will explain the core 
idea of how churches can save marriages: what we call the ``Mentor 
Couple.'' Every church or synagogue has couples in healthy, vibrant 
marriages who really could be of help to other couples, but they have 
never been asked, inspired or trained to come alongside another couple.
Premarital Mentoring
    For example, at our home church in Bethesda, since 1992, Harriet 
and I trained 52 Mentor Couples to administer a premarital inventory to 
seriously dating couples as well as engaged couples. From 1992-2000 
Mentor Couples worked with 308 couples. Each Mentor Couple spends six 
evenings with mentorees discussing up to 189 statements on the 
inventory, such as:
    1. I am uncomfortable with the amount my future spouse drinks.
    2. I value ``keeping peace'' at any price.
    3. At times I am concerned about the silent treatment I get from my 
future spouse.
    4. I am concerned that my future spouse sometimes spends money 
foolishly.
    Our Mentors also use 13 exercises to help the couple improve their 
communication and conflict resolution skills, to prepare a budget and 
set goals for the future. This takes 2-3 hours per night over six 
evenings. With what result? About 50 of the 308 couples broke off a 
relationship or their engagement before there was a wedding, or 16.5% 
of the total. But there have been only six divorces that we know of out 
of the 260 couples who did marry--a 2% failure rate.
Troubled Marriages
    Retrouvaille is a weekend retreat developed by Catholics. The Lead 
Mentors are those whose marriages once nearly failed. These ``back-
from-the-brink'' couples share details about how they overcame years of 
adultery, alcoholism, physical abuse, etc. to build great marriages. 
The results are stunning. Of 60,000 couples who attended, four out of 
five couples have rebuilt their marriages. However, in most areas 
Retrouvaille is held only 2-3 times a year.
    Marriage Ministry is a similar proven way to save couples headed 
for divorce, but it is based in local churches. Rev. Dick & Phyllis 
McGinnis of St. David's Episcopal Church in Jacksonville, Florida 
trained seven couples whose marriages nearly failed to help those in 
current crisis. One woman had been in an adulterous affair for eight 
years. Another man was an alcoholic who lost his job and was out of 
work for two years. Yet, they identified 17 steps all experienced to 
save their marriages. Over five years, these recovered healers shared 
their path of recovery with 40 troubled marriages, and saved 38 of 
them--a 95% success rate. This Marriage Ministry has spread to 25 more 
churches, saving 90% of terrible marriages.
    Stepfamily Support Groups: Some 46% of all marriages today involve 
at least one spouse who was previously married. Families with 
stepchildren are the most explosive in America--breaking up at a 65% 
rate. Stepchildren resent their new ``parent'' and often drive them 
away. Rev. Dick Dunn of Roswell United Methodist Church near Atlanta 
created a ``Stepfamily Support Group'' led by couples with truly 
blended families. Result: four out of five couples make it, the mirror 
opposite of typical failure.
    Marriage Saver Churches: An exciting development in recent years is 
to see the emergence of what we call ``Marriage Savers Churches'' which 
have virtually eliminated divorce by training Mentor Couples who put a 
``safety net'' under every marriage. Christ Lutheran Church in Overland 
Park, KS, for example, a congregation of 1,500 people, has had only two 
divorces in four years since training Mentors. First Assembly of God of 
Rockford, IL invited the McGinnises to train 14 ``back-from-the-brink'' 
couples in their church to work with troubled marriages. Local 
therapists learned about Marriage Ministry and sent over dozens of 
their toughest cases. In 3 years, the Mentors have met with more than 
100 marriages headed toward divorce, and saved all but four of them. 
Bread of Life, an inner city church in Kansas City, KS has had NO 
divorces since training Mentors. By contrast, therapists save only 20% 
of the troubled marriages.

           Core Community Marriage Policy<Register> Elements

    These are core elements of the best Community Marriage Policies:
    1. Require at least four months of marriage preparation, the taking 
of a premarital inventory, and train couples in solid marriages to 
administer the inventory.
    2. Strengthen existing marriages with an annual retreat, using 
materials such as the REFOCCUS inventory for married couples, or the 
``Ten Great Dates'' videos.
    3. Restore 80% to 90% of troubled marriages by training ``back-
from-the-brink couples'' to mentor those in current crisis, such as 
``Marriage Ministry.''
    4. Reconcile over half of the separated with such courses as 
``Reconciling God's Way.''
    5. Help 80% of stepfamilies to succeed with Stepfamily Support 
Groups

 Governors Encourage Creation of Community Marriage Policies <Register>

    Inspired by these results, Arkansas Gov. Mike Huckabee declared a 
``marital emergency'' in his state since his state's divorce rate is 
one of the nation's highest. He set the ambitious goal to slash the 
divorce rate by 50% by decade's end, and he invited my wife and I to 
speak to both the state's religious leaders and to local pastors. At 
these meetings, Gov. Huckabee urged every city or town to adopt a 
Community Marriage Policy <Register>. As a result, new CMP's have been 
planted in Mena and Russellville, and the governor will attend the 
signing of another in Hot Springs next month. Little Rock clergy are 
also being organized as the result speeches by Gov. Huckabee, my wife 
and I. A member of the Marriage Savers staff is doing the legwork to 
launch it.
    At about the same time, Oklahoma Governor Frank Keating asked his 
state Chamber of Commerce for advice on what could be done to reduce 
the Oklahoma's high rate of poverty. The Chamber's recommendation was 
startling: reduce the state's high divorce rate, second highest in the 
nation, second only to Nevada. Gov. Keating asked his Secretary of 
Health, Jerry Regier, to help him develop a ``Marriage Initiative,'' 
and set a goal to slash the state's divorce rate by a third by the year 
2010. Sec. Regier noted that the state had a $100 million surplus in 
its TANF funding, and suggested that 10% of it, $10 million be set 
aside to push down the divorce rate. No other state in America has made 
such a major commitment of TANF funds.
    Sec. Regier will testify about Oklahoma's innovative plans to the 
committee. They involve creative programs in both the public and 
private sector. For example, one plan is to train both welfare workers 
and health care nurses, who know the women giving birth out of wedlock, 
how to improve communication skills with the child's father. I am proud 
to say that Sec. Regier says Oklahoma ``has modeled its Community 
Marriage Covenant plan after the Community Marriage Policy concept of 
Marriage Savers.'' More important, Oklahoma asked Marriage Savers to 
submit a plan to help push down the divorce rate in 35 counties which 
actually have MORE divorces than marriages. With state support, we will 
create Community Marriage Covenants in those counties. We believe we 
can have the same results we did in Modesto--cut the divorce rate, 
increase the marriage rate and reduce out-of-wedlock births.
Recommendations to the Committee
    In addition to Oklahoma, Arizona has set aside $1 million of TANF 
funds to strengthen marriage and Iowa is considering a $500,000 
program. No other state has earmarked ANY of the $7 billion of surplus 
TANF funds for marriage. Therefore, we suggest a fresh approach:
    1. Ask the Congress and the President to set concrete goals--a 50% 
cut in the divorce rate by 2010, a 20% increase in the marriage rate, 
and a 30% cut in illegitimacy.
    2. Congress and the President should ask America's churches, 
synagogues and mosques to make marriage a priority in every 
congregation, adopting proven reforms.
    3. The new Welfare Reform bill should set aside 5% to 10% of TANF 
funding at the federal level for projects like Oklahoma's faith-based 
initiative.
    There is a clear U.S. interest in demonstrating within every state 
that the churches and synagogues of America can be mobilized to save 
marriages. This is a nation of 300,000 houses of worship. If only a 
third organized 10 Mentor Couples each, that would be 1 million Mentor 
Couples who could clearly save half of the 1.2 million marriages now 
ending in divorce. Each marriage is a small civilization that should be 
helped to thrive--rather than to wither and die hurting untold 
millions.

                                <F-dash>


    Mr. McManus. I think you were going to allow----
    Chairman Herger. Yes, we will allow 2 minutes for Mr. Cofer 
and Ms. Lucas, please.
    Mr. Cofer. I want to briefly talk about the value of 
mentoring. Before mentoring, I started off, I did not listen. I 
was hardheaded. And so I believed that my relationship was a 
good relationship. That is when I turned to my angel, and she 
said, you know, we have some work to do, and I listened to her. 
And I saw I was very hesitant about going into the Marriage 
Savers program, but she implored me to, and I listened to her, 
and I still listen to her today. During mentoring, we learned 
how to communicate effectively, using ``I'' statements, as 
opposed to ``you'' statements. For example, ``I understand you 
to say,'' or ``What have I done?'' We also learned how to 
resolve conflicts, for example, on issues such as whose church 
we would attend.
    We also learned how to write letters to each other to 
communicate what was on our minds. After mentoring, we 
discerned that there is not a ceiling to our growth, and that 
we will always have room for growth, and that we will never 
stop growing.
    Ms. Lucas. I want to talk to you briefly about the value of 
taking the premarital inventory. We learned from the premarital 
inventory the strengths of our relationship, but most 
importantly, the weaknesses. We had problems with communication 
and problems with resolving conflict. Initially, we wanted to 
just take the inventory on our own, without Mike and Harriet or 
another mentor couple, but that would not have been beneficial 
to us in the long run, because it would have just given us 
scored, but by having the mentor couple, we were actually able 
to go through every single question, especially those questions 
where Philip and I had differences on, and talk about it deeply 
to kind of pinpoint potential problems in our future marriage. 
So that was very beneficial.
    Also, through the mentoring, I learned that I was very 
fearful of marriage. I was afraid of losing that independence, 
but working with Mike and Harriet helped me to realize the 
importance of the unity and the oneness in the marriage, and 
our relationship has matured as a result.
    Mr. McManus. Mr. Chairman, if I could say one final thing 
with regard to the legislation that you are considering?
    Chairman Herger. Briefly, yes.
    Mr. McManus. I think it is important to note that 48 States 
have not spent any of their TANF money for marriage work. These 
States here have done it, and they are doing an admirable job. 
We hope to work with Oklahoma, for example, going into the 
counties which have the highest divorce rates and help bring 
down those divorce rates in that county. But since the other 48 
States have not done anything, I would like to suggest that you 
consider the possibility of setting aside 5 percent of the 
funding of TANF surplus that might be spent by the Department 
of Health and Human Services on demonstration projects that 
could show in every State how to bring down the divorce rate.
    Chairman Herger. I thank you, and I thank each of our 
witnesses. Now we will turn to questioning. Mrs. Johnson, the 
gentlelady from Connecticut?
    Mrs. Johnson. First of all, I would really like to thank 
you all for your testimony. It is so truly bizarre how we value 
education and then we disregard education, in terms of human 
development. It struck me years ago in a religious education 
course I took in my church, how much we knew through Piaget 
about the stages of child development and how they think and 
how they learned to think, and then we sort of throw that all 
aside when we get to the very difficult issues of adolescence, 
and of early independence, and of marriage.
    At my age, I have lived through a generation of friends, 
and am interested to note that very few of our friends got 
divorced, but those who did, so many of them, as you watch, you 
know it was unnecessary. For us who went through women's lib as 
married women, I understand what happened, and it certainly 
affected my marriage. But I think one of the things that we 
fail to take into account is that we do not like ourselves all 
the time.
    You go through periods when you are pretty discouraged 
about your own self. It is so easy to blame that on the other 
person, but why would we think we would always like our spouse 
over 50 years?
    [Laughter.]
    Mrs. Johnson. Just some plain ordinary common sense. It is 
so refreshing to remember that if we simply provide a knowledge 
base, we can help young people understand what is the 
difference between cohabiting and marriage. What is the 
difference to the relationship? What is the difference to the 
children? What is the difference to the commitment, and what is 
the difference when you go through hard times, because you are 
going to go through hard times? I do not care how perfect you 
are.
    So it really is impressive that you have developed 
curriculums. I am interested in looking more closely at those 
curriculums. Ben and I, when we did the fatherhood bill, worked 
really hard at this particular issue, but frankly I was not 
aware that there were sort of curriculums that we could point 
to. But when you look at what is happening in welfare reform, 
the big thing that happens is that young women get to know 
themselves and learn about themselves and learn about their own 
abilities and how to communicate in the work place, but we do 
not teach them or we do not teach the father of their 
children--we do not even give them the same job support.
    I mean, that was one of the things we were trying to do in 
our fatherhood bill. But we do not even talk to these young 
kids about the nature of the intimacy that created the child 
between them or what it takes to parent, and how can they make 
a rational decision? How can they determine? This is not about 
forcing people to marriage. This is giving people the knowledge 
they need to determine whether or not they can develop a 
relationship to the next stage.
    So it really is important that the next stage of welfare 
reform not be quite as blind to this issue of the knowledge 
people need to make parenting a success, and the only stable 
relationship a child flourishes under are success. While I have 
good friends who have divorced and have done a wonderful job of 
creating a larger family of the two families, we all know 
economically it is hard and emotionally it is hard. So I really 
look forward to working with the chairman and the ranking 
member of this Committee. It is blessed to have really 
exceptionally good leadership on this issue, and how do we work 
it into the national program. But thank you for your testimony. 
I am sorry I did not have a question, but I just love what you 
said, and I just believe it from a lifetime of experience. 
Thank you.
    Chairman Herger. Thank you, Mrs. Johnson.
    Mr. Cardin.
    Mr. Cardin. Well, thank you, Mr. Chairman. Let me first say 
that I very much appreciate the testimony of all the witnesses, 
and I appreciate particularly the last two witnesses being here 
to tell us firsthand some of the emotion that they went through 
in participating in the counseling. I guess our challenge is 
how do we take these types of programs and apply them to a 
social program such as TANF, which is going to be a more 
difficult chore? I noticed that the statistics that you gave 
us, the McManuses gave us, about 358 or 308, I guess it was, 
and 50 walked away from the marriage.
    Mrs. McManus. From their engagement.
    Mr. Cardin. From their engagement. Excuse me, from getting 
married.
    Mrs. McManus. From getting married.
    Mr. Cardin. And I would expect that if those 50 would have 
married, the divorce rate would have been higher.
    Mr. McManus. Of course.
    Mr. Cardin. I think that is one of our challenges. We do 
not want to force people into marriage only to have a bad 
situation, and I think it just underscores the point that we 
have to be very cautious as to how government encourages 
marriage. We should be encouraging counseling. We should be 
encouraging the types of programs where we can have successful 
marriages, but to have, particularly disincentives in the law, 
is one of the areas I think we can agree upon to move.
    Let me just ask my two State officials, the agreement we 
reached in 1996 was to basically give the States maximum 
flexibility. We made it clear that we wanted to promote 
marriage. It is in the TANF law. The States have the 
flexibility to use TANF money as they see fit. We could earmark 
a certain amount of money for marriage counseling or for 
marriage programs, but I think that violates the basic concept 
of our arrangement with the States. Mr. McManus raises a good 
point. We have used demonstration programs before to try to 
encourage programs, and the bill Mrs. Johnson referred to 
provides some new money for demonstration programs to promote 
marriage, and would have been available for the States on a 
competitive basis.
    So I take it that your testimony today is not to suggest 
that we should be earmarking Federal funds, but that States 
should be bolder in participating in these types of programs?
    Mr. Regier. The flexibility that we have as States is very 
important with this money, and much of that has been used for 
increasing child care, transportation, other issues related to 
the TANF population. The marriage money that we have set aside 
is really critically important to us, to be able to have the 
flexibility to do that, but also to have the opportunity to 
test things out. In other words, even in the States, we set 
aside $10 million. We have probably only spent less than half-
a-million so far, and we are going at it methodically. We are 
going at it systematically.
    The training program I talked about, the service delivery 
program, we are going to do some pilot counties, and we will do 
those pilot counties, and then if we roll it out to the whole 
State, in terms of delivering this marriage education and 
skills-building kinds of things throughout the State, we 
probably will spend maybe $1.5 million, is what we project.
    Mr. Cardin. All these efforts, as I understand it, are 
aimed at preserving marriage. Are there any aimed at trying to 
encourage marriage?
    Mr. Regier. One comment, and then I will turn it over to 
Mark, and that is we have in Oklahoma a program called Children 
First, and we have operated this program now for 3 years out of 
the State Department of Health. Public health nurses visit 
first-time mothers, and 75 percent of those first-time mothers 
are single, and we are incorporating some of this training for 
the public health nurses so that they can also be talking to 
those expectant mothers, and many times their partner is around 
and there, but they really have never thought through the 
institution of marriage. So we are doing some encouraging in 
that way.
    Mr. Anderson. When we first drafted the legislation, there 
was money in there for a media campaign, to sort of promote 
marriage and to educate people as to the benefits of marriage, 
and I think that is very important, because I have talked with 
people, welfare recipients, who have told me: Why would I 
consider marriage? If you knew what happened to my parents, and 
nobody in my neighborhood is married, and I have never seen a 
good marriage on television; what you are talking about?
    They have a complete blank look when you talk to them about 
the benefits of marriage. So I think that is an important 
component, that we do advocate as a health policy the benefits, 
and all the studies that have come out now, that indicate that 
people who are married long-term do so much better in so many 
categories. That has got to be part of the discussion.
    Mr. Cardin. We really do not have any good track record on 
these type of efforts.
    Mr. Anderson. If you are talking about marriage skills 
programs----
    Mr. Cardin. No, on what impact does that type of 
advertising have on prospective parents marrying.
    Mr. Anderson. I think you are right about that, because 
this is a new field. I think that is why States are hesitant to 
just jump into it, even though the language was there, the TANF 
legislation.
    Mr. Cardin. Nor do we have any record on whether these 
marriages are successful and what impact it has on the family. 
Thank you, Mr. Chairman.
    Chairman Herger. I thank you, Mr. Cardin. Now, Mr. Watkins, 
from Oklahoma, to inquire?
    Mr. Watkins. Mr. and Mrs. McManus, I am really impressed, 
and also the fact that you plan on coming to Oklahoma and work 
maybe with Jerry there, and in some of our counties. Jerry, I 
would like to say, as a Member of the Committee, I would like 
to encourage you to look at the third district, and I will be 
very cooperative in trying to help make sure we get the right 
folks there, and we will be a part of trying to do that.
    I looked real quickly, because I was very impressed with 
some of the things you talked about, Mark, also, with Arizona, 
and the things you have got going in that State, and J.D. 
Hayworth is a great guy and a great member of our team. But I 
thought you might have some more core information about how you 
carry out your program through the Marriage Savers group and 
all, but I did not see anything. I would like to hope maybe 
that some of that will be part----
    Mr. McManus. The core idea of it, as Harriet said, is to 
train good couples who have got good marriages to come 
alongside other couples and be helpful. For example, every 
congregation--first of all, 75 percent of people who get 
married, get married in a church or a synagogue. So we are 
talking about a huge access, and Gallup says that 40 percent of 
all Americans actually attend church on a given Sunday, and 
two-thirds are Members of a church or synagogue. Those are 
boxcar kind of numbers, and so if you are interested in trying 
to do something about marriage, you need to think about how do 
you do this through the religious institutions.
    What we have been able to do is get these agreements in 
which pastors are agreeing to do something that they have never 
done before, to take couples in good marriages and train them 
to come alongside of other couples. For example, every church 
has got couples who have been through adultery, and they 
survived it. They also have couples who are thinking about 
getting divorced because she found out he was cheating on her. 
If you could get Couple A to sit down with Couple B, Couple A 
could say: Look, we know adultery breaks trust. We have been 
there and done that, but we are here to tell you trust can be 
restored in the same marriage. We have done it. Let us talk to 
you about that.
    And this is like Alcoholics Anonymous. It is a peer-based 
counseling. It is not professional counseling, but it is much 
more effective than professional counseling. Professional 
counselors only save 20 percent of marriages. We can save 80 
percent.
    Mr. Watkins. That is beautiful, and I would appreciate any 
additional information. Mr. Cofer, is that right?
    Mr. Cofer. Yes.
    Mr. Watkins. I think the key is what your opening remark 
was, Mr. Cofer. You say you were listening to her, and that is 
one of the keys to make it work, is listening. God gave us two 
ears and only one mouth, and you are supposed to listen twice 
as much as you say. You are nodding, Ms. Lucas, but you cannot 
take words back; and I think one of the most cutting swords out 
there is a word, and sometime we would like to reach back and 
get it.
    But let me say I was raised in Oklahoma, like I told you, 
but I have been married for 37 years and my wife and I have 
three children, one of them is adopted. And I have 40 acres, 
and I have all my grandchildren--I gave each one of them land, 
so their spouses and all the grandchildren are there. I built a 
home with three-foot doors and a 14-foot table, so I have all 
my children and grandchildren, everyone in that one acreage and 
on that area there.
    People ask me how did I make it work, and I tell them one 
thing: I keep my mouth shut. And that is the way it works, and 
there is a lot to that in marriage, as well as you learn the 
strengths and weaknesses and you learn the negatives and the 
positives, and you try to work with those, and if you can do 
that, you can make it last. So I am impressed. This is really, 
to me, an inspirational type of testimony from all the 
panelists, and I appreciate what you have done, and I look 
forward to seeing you in Oklahoma. Jerry, bring them down and 
let's set up a meeting or two in my district.
    Chairman Herger. Thank you very much, the gentleman from 
Oklahoma. I also want to commend you, Mr. Cofer. You have 
learned before getting married what many of us took 15, 20 
years to learn after we got married. So, congratulations. With 
that, I would yield time to the gentleman from California, Mr. 
Stark, for inquiry.
    Mr. Stark. Thank you, Mr. Chairman. I am fascinated by this 
hearing. Mr. Anderson, in your testimony, you referred to 
skills to remain abstinent. Can you give me some idea what 
those skills would be? Sort of like hopping on one foot 15 
times?
    [Laughter.]
    Mr. Anderson. That would be a start. I think in most of the 
courses that we offer in Arizona, we have 15 contractors doing 
the abstinence programs. A lot of them deal with refusal 
skills. Oftentimes young people find themselves in situations 
where it is very difficult to say no, and they regret being in 
that situation in the first-place. So, a lot of times, they can 
avoid those kind of situations. They can learn how to say no 
when they do not feel it is appropriate, and those kinds of 
things. I think that is the key, to me, besides just saying no. 
Just saying no does not work.
    Mr. Stark. I would refer you, and, of course, Governor 
Thompson was not there then, to Wowatosa, Wisconsin, where I 
spent my adolescent years. I can probably refer you to 15 or 20 
young ladies who had no trouble saying no whatsoever.
    [Laughter.]
    Mr. Stark. And, to my knowledge, they never took a course. 
You guys are wasting government money and time. Just go to the 
source. It sounds silly, but it gets sillier, I guess. One of 
the issues that they have discovered in Minnesota, and nobody 
has referred to this, is that perhaps providing money, helps 
too. The Minnesota Family Investment Program, has allowed 
welfare beneficiaries to keep more of their earnings and they 
found that it has not only led to increased employment, but to 
an increased marriage rate.
    I have heard none of you testify to the issues that, in 
many cases, poverty can be a troublesome problem in a marriage. 
I am surprised that that did not come to the surface. We might 
offer an amendment to Chairman Herger's bill, for instance, to 
give a tax credit to somebody who would marry a welfare 
recipient. That could solve several problems. I am further 
troubled that much of this seems religious-based. Everybody 
talks about doing this in a church. For those of us who do not 
attend church, and I am not sure what you might suggest; that 
that is suffrage, that we go through.
    But Unitarians can meet wherever they choose. They do not 
need a church to carry on their activities. But I have noticed, 
for example, and I hope that you would all agree, that we found 
there have been tremendously good results in many States where 
couples of the same sex have adopted children, to the benefit 
of these children. I would hope that you would all include in 
your counseling those people of the same sex who chose to 
marry. That would be part of your program; would it not?
    Mr. Anderson. Yes. Communication skills is what we are 
talking about. Those can be applied in any relationship. In 
fact, they transcend into----
    Mr. Stark. So you would not exclude same-sex couples from 
that?
    Mr. Anderson. No.
    Mr. Stark. That is excellent. I think you are in the right 
forum then. I think you suggested that the good Governor of 
Arizona showed exemplary leadership in this arena. Within our 
current House leadership, you have got the Republican 
Conference Chairman with children born out-of-wedlock, and the 
previous two Republican Speakers (one was a speaker-designee) 
both had extramarital affairs while they were in office. So you 
have got the leadership from the right group to lead you. I 
think this is great. So, welcome, and we will take your advice 
into consideration.
    Thank you very much, Mr. Chairman.
    Chairman Herger. Thank you. Mr. Camp, to inquire?
    Mr. Camp. Thank you, Mr. Chairman, and I want to commend 
all of you for being here and the work you are doing. I think 
it is a real positive. I guess I had a question for the 
McManuses, and I have the pleasure of working with your son on 
the Health Subcommittee, as well as some other people here. How 
would you target these programs, particularly to low-income 
families?
    Mr. McManus. Well, churches can be found in all economic 
strata; and, for example, one of our model Marriage Saver 
congregations is the Bread of Life Church in Kansas City, 
Kansas, where they have trained eight mentor couples and they 
have had no divorces since they trained these mentor couples. 
But they are also taking an aggressive stance on the issue of 
cohabitation.
    There were seven couples in this congregation who were 
living together, and Pastor Leroy Sullivan preached on this, 
and said: You know it is not right. You ought to either get 
married or split. And five of the couples did marry, but there 
were two where the fellow refused to move out, and the woman 
said she wanted him to move out, but he said he did not want to 
move out.
    So Pastor Sullivan showed up one Friday night at this 
couple's home, knocked on the door, and he said: Oh, Pastor, 
what are you doing here? He said: Well, I'm going to be here 
until you move out. She wants you out, and where is your 
remote? He sat down in the guy's chair and he said: You are 
going to do what? He said: I'm going to sit here until you move 
out. And the young man said: Well, how long are you going to be 
here, Pastor? He said: Well, I am here on a four-hour shift, 
and my elders are coming in 4-hour shifts after that, and we 
are going to stay here until you move out. And he did.
    That is taking an issue and really showing real gutsy 
leadership. That is the kind of thing that needs to be done.
    Mr. Camp. Is your experience ever not through a church? Are 
there any other agencies? I realize primarily it is through 
churches.
    Mr. McManus. Synagogues, too.
    Mr. Camp. And synagogues and religious institutions, but 
are you working with any nonreligious institutions?
    Mr. McManus. No, but I wanted to make one answer to Mr. 
Stark's question. The work that Oklahoma is doing is going to 
work through many public agencies, as well as through the 
churches. So when they train in this prep program, which really 
does teach communication and conflict-resolution skills, and 
training the welfare workers and the health care workers and 
the agricultural extension agents, they reach all of these 
people through public means and it is a parallel track to the 
religious track. So I admire what they are doing in Oklahoma.
    Mr. Stark. Is that the same----
    Mr. Camp. I would be happy to yield.
    Mr. Stark. If you would yield for just a second. I do 
encourage or think about conflict resolution for young children 
in school now, to stop some of the violence. Is this all 
combined, or is this in compartments? I mean, can you combine 
all this in the other training that we are trying to provide 
for youth in high school? For instance, conflict resolution to 
reduce the amount of violence, as well as perhaps helping them 
in interpersonal relationships?
    Mr. McManus. There are many programs designed for the high 
school student to do this, and what the high school students 
are surprised at is that this works with their parents, it 
works with their employers, as well as with their girlfriends.
    Mr. Camp. Thank you. Thank you, Mr. Chairman.
    Mr. Anderson. OK. Thank you. We still have about 10 
minutes. We do have two votes coming up on the floor, but maybe 
we can go to one more question. Mr. Levin, would you like to 
inquire prior to leaving for the vote?
    Mr. Levin. Let me just ask you about the use of State 
funds. Right now, for example, both Arizona and Oklahoma have 
considerable unspent funds of TANF. Do you really want the 
Federal Government to earmark how you spend these unspent funds 
beyond our present laws? Is that what you are coming here and 
asking us to do?
    Mr. Regier. I was just coming to tell you what we were 
doing. [Laughter.]
    Mr. Regier. But I think the fact that the welfare law has 
been on the books for 5 years, and very few States have done 
anything in the area of promoting marriage or even 
significantly reducing out-of-wedlock births, may mean that 
something does need to be put in as a mandate. What we are 
doing, we took the leadership to do this without the mandate.
    Mr. Levin. By the way, I think you are mixing marriage and 
children out-of-wedlock. I mean, there are programs relating to 
children out-of-wedlock. We are not talking about necessarily 
the same programs or the same dynamics. So you are saying the 
position of your State is that the government should earmark, 
the Federal Government, a portion of your unspent funds, and we 
should earmark it for what purpose?
    Mr. Regier. My point was that if the Federal Government 
earmarks a portion of it, it would just run parallel to what we 
have already earmarked as a State. So, for us, whether you 
earmark it or not really is immaterial.
    Mr. Levin. Should we earmark how the money is spent for 
these programs?
    Mr. Regier. Excuse me?
    Mr. Levin. Do we earmark how the money is spent?
    Mr. Regier. No. Right now, you do not.
    Mr. Levin. No. Should we, and should we hold the States 
accountable for how they spend the money?
    Mr. Regier. I think the reason that I would say that 
perhaps something should be earmarked related to marriage is 
because very few States have spent any money in promoting 
marriage.
    Mr. Levin. Why do you think that is?
    Mr. Regier. Well, I think it is because they do not know 
how to do it, which is what we are trying to explore, how one 
can do that.
    Mr. Levin. So we are going to earmark money for States to 
do something they do not know how to do? I am serious, because 
the earmarking issue is a serious issue, and I think there is a 
need for Federal leadership. I would be inconsistent if I said 
we never should do that, but I do think it is a serious 
question. So let me shift to the State next to you. I mean, you 
have considerable unspent moneys; right? As I look through the 
chart, we are talking about, in both of your cases, a 
substantial amount, over 10 percent of the cumulative grants 
are unspent funds, as of--we do not have the latest figure. It 
was last year.
    Do you want us to earmark--I mean, to mandate?
    Mr. Anderson. Well, Mr. Levin, I would support Congress 
setting aside a policy that says 10 percent or whatever the 
number might be of this TANF block grant should go for these 
kind of programs. Now, how you States decide which programs or 
how you achieve that, leave that up to the States. I think that 
is where you are going to find the 50 different laboratories of 
democracy. You are going to see some States succeed and others 
not, but then you will learn from that.
    Mr. Levin. We have those laboratories now. They can use the 
moneys for these programs, and there are maybe some 
constitutional limits, but other than that, the States can do 
that. And how far do we go in telling them the content of their 
programs?
    Mr. Anderson. Well, Mr. Levin, I think, to me, setting the 
goal is a very worthwhile effort on the part of Congress. It is 
providing leadership to the States, and some States are ahead 
of others, but I think you are going to set some things in 
motion that are going to be able to bring forth some good 
policies. I think in a lot of States, this policy is controlled 
oftentimes by the Department of Economic Security in each 
State, and oftentimes they do not have the vision that I think 
Congress has the ability to have.
    Mr. McManus. It seems to me that one of the things that Mr. 
Anderson has said ought to be considered at the Federal level, 
and that is to set a goal. President Kennedy, early in his 
administration, set a goal of landing a man on the moon. That 
seemed like an impossible dream at the time that he did it, and 
it took 400,000 people and the substantial funding of NASA to 
accomplish it, but it was achieved by 1969. If this Congress 
and this President were to set a goal of cutting the divorce 
rate by one-third by the year 2010, and provided and earmarked 
5 percent of the money for demonstration projects funded 
through the Federal Health and Human Service Department----
    Mr. Levin. This is cutting the divorce rate?
    Mr. McManus. Yes, but what I am saying is if you set the 
goal and provide some money, then it seems to me you might 
really achieve it; and we have 300,000 congregations in this 
country, that if we only got one-third of them to organize 10 
mentor couples apiece, we would have one million mentoring 
couples, and one million mentoring couples could surely save 
half the marriages that are ending in divorce.
    Chairman Herger. The time has expired. I thank the 
gentlemen from Michigan for his inquiry. We do have 3 minutes 
left. I would just like to make the comment that when we first 
started 5 years ago on welfare reform, we did not know how to 
put people to work at that time. We had no idea whether welfare 
reform would work, and that is the purpose of this hearing, to 
see what is going that might work. I think when we look at the 
documented negative results that are overwhelming in many, many 
different areas of the results of children who grow up in 
families where they do not have two parents or the parents are 
not married, I certainly believe what we are working on is a 
very worthy goal.
    Also, just another response. The purpose of this hearing is 
not to throw stones at anyone or any group. The purpose of this 
hearing is to try to determine what we can do to help children 
to grow up in families and in homes where they have the 
greatest opportunity to be successful, and also for these 
families to be successful. So, with that, we will recess, 
returning immediately after the last vote. We have two votes 
up. Thank you.
    [Recess.]
    [Questions submitted from Chairman Herger to the panel, and 
their responses follow:]

                           Arizona House of Representatives
                                        Phoenix, Arizona 85007-2848
    Dear Congressman Herger:
    Thank you for inviting me to testify to your Committee regarding 
the use of TANF funds and marriage policy. I am replying to the set of 
questions that you sent on May 23rd.
    (1) What obstacles did you have in passing legislation to promote 
marriage? Are there ongoing battles you have to fight to keep these 
programs on track?
    The main obstacles in originally passing the marriage skills 
legislation had to do with myths and misconceptions that legislators 
had regarding the marriage issue. Several lawmakers were afraid that we 
were trying to mandate for welfare moms. Others were afraid that we 
were saying that just getting a piece of paper that says a person is 
married would solve all their problems. Once we were able to explain 
that marriage skills can be taught in a classroom environment and that 
there is scientific research to indicate that it can be effective at 
reducing divorce, then we were able to generate enough support for the 
legislation.
    As for ongoing battles, the main battle has been with the Governor. 
She was never really convinced that this is a good use of TANF money. 
She reluctantly signed the legislation, and in the 2001 session she 
vetoed the ongoing funding for the program. Therefore, instead of $1 
million every year, we only have the 1 year of funding which we will 
have to stretch over 2 years until we will have a new Governor in 2002. 
The actual funding will be allocated in June after the Commission has 
one more meeting.
    (2) You stated in your testimony, that in Arizona ``as a first 
step, marriage skills courses are going to be offered to young couples 
preparing for marriage.'' Starting when? For whom--all young couples 
applying for a marriage license? How long would these courses take? 
Where are they taught?
    The marriage skills courses will be offered to anyone who is 
interested in taking the courses. We assume that this will primarily be 
young couples contemplating marriage or recently married, or couples 
struggling with their relationship. The courses will be up and running 
by July 1<SUP>st</SUP>. All couples applying for a marriage license 
will be given the ``healthy marriage'' handbook which will include 
contact information for the contractors providing marriage skills 
courses. These contractors are also charged with marketing the courses 
in the community through advertising in newspapers, newsletters, flyers 
and brochures distributed to bridal fairs, welfare offices, churches, 
and any other method possible to inform likely participants. The 
courses will run from 4 hours in length up to 16 hours and will be 
taught in offices, classrooms, and other public locations.
    (3) What happens if a couple does not want to take this course? How 
will people find out about the courses and services your program will 
offer? Will it be income-based or can anyone enroll?
    The courses are not mandatory. Participants will find out about the 
courses through advertising, referrals, and word-of-mouth. Anyone can 
enroll, but the targeted group is low-income individuals. There is 
$75,000 available in the form of vouchers for those couples who are 
under 150% of the federal poverty level and who request help to pay 
their share of the course's cost.
    (4) How many couples can be served through your State's $1 million 
grant?
    The number of couples that we can serve depends on the average cost 
of the course per hour times the average number of hours per course 
minus the payment by the couple as their share. (The following are 
estimates: average cost per hour = $20. The average number of hours per 
course = 6. The average couple's share of cost is 20% or around $24.) 
Using these estimated numbers and rounding off the $96 dollar figure to 
$100, we come up with 10,000 couples who can be served with the $1 
million dollars.
    I hope these answers are helpful. Please feel free to contact me if 
more information is desired. By July 1st, we will know more as the 
courses will be starting out in the community. I will keep you posted 
as any additional information becomes available. Keep up the good work.
            Sincerely,
                               Representative Mark Anderson
                                                  District 29--Mesa

                                <F-dash>

   Oklahoma Department of Health and Human Services
                              Oklahoma City, Oklahoma 73117
                                                       June 5, 2001
Chairman Wally Herger
Committee on Ways and Means
Subcommittee on Human Resources
Washington, DC 20515
    Dear Chairman Herger:
    Thank you for the opportunity to provide additional information 
about Oklahoma's diligent work to strengthen marriages and families. We 
are confident that the sound prevention strategy we have developed with 
TANF funds will result in the implementation of programs and services 
that will positively impact family relationships across our state.
    In response to your proposed questions, I have called on our 
state's Marriage Initiative management consultant, Dr. Scott Stanley 
and Mr. Raymond Haddock to assist in preparing a reply. All have played 
an integral role in the development of the Oklahoma Marriage Initiative 
and continue to be vital to future ideas and endeavors. Marriage 
Initiative team members include: Mary Myrick, APR, Project Manager; Don 
Hebbard, EdD, Director of Marriage Education; and Jo Anne Eason, 
Derinda Lowe and Kendy Cruson are individuals who have made important 
contributions to this work. Dr. Scott Stanley is a Senior Consultant to 
the Oklahoma Marriage Initiative and Co-director of the Center for 
Marital and Family Studies at the University of Denver. Dr. Stanley has 
been involved in the research, development, and refinement of the 
Prevention and Relationship Enhancement Program (PREP) for over 20 
years. Raymond Haddock is Division Administrator for the Oklahoma State 
Department of Human Services, directing our state's TANF programs. We 
continue to work very closely with DHS to develop programs and services 
for the Oklahoma Marriage Initiative.
    In reference to your first question regarding expected results and 
results to date, I am confident of positive and substantial results. In 
the first couple of years of enacting the initiative, a number of 
specific short-term results are expected:
    (1) The construction of a survey instrument that can be employed at 
intervals to track changes in demographic trends and attitudes about 
marriage and family within the state of Oklahoma. This instrument will 
be developed through consultation of a team of marriage scholars, 
including a number of national and Oklahoma experts. In addition to 
fulfilling the intended purpose of tracking macro level changes in 
Oklahoma as a result of the Initiative, this instrument may become a 
model instrument that can be adapted and used in the efforts of other 
states to change the direction of various negative marriage and family 
trends. Oklahoma State University's Bureau for Social Research will 
manage this project and further research/evaluation components.
    (2) The development of statewide systems in the promotion and 
strengthening of healthy and stable marriage and family relationships. 
Oklahoma seeks to be the first state in the U.S. to move from an 
official stance of neutrality with regard to marriage and family 
relationships to one of advocacy for a stronger marriage culture. While 
the Initiative, in all aspects, intends to project a message of 
acceptance toward various types of family arrangements, it will break 
new ground for government involvement in cultural trends that have 
significant impact on government expenditures and services. 
Specifically, government personnel in various capacities across the 
state will be equipped and empowered to strengthen viable marital, 
premarital, or co-parenting relationships (parents who may not desire 
or be good candidates for marriage, but who nevertheless will have to 
work together around the needs of their child) with goals of increased 
stability and quality.
    (3) A significant increase in the capacity of both the public and 
private sector to provide various services to Oklahomans--services that 
are targeted toward the reduction of risks and a strengthening of 
protective factors in marital, family, and parental relationships. As 
noted in the testimony provided earlier, the current trends in marriage 
rate declines, divorce, family fragmentation, and out-of-wedlock births 
become the business of the government due to a wide range of costs to 
society. Historically, state and Federal governments have played very 
little role in strengthening protective marriage and family patterns, 
despite large social costs. In Oklahoma, we expect to demonstrate a 
rapid and widespread increase in the capacity of the public sector 
(e.g., Health Department personnel, DHS, Extension Service) and private 
sectors (e.g., religious organizations, non-religious social agencies) 
to provide relationship education services. For example, in the coming 
months, the pilot phase of our Training and Service Delivery System for 
Couples and Marriage Education will result in the training of 
government workers and private providers once we utilize this pilot 
phase to perfect the process of training and service delivery. We will 
see the additional training of hundreds of other supervisors and 
service providers as the program transitions to a statewide effort. Not 
only will these efforts result in increased capacity for relationship 
strengthening education throughout Oklahoma, such efforts will change 
the stance of government agencies from a ``hands off'' stance with 
regard to marriage and family relationships to one of increased 
understanding and advocacy for transformation of a culture of family 
fragmentation to one of family stability and well-being.
    (4) The integration of two nationally recognized services in the 
efforts of the Oklahoma Department of Health to strengthen viable 
relationships of disadvantaged, non-married mothers who are clients of 
the department of health. One of the most successful programs 
implemented by state governments around the U.S. to lower health risks 
as well as recidivism of out-of-wedlock births with young mothers is 
the Childrens' First program. Childrens' First is a protocol 
implemented by public health nurses, and it based on numerous Federally 
funded studies demonstrating significant promise in achieving these 
aims. Public health nurses within the department of health have 
repeatedly asked for training to augment their work with these young 
mothers for the lowering of risks present in their relationships with 
boyfriends, spouses, and/or fathers of their babies. The developers of 
Childrens' First (Dr. David Olds & xxxx) have been working for over a 
year with the developers of PREP (Drs. Stanley and Markman, et al.) to 
integrate adult relationship building strategies into the already 
highly successful protocol of Childrens' First. This integration and 
implementation will be one tangible result of the initiative, with the 
short-term result of increased capacity of public health nurses to 
strengthen (where appropriate) the relationships in these ``fragile 
families.''
    PREP is an evidence-based program for couples that has been 
evaluated in numerous long-term studies, with a variety of couples, 
across a number of continents (see attached executive summary on PREP). 
Very encouraging results have been found in tests of effects in a 
number of outcome studies, including ongoing research at the University 
of Denver, funded by the National Institute of Mental Health. The 
program is largely based on strategies based on findings from empirical 
research rather than pop psychology or speculation.
    (5) Continued cultural changes as state leaders in multiple sectors 
continue to educate the public about the real consequences of divorce, 
the value of strong marriages, particularly to children, and the 
reality that meaningful and relevant skills can be learned and used to 
strengthen committed relationships. The Governor, and others, have 
already made a significant impact through their leadership in these 
areas. Marriage and divorce are now regular parts of the Oklahoma 
conversation, with our citizens demonstrating Oklahoma determination in 
their desire to reverse the state's divorce numbers.
    Over 600 religious leaders, and the heads of almost every faith and 
denomination have signed the ``Oklahoma Marriage Covenant,'' to slow 
the marriage entry period and to better utilize engagements for 
marriage preparation at the community level. We fully expect these 
``signings'' to continue and the number of religious leaders making 
this commitment to grow. According to the Glenmary Research Center, 
66.8% of Oklahomans claim affiliation with a church, and therefore this 
partnership with the faith community is vital. Because of leadership of 
pastors, rabbis, ministers and priests, we expect an increase in the 
number of couples obtaining premarital education services, as well as a 
decrease in the number of divorces.
    The education sector has also begun looking at ways to include 
marriage and relationship education as part of its mission. We expect 
to see relationship courses on college campuses, and eventually in high 
schools. With many Oklahomans marrying at a young age, we have placed a 
high priority on reaching these two populations as part of our 
prevention strategy. We expect to, over time, delay the age of first 
marriages, and to better prepare young couples for marriage.
    We also expect to have ever-growing involvement by our state's 
media venues, as the facts about marriage and divorce are compelling. 
Providing good information so citizens can make better choices is a 
matter of both public health and welfare prevention. One of every three 
couples getting a divorce will result in the need for some kind of 
temporary assistance and that fact will keep this issue on the public 
agenda.
    When divorce does occur, there are services that have proven to 
reduce the negative impacts on families, particularly mediation. Our 
State Courts have implemented a strong divorce mediation program which 
reduces both couple conflict and return court appearances.
    Long-term effects might be:
    (1) While we cannot accurately predict the degree of success we 
will have in achieving the stated goals of the marriage initiative, we 
expect to document reductions in the number and rate of divorces, an 
increase in the marriage rate among people in their twenties and 
thirties, and a reduction in the recidivism of out-of-wedlock births by 
teenage girls. With regard to divorce and marriage rates, what we are 
essentially expecting is that trend on those indices will reflect our 
broad based, multi-method efforts to strengthen a marriage culture in 
the state of Oklahoma. Our 10-year goal is to accomplish a \1/3\ 
reduction in the number of divorces in Oklahoma.
    (2) As a specific result of the implementation of prevention, 
premarital and early marital education services statewide, we expect to 
see a decline in the divorce rate of couples within the first 5 years 
of marriage. Various studies document that this is a very high risk 
time period for marriages, and much of our increased relationship 
education capacity will be directed at the needs of such young couples. 
In two long-term studies, adaptations of PREP have been associated with 
significant reductions in the likelihood of divorce and break up within 
the 5 years following training. Certainly studies vary in results, and 
not all couples can be expected to benefit from preventive efforts, the 
high likelihood of marital declines in the first 5 years of marriage 
means that young married couples are prime targets for demonstrating 
benefits of preventive relationship education.
    (3) Increased involvement of fathers of children born out-of-
wedlock with those children. The Children's First program already has a 
proven track record for increasing father involvement for many of these 
children. We expect to document an intensification of this effect 
through the confluence of the Childrens' First protocol and strategies 
for relationship building from PREP. Those strategies will be targeted 
toward helping the mothers and fathers of these children handle aspects 
of their relationship more constructively regardless of the likelihood 
of marriage for those couples. However, as a result of efforts to build 
the relationships that are viable, we would also expect an increase in 
the number of these couples who eventually marry. We expect this 
combination of strategies from Childrens' First and PREP to be among 
the most effective strategies implemented as a result of the initiative 
because both programs have shown significant promise in various 
empirical studies.
    (4) Decreased risk for domestic violence in the relationships of 
mothers in the Childrens' First program with their boyfriends, 
husbands, or father of their child (sometimes this will be the same 
man, and sometimes the father of their child may be a different person 
from their boyfriend or husband.) While more research needs to be done 
(and is being done), there is both theoretical reason and limited data 
suggesting that interventions like PREP can reduce some kinds of 
domestic violence in some kinds of couples. As part of the efforts 
underway in the state of Oklahoma, pilot research is currently underway 
exploring the ways in which the Childrens' First protocol and 
strategies from PREP may be employed by public health nurses to build 
more stability in the social networks of the young mothers and reduce 
the likelihood of domestic violence with their male partners (or 
fathers of their children if not now their partner).
    In answering your second question regarding TANF benefits and 
cohabitation, Mary Stalnaker of the Department of Human Services 
attests that the agency currently has no data to determine any economic 
effect or impact on couples who were cohabiting and later chose to 
marry. Administrators have engaged in conversations with researchers 
through the University of Oklahoma regarding conducting this type of 
evaluation and hope to begin that process later this year. The original 
intent of changing this policy was to remove a marriage penalty. 
However, old policies were actually more friendly in the income 
calculations for persons who chose cohabitation than they were for 
persons who chose to marry.
    I hope I have provided you with useful information to accompany my 
Congressional testimony. Please contact me again if you have further 
questions or request additional information. Again, thank you for this 
opportunity and for expressing interest in the Oklahoma Marriage 
Initiative.
            Sincerely,
                                          Hon. Jerry Regier
                                                          Secretary

                                <F-dash>

                                    Marriage Savers
                                    Potomac, Maryland 20854
                                                       May 30, 2001
Rep. Wally Herger
Chairman
Ways & Means Subcommittee on Human Resources
B-317 Rayburn HOB
Washington, DC 20515
Via e-mail and U.S. Mail
    Dear Chairman Herger:
    Thank you again for the opportunity to testify on the 
reauthorization of Welfare Reform. It was a thrill to Harriet and me 
and to our young couple, to be able to share the experience of Marriage 
Savers.
    You have asked two additional questions.
    1. How could our approach benefit low income never-married couples 
or parent?
    First, it should be noted that African Americans and Hispanics 
attend church more regularly than whites, according to George Gallup. 
And two-thirds of black churches are financially healthy. Why? Gallup 
reports a very high percent of blacks tithe, 45%. The inner city is 
full of churches, and average attendance is 278. However, these pastors 
are quite skeptical of answers from the white community for their 
people. So a special effort has to be made to reach minority clergy.
    Nevertheless, it can be done. Writing in a recent newsletter of 
Marriage Savers, Pastor LeRoy Sullivan of Bread of Life Church in 
Kansas City, KS, told how he created a ``Marriage Savers Church'' that 
has ``mandatory marriage preparation, using mentoring couples.'' He 
trained six Mentor Couples who helped 10 couples prepare for marriage. 
One broke an engagement, but none have divorced. He has also trained a 
``back-from-the-brink'' couple in marriage saving. In fact, Bread of 
Life has had no divorces in 4 years.
    One of those couples prepared for marriage, Herman and Djana Lloyd, 
say the process helped their communication: ``The mentoring we have 
received allows us to handle arguments in a more effective manner,'' 
she says.
    ``When we have problems that were too hard to discuss, we've had a 
Mentor Couple to call upon. Marriage Savers has made us a better couple 
because our focus is now more on God than each other. That makes it 
easier not to have disagreements. When we disagree, we now handle them 
with love, patience, adjustment to God, prayer and a willingness to let 
God lead us.''
    Black Clergy Skepticism: One question Pastor Sullivan hears from 
other black pastors who he is bringing into a Community Marriage 
Policy<Register>: ``Is this a white man's thing?'' Pastor Sullivan 
answers: ``I explain that marriage is not a color or an ethnic `thing.' 
It is between a man and a woman, coming together in a covenant. The 
same issues are there for all--no matter what culture or ethnic 
background. Biblical principles know no color boundary. Marriage Savers 
is not a color or cultural issue. It is returning to God's plan for 
marriage.''
    This is true. However, skepticism by black clergy is natural. 
Extraordinary effort must be made to reach out to minority clergy 
associations by those organizing what we call Community Marriage 
Policies<Register>, which have brought divorce rates down in dozens of 
communities.
    Minority clergy: a key subgroup to be organized: In our advice on 
how to organize a Community Marriage Policy<Register>, we outline the 
need to reach out to four relatively separate clergy groups, each of 
which tend to operate independent of the others:
    <bullet> Catholic priests;
    <bullet> Mainline Protestant pastors (United Methodist, 
Presbyterian, Episcopal);
    <bullet> Evangelical Protestant pastors (Baptists, Assemblies of 
God, Nazarene);
    <bullet> Minority clergy, black or Hispanic pastors.
    Black-white harmony: We have had as many as 40% of participating 
clergy to be minority in a city such as Columbus, GA. In fact, in that 
city, the black and white clergy had never cooperated on anything until 
they organized a Community Marriage Policy in 1997. But the two clergy 
groups grew to have so much respect for one another that the white 
clergy association dissolved and all the white pastors joined the black 
clergy association!
    2. In my testimony, I indicated that therapists are able to save 
only about 20% of the troubled marriages who come to them for help, 
while Mentor Couples can save 80%, the mirror opposite. You asked 
``What accounts for the difference''?
    Therapists save only 20%. Diane Sollee, a marital therapist who was 
Associate Director of the American Association of Marriage and Family 
Therapy, and now directs the Coalition for Marriage and Family 
Education, cites both personal experience and two studies which 
indicate that therapists are able to save only about a fifth of the 
marriages that come to them.
    ``The prevailing attitude of marriage therapy has been one of 
sophistication, to say that marriage doesn't make any difference. They 
are focused on increasing the happiness of the client,'' says Diane 
Sollee. ``If they think the clients will be happier if they are 
divorced, they will help them get divorced. They take a short term view 
and are not looking at what it does to the long term lives of their 
clients. However, when a marriage breaks up, they are not just 
destroying a marriage. For the kids, they are destroying the family and 
the grandchildren.'' In fact, Ms. Sollee reports that a major growth 
area of the therapy business is ``divorce adjustment therapy.''
    Diagnosis vs. Prescription. Another issue is that many therapists 
are more trained in diagnosis than in prescription. They delve into the 
history in great depth, which can take months or years (at $100 an 
hour). The best therapists such as Michele Weiner-Davis, author of 
Divorce Busting, take the opposite approach. She says that what matters 
is not what happened yesterday or years ago, but what will the person 
do tomorrow, when a predictable problem arises? She teaches people to 
widen their repertoire. Instead of complaining about the other spouse, 
she urges clients to praise whatever good things the spouse is doing. 
Finally, there are relational skills which can be taught, but 
therapists are generally not skilled in doing so. There are courses 
such as PAIRS which teach these skills, and save four out of five 
marriages.
    Selfishness vs. Selflessness: The basic reason that marriages fail 
is selfishness on the part of one or both partners. He drinks to 
excess. She is having an affair. He doesn't invest time in her as he 
did before the wedding and she feels neglected. One or the other 
becomes overly involved in work. The answer to selfishness is 
selflessness. A spiritual transformation is required by at least one 
spouse.
    Peer Counseling: the AA Model: The best way to inspire such change 
is for couples to see how another couple who was having a similar 
problem--overcame the problem and now has a happy marriage. This 
approach is often called ``peer counseling,'' the best known model of 
which is Alcoholics Anonymous. Some 1 million people attend an AA 
meeting every week! Why? Someone will stand up and say, ``I'm Joe and I 
am an alcoholic, but I have not had a drink in six years. He will then 
tell his own 12 steps of recovery. This is not only inspirational to 
those addicted to alcohol, but people will donate their time to mentor 
the struggling individual. What is modeled is the very selflessness 
which the dependent person needs to break free of his/her addiction.
    Mentor Couples: Similarly, peer counseling or couple mentoring is 
the best way to save troubled marriages. Every church has couples who 
have survived adultery, for example. Three pews back Couple B is moving 
toward divorce because she found out he has had an affair. It has never 
occurred to most pastors to introduce Couple A to Couple B. Couple A's 
story is a deep dark secret. But they would be willing to meet with 
Couple B, if asked. Couple A could say, ``We know adultery breaks 
trust. We have been there, done that. But we are here to say that trust 
can be restored after adultery. We have done it. So can you. Let us 
pray about this.'' That is the kind of conversation that is not 
happening in 999 out of 1,000 churches.
    Another reason why Mentor Couples are more successful than therapy 
is research evidence. Diane Sollee asserts, ``The main body of research 
led by Dr. John Gottman, Dr. Bernard Guerney, Dr. Howard Markman and 
Dr. Scott Stanley indicates that when marriage is looked at over the 
long haul, the whole therapy paradigm is wrong. Marriages don't break 
up because one person is mentally ill or maladjusted. For the most 
part, therapists are trained to diagnose such illness and then come up 
with a treatment plan, reimbursed by insurance companies, on the theory 
that once a therapist straightens out or cures that person's 
maladjustment, the marriage will work.
    ``On the other hand, Mentor Couples know how to handle what 
marriage is. They have managed to stay married many years and have 
learned along the way, how to make it work, Ms. Sollee adds. Unlike 
therapists who will take sides with one spouse, who is paying the bill, 
Mentor Couples will note shortcomings on both sides, and the need for 
each spouse to be more considerate, more loving.'' (If the Committee 
would like to contact Ms. Sollee and bring in the experts she cites to 
testify, call her at 202 362-3332.)
    Retrouvaille (French for Rediscovery, pronounced Retro-vi) is the 
most successful national marriage-saving strategy in America. It has 
saved four out of five marriages headed for divorce in virtually every 
state. In fact, more than 60,000 couples have attended a 2 day 
Retrouvaille weekend retreat led by back-from-the-brink couples who 
donate their time. Why? Out of gratitude that Retrouvaille helped them 
save their marriage, they are reaching down to help others. They do not 
charge for giving up a weekend of time. Some will tell their story of 
how they overcame adultery or alcoholism or abuse. The attending 
couples then are asked to write to each other for 10 minutes on an 
issue such as ``What do I have difficulty talking to you about, and how 
does that make me feel?'' Couples then go to their motel rooms, read 
what each other has written and talk in private. Twenty minutes later, 
a knock on the door summons each couple back to the presentation room 
for another talk by the leaders, and the cycle repeats itself. You may 
want to ask the International Coordinating Team of Retrouvaille to 
testify in the future. I suggest you call Ted and Iris Bjorn, 205 330-
8070.
    Marriage Ministry is a local congregational version of 
Retrouvaille. Couples whose own marriages once nearly failed are 
trained to tell their stories to couples in crisis on a couple-to-
couple basis. We at Marriage Savers have helped more than 25 churches 
start such a ministry, which has virtually ended divorce in these 
congregations. One church, First Assembly of Rockford, IL runs an item 
in the church bulletin: ``Is your marriage in trouble? Are you tired of 
pretending that everything is great? Would you like to have another 
couple come alongside you for a season who has solved a similar problem 
in their marriage? If so, call Pat. . . .'' This process worked so well 
that the therapists started sending over their worst cases, more than 
100 of them. The 14 trained Mentor Couples struggled with the enormous 
load, but have lost only four marriages to divorce! For more 
information call Larry Ballard, our Midwest Regional Director of 
Marriage Savers at 715 834-5914.
Community Marriage Policies
    Finally, I want to reiterate that we jump-start marriage-saving 
reforms like those outlined above and others described in our 
testimony--such as Premarital Counseling and Stepfamily Support 
Groups--in many churches at one time in creating what we call a 
Community Marriage Policy<Register> or a Community Marriage 
Covenant<Register>. This weekend, for example, we will travel to 
Portland, Oregon where more than half of the pastors from 20+ 
denominations in a suburban Clackamas County, to adopt a Clackamas 
Community Marriage Covenant. We will remain to train more than 100 
couples from 25+ churches in how to jump start these reforms in their 
congregations. We will do a similar training in Nashville June 15-16.
    We did this in Harrisonburg, VA 2 years ago and the divorce rate 
dropped 15% in the first year! El Paso's divorce rate is down by a 
third in three years, and Kansas City, KS and its suburbs, by 44% in 
four years.
    Thus, Marriage Savers is working at two levels simultaneously. We 
have created 145 Community Marriage Covenants to plant these reforms in 
scores of churches. But what matters is what happens in the individual 
church. At that level, what we are doing is calling out and training 
Mentor Couples to be able to launch proven reforms that reduce the 
divorce rate of an individual congregation to near zero. I have written 
a Manual to Create a Marriage Savers Congregation which spells out in 
detail how to create a ``Marriage Savers Congregation'' which 
eliminates virtually all divorces. We teach Mentor Couples and pastors 
how to launch a new day for marriage and an old day for divorce. It all 
comes down to one core idea: In every congregation, there are couples 
in solid vibrant marriages who really could be of help to other 
couples, but have never been asked, inspired or trained to do so.
            Sincerely,
                                         Michael J. McManus
                                                          President

                                <F-dash>


    Chairman Herger. The hearing will reconvene. I thank our 
group of second panelists for coming up and being seated. 
First, I would like to introduce Mr. David Popenoe, Co-Director 
of National Marriage Project, and Professor of Sociology at 
Rutgers University; and then, Theodora Ooms, Senior Policy 
Analyst and Director, Resource Center on Couples and Marriage 
Policy, Center for Law and Social Policy; and Mr. Patrick 
Fagan, and thank you; a William H. G. Fitzgerald Research 
Fellow in Family and Cultural Issues, the Heritage Foundation; 
and Ms. Kathryn Edin, Associate Professor of Sociology, 
Northwestern University Institute of Policy and Research; and 
Laurie Rubiner, Vice President for Program and Public Policy, 
National Partnership for Women and Family; and Mr. Eugene 
Steuerle, Senior Fellow, the Urban Institute.
    Mr. Popenoe.

  STATEMENT OF DAVID POPENOE, CO-DIRECTOR, NATIONAL MARRIAGE 
   PROJECT, AND PROFESSOR OF SOCIOLOGY, RUTGERS UNIVERSITY, 
                     PISCATAWAY, NEW JERSEY

    Mr. Popenoe. It is a pleasure to be here. I was asked to 
provide a brief overview of the state of marriage in America 
today. As the recent results of the year 2000 census confirm, 
marriage, as the basis of family life, continues to decline in 
America. Since 1970, the rate of marriage has dropped by about 
one-third, the out-of-wedlock birth-ratio has climbed from 11 
percent to 33 percent of all births, the divorce rate has 
doubled and the number of people living together outside of 
marriage has grown by 1000 percent. With the exception of non-
marital cohabitation, which increased dramatically, the 
marriage decline trends decelerated a little in the nineties, 
but they have continued in the same direction. As of now, there 
is no tangible evidence of a turnaround, although a more pro-
marriage attitude does seem to be gaining ground in the media, 
and in the culture at large, and, hopefully, in this room.
    Why should this marriage decline be of national concern? 
Principally, because of its effects on our Nation's children. 
The social science evidence is now overwhelming that children 
fare better in life if they grow up in a married, two-parent 
family. Children who grow up in other family forms are 2-3 
times at greater risk of having serious behavioral and 
emotional problems when they become adolescents and adults. 
Many of today's youth problems can be attributed, directly or 
indirectly, to the decline of marriage. This includes high 
rates of juvenile delinquency, suicide, substance abuse, child 
poverty, mental illness and emotional instability. One 
important new study has found that the average American child 
in recent decades reported more anxiety than child psychiatric 
patients in the fifties. Indeed, as former Senator Moynihan 
once observed, the United States may be the first society in 
history in which children are distinctly worse off than adults.
    Much of the linkage between the decline of marriage and the 
rise of problems in childhood rests with the absent father. The 
evidence is now strong that fathers do matter in the lives of 
their children and, although there are many caring non-resident 
fathers, the alarmingly simple fact is that men are much less 
likely to stay close to their children when they are not 
married to their children's mother. Men tend to view marriage 
and child-rearing as a single package. If they are not married 
or are divorced, their interest in and sense of responsibility 
toward children greatly diminish. Many studies have found that 
a high percentage of all unmarried or divorced fathers lose 
regular contact with their children over time.
    Why is marriage so important to fatherhood? Because being a 
father is universally problematic for men in a way it is not 
for women. Put simply, as marriage weakens, fathers stray. 
While mothers the world over bear and nurture their young with 
an intrinsic acknowledgment of their role, fathers are often 
filled with conflict and doubt. Left culturally unregulated, 
men's sexual behavior can be promiscuous, their paternity 
casual, their commitment to families weak. Marriage is 
society's way of engaging the basic problem of fatherhood--how 
to hold the father to the stronger mother-child bond. As a 
cultural institution, marriage stresses the long run commitment 
of the male, the durability of the marital relationship, and 
the importance of the union for children.
    Our national goal should be no less than to rebuild a 
marriage culture, one in which as many children as possible 
grow up with their fathers and mothers providing care and 
nurture and stability. We should be every bit as much concerned 
with our Nation's family environment as we are with our 
Nation's economic and natural environments. Yet, if ever there 
was a serious domestic problem almost entirely ignored by our 
National elected representatives, this is it. Despite the fact, 
for example, that many Americans believe the current state of 
marriage to be one of the major problems of our time, no high-
level government body in memory--until this group--has examined 
the issue. Indeed, in recent years the government has even cut 
back on the collection of marriage statistics.
    Is the goal of renewing a marriage-based society impossible 
to achieve? It certainly will not be easy. Much of the needed 
change must come, of course, in the cultural, moral and 
spiritual realms. But there are many things that can be done at 
the Federal level to smooth the path. Perhaps the most 
important is merely to recognize--as societies in the past have 
nearly always done as a part of public policy--that the 
benefits to children of having married parents are so great 
that the institution of marriage should be encouraged by every 
reasonable means possible. Fortunately, many ways exist to 
strengthen and stabilize marriage (which you will be hearing 
more about) to make marriage a more satisfying, as well as more 
durable, social relationship. And, of course, government should 
seek to do no harm in this realm. It should never institute 
policies, for example, that provide disincentives to marriage 
or that fail equally to support children not in a two-parent 
family.
    More than 2000 years ago, the Roman Statesman Cicero noted 
that ``marriage is the first bond of society.'' Surely, this 
observation is no less true today.
    Thanks.
    [The prepared statement of Mr. Popenoe follows:]

   Statement of David Popenoe, Ph.D., Co-Director, National Marriage 
 Project, and Professor of Sociology, Rutgers University, Piscataway, 
                               New Jersey

    As the recent results of the Year 2000 Census confirm, marriage as 
the basis of family life continues to decline in America. Since 1970 
the rate of marriage has dropped by about one third, the out-of-wedlock 
birth ratio has climbed from 11% to 33% of all births, the divorce rate 
has doubled, and the number of people living together outside of 
marriage has grown by over 1000%. With the exception of nonmarital 
cohabitation, which increased dramatically, the marriage-decline trends 
decelerated a little in the 1990s. But they have continued in the same 
direction. As of now, there is no tangible evidence of a turnaround, 
although a more pro-marriage attitude does seem to be gaining ground in 
the media and the culture at large.
    Why should this marriage decline be of national concern? 
Principally, because of its effects on our nation's children. The 
social science evidence is now overwhelming that children fare better 
in life if they grow up in a married, two-parent family. Children who 
grow up in other family forms are two to three times at greater risk of 
having serious behavioral and emotional problems when they become 
adolescents and adults. Many of today's youth problems can be 
attributed, directly or indirectly, to the decline of marriage. This 
includes high rates of juvenile delinquency, suicide, substance abuse, 
child poverty, mental illness, and emotional instability. One important 
new study has found that the average American child in recent decades 
reported more anxiety than child psychiatric patients in the 1950s. 
Indeed, as former Senator Moynihan once observed, the United States 
``may be the first society in history in which children are distinctly 
worse off than adults.''
    Much of the linkage between the decline of marriage and the rise of 
problems in childhood rests with the absent father. The evidence is now 
strong that fathers do matter in the lives of their children. And, 
although there are many caring and responsible non-resident fathers, 
the alarmingly simple fact is that men are much less likely to stay 
close to their children when they are not married to their children's 
mother. Men tend to view marriage and childrearing as a single package. 
If they are not married or are divorced, their interest in and sense of 
responsibility toward children greatly diminish. Many studies have 
found that a high percentage of all unmarried or divorced fathers lose 
regular contact with their children over time.
    Why is marriage so important to fatherhood? Because being a father 
is universally problematic for men in a way it is not for women. Put 
simply, as marriage weakens, fathers stray. While mothers the world 
over bear and nurture their young with an intrinsic acknowledgement of 
their role, fathers are often filled with conflict and doubt. Left 
culturally unregulated, men's sexual behavior can be promiscuous, their 
paternity casual, their commitment to families weak. Marriage is 
society's way of engaging the basic problem of fatherhood--how to hold 
the father to the stronger mother-child bond. As a cultural 
institution, marriage stresses the long-run commitment of the male, the 
durability of the marital relationship, and the importance of the union 
for children.
    Our national goal should be no less than to rebuild a marriage 
culture, one in which as many children as possible grow up with their 
fathers and mothers providing care and nurture and stability. We should 
be every bit as much concerned with our nation's family environment as 
we are with our nation's economic and natural environments. Yet if ever 
there was a serious domestic problem almost entirely ignored by our 
national elected representatives, this is it. Despite the fact, for 
example, that many Americans believe the current state of marriage to 
be one of the major problems of our time, no high-level government body 
in memory has examined the issue. Indeed, in recent years the 
government even has cut back on the collection of marriage statistics.
    Is the goal of renewing a marriage-based society impossible to 
achieve? It certainly will not be easy. Much of the needed change must 
come, of course, in the cultural, moral and spiritual realms. But there 
are many things that can be done at the federal level to smooth the 
path. Perhaps the most important is merely to recognize--as societies 
in the past have nearly always done as a part of public policy--that 
the benefits to children of having married parents are so great that 
the institution of marriage should be encouraged by every reasonable 
means possible. Fortunately, many ways exist to strengthen and 
stabilize marriage, to make marriage a more satisfying as well as more 
durable social relationship. And, of course, government should seek to 
do no harm in this realm. It should never institute policies, for 
example, that provide disincentives to marriage, or that fail equally 
to support children not in a two-parent family.
    Some believe that pro-marriage policies cannot be put forth without 
stigmatizing and penalizing those who for one reason or another, 
sometimes through no fault of their own, are not married. Yet the fact 
remains that the overwhelming majority of young people today wish to 
marry for life, and the parents of these young people, no matter what 
their marital state, also hold that goal for their offspring. There is 
actually an enormous reservoir of support for a marriage-based culture. 
In addition to the significant and enduring benefits for children, the 
evidence is clear that having a solid, long-term marriage greatly 
enhances the wealth, health, longevity, and overall happiness of 
adults.
    More than 2000 years ago the Roman statesman Cicero noted that 
``marriage is the first bond of society.'' Surely this observation is 
no less true today.

                                <F-dash>


                     What's Happening To Marriage?*

 Barbara Dafoe Whitehead and David Popenoe, National Marriage Project, 
                           Rutgers University

    Americans haven't given up on marriage as a cherished ideal. 
Indeed, most Americans continue to prize and value marriage as an 
important life goal, and the vast majority of us will marry at least 
once in a lifetime. By the mid-thirties, a majority of Americans have 
married at least once.
---------------------------------------------------------------------------
    *From: The State of Our Unions: 1999, The Social Health of Marriage 
In America (Rutgers University, National Marriage Project, June, 1999).
---------------------------------------------------------------------------
    Most couples enter marriage with a strong desire and determination 
for a lifelong, loving partnership. Moreover, this desire may be 
increasing among the young. Since the 1980s, the percentage of young 
Americans who say that having a good marriage is extremely important to 
them as a life goal has increased slightly.
    But when men and women marry today, they are entering a union that 
looks very different from the one that their parents or grandparents 
entered.
    <bullet> As a couples relationship, marriages are more likely to be 
broken by divorce than by death. And although one might expect that 
greater freedom to leave an unhappy marriage might increase the chances 
that intact marriages would be very happy, this does not seem to be the 
case. Marriages are less happy today than in past decades.
    <bullet> As a rite of passage, marriage is losing much of its 
social importance and ritual significance. It is no longer the standard 
pathway from adolescence to adulthood for young adults today. It is far 
less likely to be closely associated with the timing of first sexual 
intercourse for young women and less likely to be the first living 
together union for young couples than in the past.
    <bullet> As an adult stage in the life course, marriage is 
shrinking. Americans are living longer, marrying later, exiting 
marriage more quickly, and choosing to live together before marriage, 
after marriage, in-between marriages, and as an alternative to 
marriage. A small but growing percentage of American adults will never 
marry. As a consequence, marriage is surrounded by longer periods of 
partnered or unpartnered singlehood over the course of a lifetime.
    <bullet> As an institution, marriage has lost much of its legal, 
religious and social meaning and authority. It has dwindled to a 
``couples relationship,'' mainly designed for the sexual and emotional 
gratification of each adult. Marriage is also quietly losing its place 
in the language. With the growing plurality of intimate relationships, 
people now tend to speak inclusively about ``relationships'' and 
``intimate partners,'' burying marriage within this general category. 
Moreover, some elites seem to believe that support for marriage is 
synonymous with far-right political or religious views, discrimination 
against single parents, and tolerance of domestic violence.
    <bullet> Among young women, social confidence in marriage is 
wavering. Until very recently, young women were highly optimistic about 
their chances for marital happiness and success. Now, according to 
youth surveys, their confidence in their ability to achieve successful 
marriage is declining. Moreover, they are notably more accepting of 
alternatives to marriage, such as unwed parenthood and cohabitation.
    <bullet> At the national policy level, marriage has received 
remarkably little bipartisan study or attention. During a four-decade 
period of dramatic historic change in marriage, no national studies, 
government commissions or task forces have been set up to examine the 
status of marriage or to propose measures to strengthen it.<SUP>1</SUP> 
Indeed the United States lags well behind England, Australia, and 
Canada in the level and seriousness of governmental response to the 
widespread evidence of the weakening of marriage.
---------------------------------------------------------------------------
    \1\ For two ``think-tank'' reports that are notable exceptions to 
the general neglect of marriage in the policy world, see: Theodora 
Ooms, Toward More Perfect Unions: Putting Marriage on the Public Agenda 
(Washington, DC: Family Impact Seminar, 1998); and Marriage in America: 
A Report to the Nation (New York: Council on Families in America, 
1995).
---------------------------------------------------------------------------
The Marriage Relationship
    One reason Americans prize marriage so highly is that it is the 
source of deeply desired benefits such as sexual faithfulness, 
emotional support, mutual trust and lasting commitment. These benefits 
cannot be found in the marketplace, the workplace or on the Internet.
    Most people aspire to a happy and long-lasting marriage. And they 
will enter marriage with the strong desire and determination for a 
lifelong and loving partnership. While they are married, most couples 
will also be sexually faithful to each other as long as the marriage 
lasts. According to the most comprehensive study of American sexual 
behavior, married people are nearly all alike in their sexual behavior: 
``once married, the vast majority have no other sexual partner; their 
past is essentially erased.'' <SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ Robert T. Michael, John H. Gagnon, Edward O. Laumann, and Gina 
Kolata, Sex in America: A Definitive Survey (Boston, MA: Little Brown 
and Company, 1994), 105.
---------------------------------------------------------------------------
    However, although Americans haven't stopped seeking or valuing 
happy and long-lasting marriage as an important life goal, they are 
increasingly likely to find that this goal eludes them. Americans may 
marry but they have a hard time achieving successful marriages. One 
measure of success is the intactness of the marriage. Although the 
divorce rate has leveled off, it remains at historically high levels. 
Roughly half of all marriages are likely to end in divorce or permanent 
separation, according to projections based on current divorce rates. 
Another measure of success is reported happiness in marriage. Over the 
past two decades, the percentage of people who say they are in ``very 
happy'' first marriages has declined substantially and continuously. 
Still another measure of success is social confidence in the likelihood 
of marital success. Young people, and especially young women, are 
growing more pessimistic about their chances for a happy and long-
lasting marriage.
    The popular culture strongly reinforces this sense of pessimism, 
even doom, about the chances for marital success. Divorce is an ever-
present theme in the books, music and movies of the youth culture. And 
real life experience is hardly reassuring; today's young adults have 
grown up in the midst of the divorce revolution, and they've witnessed 
marital failure and breakdown first-hand in their own families and in 
the families of friends, relatives, and neighbors. For children whose 
parents divorced, the risk of divorce is two to three times greater 
than it is for children from married parent families. But the pervasive 
generational experience of divorce has made almost all young adults 
more cautious and even wary of marriage. The percent of young people 
who say they agree or mostly agree with the statement ``one sees so few 
good marriages that one questions it as a way of life'' increased 
between 1976 and 1992, while the percent of those who say it is very 
likely they will stay married to the same person for life decreased 
over the same time period for both males and females.<SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ Norval D. Glenn, ``Values, Attitudes and the State of American 
Marriage,'' Promises To Keep: Decline and Renewal of Marriage in 
America, ed. David Popenoe, Jean Bethke Elshtain, and David Blankenhorn 
(Lanham, MD: Rowman and Littlefield, 1996), 21.
---------------------------------------------------------------------------
Marriage as a Rite of Passage
    For most of this century and certainly before, marriage was one of 
the most important rites of passage in life. It accomplished several 
goals associated with growing up: an economic transition from the 
parental household into an independent household, a psychosexual 
transition merging two selves and lives into one, and a social and 
legal transition from status as a single person to a spouse. Across 
time and culture, betrothal and wedding rituals reflected these 
economic, social and sexual dimensions of young people's coming of age.
    Today, marriage has lost much of its role and significance as a 
rite of passage. For earlier generations of women, first sexual 
intercourse and marriage were closely linked and timed. Ninety percent 
of women born between 1933-42 were either virgins when they married or 
had premarital intercourse with the man they wed.<SUP>4</SUP> For 
today's generation of young women, the timing of first sexual 
intercourse is increasingly distant from the timing of first marriage. 
Just over half of teenage girls have experienced first sexual 
intercourse by age 17.<SUP>5</SUP> Teenage girls are sexually active 
for seven or eight years on average before marriage. Indeed, premarital 
sex has become something of a misnomer. Sex is increasingly detached 
from the promise or expectation of marriage.
---------------------------------------------------------------------------
    \4\ Michael et. al, 97.
    \5\ Kristin A. Moore, Anne K. Driscoll, Laura Duberstein Lindberg, 
A Statistical Portrait of Adolescent Sex, Contraception and 
Childbearing (Washington DC.: The National Campaign to Prevent Teen 
Pregnancy, March 1998), 3. Figure is based on 1995 National Survey of 
Family Growth.
---------------------------------------------------------------------------
    Secondly, because young adults are postponing marriage until their 
late twenties, they pass through much of their twenties as never-
married singles. They are likely to live apart from the parental 
household, as singles, in a peer-group household, or in a cohabiting 
relationship. Many have ``their own lives and their own jobs'' long 
before they marry.
    During the years before first marriage, many young adults make the 
economic transition from dependence to independence. The National 
Marriage Project's recent study of never-married, noncollege young men 
and women in northern New Jersey finds that these young adults are not 
inclined to see marriage as a way to get ahead by pooling 
paychecks.<SUP>6</SUP> Rather, they describe marriage as a relationship 
where each partner contributes to the maintenance of the household but 
keeps control of his or her own earnings. Moreover, these men and women 
believe that each partner has to demonstrate a capacity to take care of 
himself or herself economically before marrying. As one young woman in 
the group explained, ``men learn to hate you if you try to live off 
them.''
---------------------------------------------------------------------------
    \6\ Barbara Dafoe Whitehead and David Popenoe, Why Wed? Young 
Adults Talk About Sex, Love and First Unions (New Brunswick, N.J.: 
National Marriage Project, Rutgers University, 1999).
---------------------------------------------------------------------------
    The pathway leading to marriage has changed as well. The pattern of 
mating used to follow a sequence: couple dating, going steady, sexual 
experimentation--sometimes including premarital sexual intercourse--and 
then marriage and children. Few people lived together before marriage, 
and most women were either virgins at the time of marriage or had 
premarital intercourse only with their future husband.
    Today the pathway is more complex and varied, but it goes in 
roughly this order: In high school and college, young people socialize 
in coed groups with some pairing off for purposes of love and sex. 
First sexual intercourse occurs in the late teens but it is typically 
not premarital. In their twenties, young people are likely to enter a 
cohabiting partnership as a first living together union. Cohabiting 
unions are short-term. Either they break up or, more likely, lead to 
marriage. An estimated 60 percent of cohabiting unions end in 
marriage.<SUP>7</SUP> Pregnancy and childbearing might occur at almost 
any point in this mating sequence.
---------------------------------------------------------------------------
    \7\ Larry Bumpass and James Sweet, ``National Estimates of 
Cohabitation,'' Demography 24-4 (1989): 615-625.
---------------------------------------------------------------------------
    Cohabitation is emerging as a significant experience for young 
adults. It is now replacing marriage as the first living together 
union. It is estimated that a quarter of unmarried women between the 
ages of 25 and 39 are currently living with a partner and about half 
have lived at some time with an unmarried partner.<SUP>8</SUP> A 
growing percentage of cohabiting unions include children. For unmarried 
couples in the 25-34 age group, the percentage with children approaches 
half of all such households.<SUP>9</SUP>
---------------------------------------------------------------------------
    \8\ Larry Bumpass and Hsien-Hen Lu, ``Trends in Cohabitation and 
Implications for Children's Family Contexts.'' Unpublished manuscript, 
1998. Center for Demography, University of Wisconsin, Madison, WI.
    \9\ Wendy D. Manning and Daniel T. Lichter, ``Parental Cohabitation 
and Children's Economic Well-Being'' Journal of Marriage and the Family 
58 (1996): 998-1010.
---------------------------------------------------------------------------
    Recent studies point to significant differences between never-
married, childless, engaged cohabiting couples and cohabiting couples 
who have not set a definite date to marry. Prenuptial cohabitors seem 
to look a lot like married couples in the level of commitment, 
happiness and frequency of conflict. Non-nuptial cohabitors, however, 
are significantly more likely than married or prenuptial cohabiting 
couples to experience domestic violence, to be sexually unfaithful, to 
have lower expectations and levels of commitment.<SUP>10</SUP>
---------------------------------------------------------------------------
    \10\ Linda J. Waite, ``Cohabitation: A Communitarian Perspective,'' 
unpublished paper presented to the Communitarian Family Task Force, 
Washington, DC, January 1999, 13.
---------------------------------------------------------------------------
    University of Chicago sociologist Linda J. Waite finds that 
cohabitation involves a different ``bargain'' than marriage. Compared 
to married couples, cohabitors expect less mutuality and sharing of 
resources, friends, leisure activities and goals.<SUP>11</SUP> They are 
less likely than married couples to ``specialize'' in their living 
together unions and thus to achieve higher levels of productivity. In 
many respects, cohabiting couples behave like roommates, sharing a 
residence and some household expenses, but remaining separate in many 
of their social and economic pursuits.
---------------------------------------------------------------------------
    \11\ Waite, 8-13, passim.
---------------------------------------------------------------------------
Marriage in the Life Course
    Marriage occupies a significant proportion of the adult life span. 
Because of increasing longevity, one might expect the duration of 
marriage to increase in the future. But longer lives probably will not 
result in longer marriages, for several reasons. One is the later age 
of first marriage. Young people are postponing first marriage until 
they are well into their twenties. The second is the higher likelihood 
of divorce today. Still another is the decline in the rate of marriage 
and remarriage, especially for women. Finally, there is the rise in 
cohabiting unions after divorce or as an alternative to marriage. Older 
widowed or divorced individuals may choose to cohabit rather than 
remarry in order to avoid legal, economic and health-related 
entanglements. As a result of these forces, the lifetime proportion of 
marriage has declined slightly for women since mid-century, although 
the decline has been far steeper for Black women than others.
    There are also some indications that lifelong singlehood may be 
increasing. The likelihood that adults will marry has declined 
dramatically since 1960. Much of this decline results from the 
postponement of first marriages until older ages, but it may also 
reflect a growing trend toward the single life. In 1960, 94 percent of 
women had been married at least once by age 45. If the present trend 
continues, fewer than 85 percent of current young adults will marry.
    Another important trend toward singlehood is apparent in the status 
of single mothers. In the past, single mothers were likely to be 
widowed or divorced. For those who bore children out of wedlock, 
moreover, single motherhood tended to be a temporary status. They went 
on to marry and to have other children in wedlock. Today, single 
mothers are increasingly likely to have never married. And they are 
more likely to stay single, so unwed motherhood has become a permanent 
status for many women.
    These convergent forces suggest that although marriage remains an 
important feature of adulthood, it no longer looms like Mount Everest 
in the landscape of the adult life course. It is more like a hill that 
people climb, up and down, once or twice, or bypass altogether.
Marriage as a Social Institution
    Marriage is losing much of its status and authority as a social 
institution. According to legal scholar John Witte Jr., ``the early 
Enlightenment ideals of marriage as a permanent contractual union 
designed for the sake of mutual love, procreation and protection is 
slowly giving way to a new reality of marriage as a `terminal sexual 
contract' designed for the gratification of the individual parties.'' 
<SUP>12</SUP> Marriage has lost broad support within the community and 
even among some of the religious faithful. In some denominations, 
clergy avoid preaching and teaching about marriage for fear of 
offending divorced parishioners. Marriage is also discredited or 
neglected in the popular culture. Consequently, young adults, who 
desperately want to avoid marital failure, find little advice, support 
and guidance on marriage from the peer or popular culture or from 
parents, clergy or others who have traditionally guided and supported 
the younger generation in matters of mating and marrying.
---------------------------------------------------------------------------
    \12\ John Witte, Jr., From Sacrament to Contract: Marriage, 
Religion, and Law in the Western Tradition (Louisville, KY, Westminster 
John Knox Press, 1997), 209.
---------------------------------------------------------------------------
    This loss of broad institutional support for marriage is evident in 
the marital relationship itself. Not so long ago, the marital 
relationship consisted of three elements: an economic bond of mutual 
dependency; a social bond supported by the extended family and larger 
community; and a spiritual bond upheld by religious doctrine, 
observance and faith. Today many marriages have none of these elements.
    The deinstitutionalization of marriage is one of the chief reasons 
why it is more fragile today. For most Americans, marriage is a 
``couples relationship'' designed primarily to meet the sexual and 
emotional needs of the spouses. Increasingly, happiness in marriage is 
measured by each partner's sense of psychological wellbeing rather than 
the more traditional measures of getting ahead economically, boosting 
children up to a higher rung on the educational ladder than the 
parents, or following religious teachings on marriage. People tend to 
be puzzled or put off by the idea that marriage has purposes or 
benefits that extend beyond fulfilling individual adult needs for 
intimacy and satisfaction. In this respect, marriage is increasingly 
indistinguishable from other ``intimate relationships'' which are also 
evaluated on the basis of sexual and emotional satisfaction.
Women and Marriage
    When we look at the state of marriage today, it is useful to 
consider the behavior and attitudes of young women. Historically, women 
are the normsetters in courtship and marital relationships as well as 
the bearers of the cultural traditions of marriage. (To test this 
proposition, simply compare the amount of space devoted to marriage in 
women's magazines to that in men's magazines.) So women's attitudes and 
expectations for marriage are an important measure of overall social 
confidence in the institution and a weathervane of which way the 
marital winds are blowing.
    What do we know about the mating and marrying behavior of young 
women today? For one thing, women are older when they marry. The median 
age of first marriage for a woman is now 25, compared to 20 in 1960. 
For another, women who marry today are much less likely to be virgins 
than women in past decades. For yet another, most young women enter 
marriage after having lived with a partner, though not always their 
marriage partner. Finally, a significant percentage of young women have 
children outside of marriage. Women who become single mothers are less 
likely to ever marry.
    Compared to men, young women are more disenchanted with marriage. 
This growing pessimism is particularly pronounced among teenage girls. 
For high school girls who expect to marry (or who are already married), 
the belief that their marriage will last a lifetime has declined over 
the past two decades while high school boys have become slightly more 
optimistic. Teenage girls are increasingly tolerant of unwed 
childbearing. Indeed, they outpace teenage boys in their acceptance of 
unwed childbearing today, a notable reversal from earlier decades when 
teenage girls were less tolerant of nonmarital births than teenage 
boys.
    Women's disenchantment should not be taken as a lack of interest in 
having husbands. But their growing pessimism may reflect two convergent 
realities. One is women's higher expectations for emotional intimacy in 
marriage and more exacting standards for a husband's participation in 
childrearing and the overall work of the household. These expectations 
may not be shared or met by husbands, and thus the mismatch may lead to 
deep disappointment and dissatisfaction. The other is women's growing 
economic independence. Because women are better educated and more 
likely to be employed outside of the home today than in the past, they 
are not as dependent on marriage as an economic partnership. 
Consequently, they are less likely to ``put up'' with a bad marriage 
out of sheer economic necessity and more likely to leave when they 
experience unhappiness in their marriages. Moreover, because wives are 
breadwinners, they expect a more equitable division of household work--
not always a fifty-fifty split but fairness in the sharing of the work 
of the home. Thus, the experience of working outside the home 
contributes simultaneously to greater economic independence and less 
tolerance for husbands who exempt themselves from involvement with 
children and the household. ``I don't need a grown-up baby to take care 
of,'' is a complaint often voiced by working married mothers.
Some Good News about Marriage
    Not all the marriage indicators are negative. Here and there, we 
find modest signs of positive change in attitudes or behavior.
    <bullet> Married couples today are somewhat less likely to end up 
in divorce court than several years ago. After one and a half decades 
of sharp increase, the divorce rate has declined slightly and 
stabilized in recent years. Although projections based on the current 
rate suggest that close to half of all marriages are likely to end in 
divorce or permanent separation, that projection could change if the 
divorce rate declines in the future.
    <bullet> The rate of unwed births has declined for the third year 
in a row, although the ratio of unwed and marital births remains the 
same. Mainly as a consequence of the modest reduction in both divorce 
and unwed births, the percentage of children living in single parent 
families has remained stable in the past two years (1996-98).
    <bullet> The percentage of young Americans who say that having a 
good marriage is extremely important to them as a life goal has 
increased slightly since the 1980s.
    Conclusion: Marriage is weakening but it is too soon to write its 
obituary. . . .
    Taken together, the marriage indicators do not argue for optimism 
about a quick or widespread comeback of marriage. Persistent long-term 
trends suggest a steady weakening of marriage as a lasting union, a 
major stage in the adult life course, and as the primary institution 
governing childbearing and parenthood. Young people's pessimism about 
their chances for marital success combined with their growing 
acceptance of unwed parenthood also do not bode well for marriage.
    Nonetheless, there are some reasons for hope. For example, given 
the increased importance of marriage to teenagers, it is possible that 
this generation will work hard at staying happily married. The decline 
in the unwed birth rate is also a good sign. And there are stirrings of 
a larger grass-roots marriage movement. Churches in more than a hundred 
communities have joined together to establish a common set of 
premarital counseling standards and practices for engaged couples. A 
marriage education movement is emerging among marriage therapists, 
family life educators, schoolteachers and some clergy. In the states, 
legislators are considering or have passed bills creating incentives 
for engaged couples to receive premarital education. Florida now 
requires marriage education for high school students.
    This is not the first time in the millennial-long history of 
western marriage that marriage has seemed headed for the dustbins and 
then recovered. Certainly it is possible that the nation is on the cusp 
of a turnaround in some of the negative marital trends. Perhaps the 
last four decades have merely been a ``great disruption,'' in the words 
of social analyst Francis Fukuyama, and Americans will respond to the 
weakening of marriage with renewed dedication and success in achieving 
the goal of a long-lasting happy marriage. The positive trends bear 
watching and are encouraging, but it is still too soon to tell whether 
they will persist or result in a comeback of this important social 
institution.

                                <F-dash>


    Chairman Herger. Thank you, Mr. Popenoe; and now we will 
hear from Ms. Theodora Ooms, the Center for Law and Social 
Policy.
    Ms. Ooms.

 STATEMENT OF THEODORA OOMS, SENIOR POLICY ANALYST, CENTER FOR 
                     LAW AND SOCIAL POLICY

    Ms. Ooms. I am very glad to be here. I am a Senior Policy 
Analyst at the Center for Law and Social Policy and direct The 
Couples & Marriage Policy Resource Center, independently from 
my position at the center, I am also a senior consultant to the 
Oklahoma Marriage Initiative, and it is a very, very 
interesting initiative. We will learn a lot from it.
    I commend you for holding this hearing on such an 
important, complicated and sensitive topic that matters so much 
to the well-being of children. My testimony focuses mainly on 
what States are doing to implement the three family formation 
goals of the 1996 Welfare Reform Act; promoting marriage, 
reducing out-of-wedlock pregnancy and encouraging the formation 
and maintenance of two-parent families.
    The majority of States are making some efforts to pursue 
these three goals. Many of these efforts are focused on 
important steps such as removing policy barriers that 
discourage marriage. For example, 33 States have changed their 
policies, so that they now treat single and two-parent families 
equally in determining eligibility for TANF. Second, in order 
to reduce out-of-wedlock childbearing, many States are focusing 
on prevention of teen pregnancy. This strategy makes sense, 
since nearly 80 percent of teen births are non-marital and one-
third of all non-marital births are to teenagers. Moreover, 
these figures underestimate the important role of teen 
pregnancy in the overall problem. 57 percent of non-marital 
births are either to teens or to adults who had their first 
birth as a teenager, about a half of non-marital births are 
second or later births.
    As we heard in the previous panel, two States thus far, 
Oklahoma and Arizona, have taken steps to use TANF funds to 
support a number of new, innovative, educational activities 
designed to strengthen couples and marriage. There is no 
information available about the number and scope of any county-
level initiatives, but, anecdotally, we have learned of a few. 
For example, the Greater Grand Rapids Community Marriage Policy 
is doing a study of TANF welfare clients and caseworkers in 
order to determine what kinds of help would be appropriate to 
offer low-income couples.
    Some of the things we are doing already are related to 
these goals indirectly. It is also estimated that publicly 
funded family planning averts around 800,000 or so out-of-
wedlock pregnancies a year. State programs such as child 
support enforcement and publicly funded family planning also 
contribute to achieving these family formation goals. There is 
evidence, for example, that States that have effective child 
support enforcement had lower rates of divorce, non-marital 
births and teen births.
    Programs that reduce economic stress on couples can also 
promote marital stability. It was mentioned earlier that there 
is a great deal of interest in the findings of the Minnesota 
Family Independence Program, which was a welfare-to-work 
demonstration program implemented in 1994 to 1998. It gave 
increased financial support to working parents through earned-
income disregards and was found to significantly increase 
marital stability in two-parent families, and it made it 
somewhat more likely that single parents got married. These 
findings are really important because they address the fact 
that the breakup of marriage not only contributes to poverty, 
but poverty can cause stress on marriages and make it harder 
for people to marry.
    What does all this tell us? The field of couples and 
marriage policy is clearly in its infancy and there is very 
little known about what works. The 1996 Welfare Reform Law drew 
upon more than a decade of welfare-to-work demonstrations to 
shape and support the work-related goals. By contrast, there 
have been no similar demonstrations, policies or programs 
designed to explicitly strengthen marriage and two-parent 
families to guide States' efforts to implement the marriage 
goals. I think that this is obviously one reason, as has been 
said before, why States have been moving cautiously in this 
area. I think there are other reasons, too. It is not only the 
lack of knowledge.
    While most Americans value marriage, many have had direct 
and, sometimes, very painful experiences related to the 
difficulty in making marriages succeed. Many view marriage and 
divorce as private matters. They are very unsure about whether 
the government should play a role and, if so, what its role 
should be. Also, marriage is not always a good thing. Some 
marriages need to be ended, and we know that some children do 
better when their parents divorce if the divorce is one in 
which the parents were in high-conflict.
    So, while many agree that promoting healthy marriages is an 
appropriate policy goal, I think we have to act cautiously in 
order to bring the public along in this debate and allay these 
concerns. For example we know that in individual circumstances 
marriage may not be feasible or desirable for a particular 
couple. Thus, we should hold onto a secondary goal to support 
responsible, cooperative parenting on the part of both parents.
    Finally, we need to know more. While there is a good deal 
of academic research on these subjects, for the most part it 
has not been translated into policy and many gaps remain. We 
need more policy-relevant research and we need much better 
marriage and divorce statistics. We also need States and 
communities to conduct thoughtful demonstration programs and 
initiatives that are carefully evaluated. This public 
discussion and debate about the importance of marriage has only 
just begun. It is going to be critical for informing the public 
and building public support for strategies to strengthen 
marriage and families.
    Thank you.
    [The prepared statement of Ms. Ooms follows:]

 Statement of Theodora Ooms, Senior Policy Analyst, Center for Law and 
                             Social Policy

    Mr. Chairman and Members of the Subcommittee:
    Thank you for inviting me to testify. My name is Theodora Ooms. I 
am a senior policy analyst at the Center for Law and Social Policy 
(CLASP). CLASP is a non-profit organization engaged in research, 
analysis, technical assistance and advocacy on issues affecting low-
income families. CLASP does not receive government funds. 
Independently, I am also a senior consultant to the Governor and First 
Lady's Marriage Initiative in Oklahoma.
    My testimony today will focus primarily on what states are doing to 
promote the family formation goals of the 1996 Welfare Reform Law (The 
Personal Responsibility and Work Opportunity Reconciliation Act, 
P.L.104-193). I find that the majority of states are making at least 
some effort to directly pursue these goals. There are understandable 
reasons for states to proceed cautiously. Little is known about what 
approaches are effective, and many are unsure about the appropriate 
role of government's role should be on these sensitive and personal 
issues. It also appears that programs that provide enhanced economic 
security and other kinds of family support may indirectly promote 
marriage and reduce non-marital childbearing. In two states, and a few 
communities some innovative marriage-related initiatives are being 
tried out. They highlight the need for additional well evaluated 
demonstration programs.
    I will begin with a brief description of the family formation 
provisions in the law and related features. The 1996 law establishing 
the Temporary Assistance For Needy Families program (TANF), three 
``family formation'' goals are spelled out in the four purposes of the 
Act (emphasis added):
    (i) ``to provide assistance to needy families so that children may 
be cared for in their own homes or in the homes of relatives'';
    (ii) ``to end dependence of needy parents on government benefits by 
promoting job preparation, work and marriage'';
    (iii) ``to prevent and reduce the incidence of out-of-wedlock 
pregnancies and establish annual numerical goals for preventing and 
reducing the incidence of these pregnancies'';
    (iv) ``to encourage the formation and maintenance of two-parent 
families.''
    The law establishes flexibility regarding who can receive services. 
Purpose (ii) is limited to spending TANF funds on ``needy'' families 
(as defined by the state). Purposes (iii) and (iv) are not directed 
solely at ``needy'' families.
    The federal government has given some guidance to states on 
examples of allowable types of activities related to the family 
formation goals. In 1999 the Administration for Children and Families 
(ACF) published Helping Families Achieve Self-Sufficiency: A Guide on 
Funding for Children and Families through the TANF program. This 
document makes clear that states have considerable flexibility in how 
to spend their block grant funds to achieve these TANF goals. The Guide 
offered several suggestions of policy changes or activities that could 
be engaged in to promote marriage and encourage two parent families 
(www.acf.dhhs.gov/program/ofa/funds2.htm).
    Two parent families are not defined in the law, thus states are 
free to establish their own reasonable definitions. Thus in addressing 
the fourth purpose states may choose a broad definition in order to try 
to improve and stabilize the relationships between two parents whether 
they are married, unmarried, separated or divorced, and whether they 
are living together or not.
    The law offers states a financial incentive to reduce out-of-
wedlock childbearing. It authorizes a total of $100 million in annual 
bonus payments to those five states that achieve the largest reductions 
in out-of-wedlock births among welfare and non-welfare teens and 
adults, while also reducing their abortion rate below the 1995 level.
    On August 30, 2000 the Administration issued a rule establishing 
four new measures for the High Performance Bonus, including a measure 
of family formation and stability (in addition to the work-related 
measures already established). The ``marriage'' bonus will be awarded 
on the basis of the increase in the percent of all children in each 
state who reside in married couple families. In FY 2002 and beyond, the 
government will award $10 million to be divided between the ten States 
with the greatest percentage point improvement in this measure. States 
may choose to compete on this measure (states will be ranked only if 
they indicate they wish to compete).
Many states are using TANF funds to prevent out-of-wedlock births and 
        are focusing primarily on teen pregnancy prevention
    A recent CRS report (relying on current state TANF plans, state 
administrative codes and statutes, and a January, 2000 CRS Benefit 
Survey) provides a summary of what states are doing related to reducing 
out-of-wedlock pregnancies and points out that much of the focus is 
given to adolescents. This report mentions that ``a sizeable number of 
states describe awarding of competitive grants, or provision of other 
kinds of program resources to community groups, counties or local 
school districts who operate programs aimed at reducing out-of-wedlock 
pregnancy--especially teen pregnancy. Promotion of sexual 
``abstinence'' (cited by 26 jurisdictions) and provision of ``family 
planning'' services (cited by 25 jurisdictions) are frequently listed 
as components of a state's effort to meet the goal of reducing out-of-
wedlock pregnancy'' (Stoltzfus et. al., 2000, p. 29-30). Earlier 
studies reported that most states have tapped some TANF funds for teen 
pregnancy prevention projects and for family planning initiatives 
(cited in Cohen, January 2000 & Hutson & Levin-Epstein, January, 2000).
    Since nearly 80% of teen births are out-of-wedlock, the states' 
emphasis on activities designed to reduce teen pregnancies is 
reasonable. Teen births now constitute one-third of all out-of-wedlock 
births. This figure masks the important role of teen pregnancy in non-
marital childbearing; about 57% of all non-marital births were to teens 
or to adult women who had their first birth as a teenager (Child 
Trends, 2001). About half of non-marital births are second or later 
births. Moreover states are aware that efforts to reduce teen pregnancy 
are contributing to the decline in teen birth rates and there is now 
good evidence of several program models that are effective in reducing 
teen pregnancy (Kirby, 2001).
    Virginia is one example of a state that is making a deliberate 
effort to win the out-of-wedlock bonus by focusing on adults. The 
Virginia Health Department is spending state funds and $1million of 
TANF funds to support the formation of eighteen community-based out-of-
wedlock pregnancy prevention coalitions, Partners in Prevention. These 
coalitions are especially targeting young adults, ages 20-29, with the 
message that ``marriage is the right place for a child to be born.''
The majority of states have taken at least some policy measures to 
        strengthen two parent families and promote marriage
    The clear majority of states have taken steps to drop the stricter 
eligibility requirement for two parent (married and unmarried) family 
households that existed in the AFDC program: as of 1999, thirty three 
states' policies now effectively treat such families the same as single 
parent families when determining eligibility (SPDP, 2000). Some states 
explicitly describe this policy change as an encouragement of two-
parent families (Stoltzfus et.al., 2000). At the same time, at least 14 
states have now established state-funded programs for two parent 
families in order to provide assistance to these families without 
risking the penalties associated with the TANF high work participation 
rates for two parent families (SPDP, 2000).
    Several states have spent TANF dollars on programs to encourage 
responsible fatherhood among low-income populations. The National 
Conference of State Legislatures reports that typically these programs 
offer a variety of services primarily targeted on non-custodial 
fathers, including employment-related services, peer support groups and 
services designed to improve parenting skills. A few also offer co-
parenting, ``team'' parenting, mediation or other programs designed to 
improve the relationship between the mother and the father. California 
has redirected some of its unspent TANF dollars to fund seven county 
programs targeted at fathers. Missouri expanded its Parents Fair Share 
program statewide using $10 million over two years. Other states using 
TANF funds for these activities include Florida, Arizona, North 
Carolina, and Ohio (see Reichert, D. 2000).
    A few states have made other TANF policy adjustments to modify 
current treatment of couples. The recent CRS study reports that `` a 
few states (Mississippi, North Dakota and Oklahoma) have sought to 
encourage marriage or re-marriage by disregarding all income of the new 
spouse during a post wedding adjustment period (3-6 months). This 
adjustment time is intended to enable the family to pay bills and 
otherwise establish its independence before aid is ended. West Virginia 
adds a $100 marriage incentive payment to the monthly cash benefit of 
any family that includes a legally married man and woman who live 
together.,'' (Stoltzfus et. al., 2000: p 29.). And in 1999 the Oklahoma 
Department of Human Services began including the income of both 
individuals in a cohabiting (unmarried) couple household when 
determining eligibility for assistance, with the justification that 
this policy change `` will promote marriage.''
Two states to date--Oklahoma and Arizona--have taken steps to use TANF 
        funds to pursue the family formation goals through launching a 
        number of specific marriage-strengthening activities
    Oklahoma. In January, 1999, Governor Frank Keating in his Inaugural 
and State of the State addresses laid out a series of social goals 
including a commitment to reducing the state's divorce rate by one 
third by 2010. Oklahoma's divorce rate was the second highest in the 
nation and believed to have serious economic consequences for children, 
adults and the state's economy. (As noted in an article about this 
initiative by Blaine Harden in the New York Times, May 21, 2001, the 
Census 2000 also shows that the increases in cohabitation in Oklahoma 
and other Bible Belt states are well above the 72% decade increase in 
unmarried couples found in the nation as a whole.)
    In February the Governor and the First Lady hosted a Conference on 
Marriage which event launched the statewide Marriage Initiative. From 
the outset it was planned to be a multi-sector initiative including 
religion, business, government, legal, health and social service 
providers, universities and the media. The first year involved leaders 
from these different sectors developing action plans that encompassed a 
broad spectrum of activities across the state.
    A year later, in March 2000 the Governor announced his decision to 
set aside $10 million out of the TANF reserve fund to be used to 
strengthen marriage and reduce divorce. The TANF funds will be used to 
target services primarily, but not exclusively, to low income 
populations who are at greatest risk of marital instability and for 
whom there are few services available.
    As of March 2001, Oklahoma's plan includes:
    <bullet> Ongoing public education and awareness activities using 
the media, and national marriage experts;
    <bullet> Building the capacity of maternal and child health, 
welfare, and other government funded services--such as the statewide 
nurse home-visiting program-- to help strengthen and stabilize young 
parents' relationship and promote marriage;
    <bullet> Investing in training state employees and community 
leaders (child guidance personnel in the Health Department, family life 
educators in the Cooperative Extension Service, & ministers, pastors & 
mental health professionals) to offer education and relationships 
skills workshops initially in seven pilot counties, & ultimately in 
every county in the state;
    <bullet> Piloting a married couples mentoring program to serve as 
follow up support for couples participating in the skills workshops;
    <bullet> Assisting fatherhood and youth development projects to 
integrate a focus on marriage;
    <bullet> Improving the collection of divorce and marriage 
statistics in the state vital statistics system;
    <bullet> Encouraging the states' most prominent religious leaders 
across denominations and faiths to sign a covenant to agree to offer 
serious marriage preparation courses and marriage mentors to couples 
during the first crucial years of marriage;
    <bullet> Conducting a statewide survey of churches, congregations, 
synagogues, & mosques to find out what marriage and family related 
services and supports they provided or would be interested in 
providing;
    <bullet> Collaborating with Oklahoma State University in a variety 
of research and evaluation activities including a baseline telephone 
survey of Oklahomans to determine attitudes about marriage, evaluation 
of the relationships skills workshops, and other projects;
    <bullet> Establishing a Resource Center of materials and program 
models, and a directory of services and programs available throughout 
the state (to be posted on the Center's web site);
    <bullet> To implement Charitable Choice, hiring a full time person 
to serve as the state government's liaison with the faith-based 
community on marriage and other issues.
    This Initiative is assisted by a broad based, statewide steering 
committee (including representatives of the domestic violence 
community) and with the advice and consultation of state and national 
experts in couples and marriage research, programs and policy.
    Arizona. In April 2000, Governor Hull signed a bill (HB 2199) that 
includes an allocation of $1.65 million of TANF funds to be spent on 
prevention-oriented, marriage-related activities:
    <bullet> Grants for community-based marriage and communications 
skills programs ($1 million);
    <bullet> Vouchers to married or cohabiting parents whose income is 
less than 150% of poverty to attend marriage skills training courses 
($75,000);
    <bullet> The development and printing of the marriage handbook by 
the Marriage and Communication Skills Commission (an advisory body to 
be newly established) ($75,000).
    In March 2001, the request for proposals, designed by the 
Commission, was issued. The Commission will review the applications and 
make recommendations to the Governor about who should be given the 
grant awards. The Marriage Handbook is in process of being drafted. And 
new legislation is being proposed to conduct an advertising campaign to 
complement these activities.
There has been no systematic study of the number and scope of any 
        county level initiatives, but from available information there 
        appear to be a few
    In some states many decisions about the welfare program are 
devolved to the county level. In Colorado, legislation was introduced 
in early 2001 that would permit county welfare agencies to provide a 
TANF recipient with a one-time payment of from $500-$1000 if she 
married--what some referred to as a marriage ``bonus'' or ``dowry''. 
The bill passed the House but was voted down in the Senate.
    Small TANF grants have been given to support marriage-related 
services in Grand Rapids, in Indianapolis and undoubtedly other 
communities as well. The Greater Grand Rapids Community Marriage Policy 
(GGRCMP) is working with the Kent County welfare agency to conduct a 
survey of TANF clients and caseworkers to determine what kinds of 
services and supports would be appropriate to offer low income couples 
as part of the Initiative. The GGRCMP is a multi-sector initiative 
sponsoring a wide variety of activities aimed at reducing the divorce 
rate in order to improve the well-being of children. It includes a 
strong emphasis on research. (www.GGRCmarriagepolicy.org)
Faith-based organizations appear to have not yet used the charitable 
        choice provision to build their capacity to deliver marriage 
        strengthening services
    The TANF law includes a charitable choice provision which allows 
contracts, vouchers or other funding for charitable, religious or 
private organizations. At least two dozen states have established 
either financial or formal non-financial collaborations with faith-
based organizations by the end of 1999, and several others were in the 
process (Sherman, March 2000). State governments that have been most 
proactive include Indiana, Texas, Wisconsin, Ohio, and Mississippi. In 
communities in these and other states faith-based organizations (FBOs) 
are providing a variety of social services with TANF funding such as 
mentoring, job training, mental health counseling or emergency housing, 
life skills training and alcohol or other drug addiction programs. 
While there are some anecdotal stories of their doing so, there are no 
published reports of any FBOs using this provision to build their 
capacity to offer couples and marriage-related services.
Programs whose primary purposes are to enhance economic security or 
        provide other kinds of family support may also indirectly 
        promote marriage and reduce non-marital childbearing
    Evidence is beginning to emerge that a number of existing family 
support programs appear to indirectly promote and stabilize marriage 
and reduce out-of-wedlock childbearing. For example, there are several 
new studies that show that states that have more effective child 
support enforcement had lower rates of divorce, non-marital births and 
teen births (Plotnick et al., 2000; Nixon, 1997). Publicly funded 
family planning programs are estimated by the Alan Guttmacher Institute 
to avert around one million out-of-wedlock births a year. One study 
found that when Medicaid eligibility was expanded and made available to 
additional low-income families, including two-parent families, there 
were significant, positive effects on marriage rates (Yelowitz, 1997).
    Finally, there has been a great deal of recent interest in the 
finding that the Minnesota Family Investment Program (MFIP) 
significantly increased marital stability and made it somewhat more 
likely that single parents got married (Gennetian & Miller, 2000; Knox, 
Miller & Gennetian, 2000). (MFIP was a demonstration welfare-to-work 
program conducted between 1994-1998 and evaluated by the Manpower 
Demonstration Research Corporation. It included an enhanced earnings 
disregard, a work participation requirement and offered similar 
eligibility requirements for one and two-parent families).
    In an analysis of these findings the authors conclude that the 
positive marriage effects were driven largely by the increases in 
families' incomes, and less by the streamlined eligibility rules. The 
researchers conclude that the study shows that ``increased financial 
support can affect marriage decisions. For single parents, increased 
financial security may have represented increased bargaining power 
within marriage. For two-parent families, the results suggest that the 
program increased marital stability because it allowed some two-earner 
families to cut back on work, but also because it increased income for 
very-low-income families,'' (Gennetian & Miller, 2000).
The field of marriage policy is in its infancy, very little is known 
        about what works and many remain unsure about the appropriate 
        role of government
    There are several reasons why it may be appropriate to move forward 
cautiously on specific marriage strengthening proposals. The first is 
undoubtedly that there is very little information available about what 
works, and about what strategies can responsibly be pursued to achieve 
these goals. The 1996 welfare reform legislation drew upon more than a 
decade of lessons from the numerous demonstration programs on welfare-
to-work to shape and undergird its work-related goals. There have been 
no similar demonstrations of policies or programs designed to 
strengthen marriage and two-parent families.
    Second, promoting marriage and strengthening two-parent families 
are very new goals for public policy. The vast majority of Americans, 
across race and income, have had some direct personal, and often 
painful, experiences with the ``retreat'' from marriage. While the 
public continues to support marriage as an ideal, many in both 
political parties remain unsure about the appropriate role of the 
government sector in what they regard to be a private matter.
    The widespread public discussion and debate that is needed to 
develop a consensus on appropriate strategies has only just begun. Some 
believe that the decline in marriage is a worldwide phenomenon and are 
skeptical that anything can be done to arrest it. Others are concerned 
that promoting marriage inadvertently stigmatizes single parents and 
people of color, and worry that some policy proposals may be coercive, 
ignore domestic violence, and aim to restore patriarchy and bring back 
the concept of ``illegitimacy'' (Ooms, 1998). Others believe that 
marriage is no longer valued in low-income communities, and has little 
relevance as a solution to the complex burdens of poverty. Yet studies 
show that marriage is still held in high regard by the majority of low-
income women and men, but for a variety of reasons--shortage of 
``marriageable'' men, policy and program barriers, and so forth--is 
seen as personally unattainable (Ooms, forthcoming).
More research, better statistics, and well-evaluated demonstration 
        programs are needed to help guide marriage policy and build 
        public education and support
    A substantial body of research exists on the multiple causes of 
marital decline, on the consequences of single parenthood for child 
well being, on the benefits of marriage, and on what makes 
relationships work and marriages succeed. This research, however, is 
highly dispersed among many different academic disciplines. By and 
large this knowledge has not been translated into programs and policies 
designed to strengthen couples and marriage. There are several model 
curricula designed to teach couples relationship skills and attitudes, 
and studies show that some of the research-based approaches have 
promise. But these programs have not been implemented and evaluated on 
a large scale. Nor have they been adapted to the special needs and 
circumstances of different income, racial, and cultural groups.
    Moreover there are many gaps in the research--especially related to 
understanding family formation among low-income populations and people 
of color. Moreover it would seem wise to fund carefully evaluated pilot 
demonstration programs before implementing specific marriage strategies 
on a national scale.
    The Fragile Families and Child Well-being study, co-directed by 
Sara McLanahan, Princeton University and Irv Garfinkel of Columbia 
University, is an exciting example of the kind of research that is 
needed. This research is focused on new parents and is being conducted 
in 21 cities. The sample consists of 3,600 unmarried parents and 1,200 
married parents who are interviewed at the time of birth, and then 
followed for four years. In addition, information will be collected on 
the child development and well-being.
    Early findings from this study are already challenging some 
widespread perceptions about unmarried parents; for example, over half 
live together, 80% are romantically involved, and 70% say their chances 
of marriage are 50-50 or better. The study is collecting information 
about the personal characteristics and program and policy barriers that 
lead to the instability and break up of many of these couples. These 
findings strongly suggest that the most opportune time to design 
services and supports for unmarried couples is around the ``magic 
moment'' of the birth of their child.
    Finally, in order to monitor and assess the effectiveness of state 
and local efforts related to marriage the federal government needs to 
invest in improving the basic vital statistics on marriage and divorce 
to bring them up to the level of birth and death statistics Marriage 
and divorce statistics are of poor quality and lacking in many states. 
In 1995 the federal government decided to discontinue collecting these 
statistics from the states, thus currently there are no national data 
available on marriage and divorce rates (Ooms, 1999).
    In conclusion the central questions in the forthcoming 
reauthorization debate about these issues need to be:
    1. What is the appropriate role for the federal and state 
government in strengthening two parent families and marriage?
    2. Do we know what works, and how can we learn more?
    3. How can the family formation goals be advanced in ways that do 
not risk unintended adverse effects for children or their parents?
    4. Is TANF an appropriate vehicle to pursue these goals? Are there 
other vehicles that might be used as well?
References
    Child Trends, 2001. These data come from unpublished calculations 
by Child Trends, Washington, DC of data from the National Survey of 
Family Growth based on the years 1992 to 1995; the prior teen birth is 
assumed to be a nonmarital birth in this calculation.
    Cohen, M., April 1999. Tapping TANF: When and How Welfare Funds Can 
Support Reproductive Health or Teen Parent Initiatives. Washington, DC: 
Center for Law and Social Policy.
    Gennetian, L.A. and Miller, C., October 2000. Encouraging the 
Formation and Maintenance of Two-Parent Families: Experimental Evidence 
on Welfare Reform. Unpublished paper. N.Y.: Manpower Demonstration 
Research Corporation.
    Hutson, R. & Levin-Epstein, J. January 2000, Linking Family 
Planning with Other Social Services: The Perspectives of State Family 
Planning Administrators. Washington, DC: Center for Law and Social 
Policy (CLASP).
    Kirby, D., May 2001. Emerging Answers: Research Findings on 
Programs to Reduce Teen Pregnancy. Washington, DC: National Campaign to 
Prevent Teen Pregnancy.
    Knox, V., Miller, C. & Gennetian, L.A., September 2000, Reforming 
Welfare and Rewarding Work: A Summary of the Final Report on the 
Minnesota Family Investment Program. New York: Manpower Demonstration 
Research Corporation.
    Nixon, L.A. 1997. The Effect of Child Support Enforcement on 
Marital Dissolution. Journal of Human Resources, Winter, 1997.
    Ooms, T. 1998. Towards More Perfect Unions: Putting Marriage on the 
Public Agenda. Washington, DC: Family Impact Seminar. Available from 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7e0a1111130d3e1d121f0d0e50110c1950">[email&#160;protected]</a>
    Ooms, T. 1999. The Lamentable Status of Marriage and Divorce 
Statistics. Background paper. Available from <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3a4e555557497a59565b494a1455485d14">[email&#160;protected]</a>
    Ooms, T. Strengthening Couples and Marriage in Low Income 
Communities, (in press). Paper presented at conference at Brigham Young 
University, March 9-11, 2000. To be published in Revitalizing the 
Institution of Marriage for the Twenty-First Century: An Agenda for 
Strengthening Marriage, edited by Alan J. Hawkins, Lynn Wardle & David 
Coolidge, CT: Greenwood Press.
    Plotnick, R.D., Ku, I., Garfinkel, I & McLanahan, S.S., The Impact 
of Child Support Enforcement Policy on Nonmarital Childbearing. Paper 
presented at the Association for Public Policy Analysis and Management, 
Year 2000 Research Conference in Seattle. <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="93e3fffce7fdfaf0f8d3e6bde4f2e0fbfafdf4e7fcfdbdf6f7e6bd">[email&#160;protected]</a>
    Reichert, D. Connecting Low-Income Fathers and Families: A Guide to 
Practical Policies. Denver: National Conference of State Legislatures, 
2000.
    Romero, D., Chavkin, W., and Wise, P.H., State Welfare Reform 
Policies and Maternal and Child Health Services: A National Study, 
Finding Common Ground in the Era of Welfare Reform and Medicaid Managed 
Care, Columbia University School of Public Health, to be submitted for 
publication.
    Sherman, A.L., March 2000. The Growing Impact of Charitable Choice: 
A Catalog of New Collaborations between Government and Faith-Based 
Organizations in Nine States. Washington, DC: Center for Public 
Justice.
    SPDP, State Policy Documentation Project, a joint project of the 
Center for Law and Social Policy and the Center on Budget and Policy 
Priorities. Available on the web at www.spdp.org.
    Stoltzfus, E., Burke, V. & Falk, G. Welfare Reform: State Programs 
of Temporary Assistance for Needy Families (TANF). Washington, DC: 
Congressional Research Service, The Library of Congress. September 28, 
2000.
    Yelowitz, A.S., 1997, Will Extending Medicaid to Two-Parent 
Families Encourage Marriage? Institute for Research on Poverty, 
University of Wisconsin-Madison. Discussion Paper 1118-97.

                                <F-dash>


    Chairman Herger. Thank you very much, Ms. Ooms. Now, Mr. 
Pat Fagan, the Heritage Foundation?

 STATEMENT OF PATRICK F. FAGAN, WILLIAM H.G. FITZGERALD FELLOW 
       IN FAMILY AND CULTURAL ISSUES, HERITAGE FOUNDATION

    Mr. Fagan. Thank you Chairman Herger, and Mr. Cardin. It is 
an honor to be here today. I want to start off with the last 
time that the issue of marriage was addressed: in the TANF 
legislation. I think you will remember that one of the reasons 
why things have progressed so slowly at the State level, was 
that there was a serious debate in Congress on the effects of 
out-of-wedlock births in children, and I think most people 
would agree that Congress was not sure exactly what it should 
do with that. Congress knew it was a serious problem. Congress 
knew it was a serious issue, but a delicate issue, and were 
unsure how to move forward? My read is that Congress ducked the 
difficult decision, punted to the States and said, ``You guys 
do something about it.''
    So, Congress having punted to the States and there is not 
much response, because it is not very clear to the States 
exactly what Congress was requesting them to do. So, next time 
around, if Congress wants to get more action at the State level 
it should be a lot clearer on what it would like to see the 
States do. Congress should define it more clearly the goals.
    Also, in the TANF legislation, Congress removed a massive 
amount of discretion on the part of the States in Congress' 
mandates on welfare-to-work. Clear guidelines definitely worked 
tremendously in the return-to-work dimension of TANF.
    As a result of their absence of clear guidelines the total 
moneys that will have been spent by all of the States from TANF 
moneys on anything to do with restoring marriage will amount to 
one-thousandth of 1 percent of TANF moneys: Rather low. This is 
the result of the ambiguity and the lack of clarity on what 
Congress would like to see the States accomplish.
    On the issue of freedom: I do not know anybody working in 
this area who does not want all efforts in this area to proceed 
with a maximum of freedom. Therefore, I would put freedom right 
up front in the name of whatever amendment you propose and call 
it the Marriage Choice and Education amendment. Choice and 
Freedom should be right in there, because I know of no one who 
is interested in any form of coercion.
    There was a parallel drawn to the space initiative of the 
John F. Kennedy days. In 2001, we are confronted with a much 
greater crisis in our society: Today, only 40 out of every 100 
children who are born will reach age 18 with their biological 
mother and father married in a family. Out of all children 
conceived, it is much less: 27 out of every 100 conceived. 
Today, America is a dangerous place for a child to be raised, 
because of what the breakdown in marriage is doing, whether it 
is intended or not, every single breakdown is a serious 
rejection of the child by one of the parents, and caused by the 
rejection of each other.
    All this rejection is putting in place an expanding 
negative feedback loop in which boys are falling further and 
further behind, and who, especially, among the poor, are 
becoming less and less employable, because they do not have a 
father around. They do not have an effective male model around. 
One of the key things in life that the young male has got to 
learn is to go out and work, take responsibility, to prepare 
himself to be the provider for his wife and for his children. 
Because of the breakdown in marriage we have here a negative 
loop where young girls growing up poor have less and less young 
boys around who are growing up to be capable of being husbands.
    There is a huge need to proceed aggressively in this for 
another reason: To the extent that marriage breaks down, the 
need for the Federal and State safety net expands in every 
single domestic policy department. Therefore, I suggest that in 
every social policy agency--Health and Human Services 
Department (HHS), Education, Department of Justice, Interior 
and Housing and Urban Development Department--there be a very 
small office of marriage initiatives--just a couple of people 
who will do the work of tracking what is happening out across 
the nation, using some of whatever moneys you are going to 
provide the States and track this money and advise the States 
in how it might be best spent, pointing out what is working, 
disseminating the research, ensuring accountability. If these 
Offices of Marriage Initiatives, one set up at the Federal 
level, it will be very easy for Congress to monitor, through 
oversight what is actually happening at the State level and to 
make sure it is done with freedom and responsibility, extending 
the capacities of the States and of the Federal Government to 
move to increase marriage in a way that protects the freedom of 
all yet benefits the children with the marriage of their 
parents.
    Thank you.
    [The prepared statement of Mr. Fagan follows:]

Statement of Patrick F. Fagan, William H.G. FitzGerald Fellow in Family 
               and Cultural Issues, Heritage Foundation*

    In beginning my testimony I must stress that the views I express 
are entirely my own, and should not be construed as representing any 
official position of The Heritage Foundation, with that understanding, 
I am honored to be asked by the Committee on Ways and Means, 
Subcommittee on Human Resources, to testify today on Welfare and 
Marriage Issues.
---------------------------------------------------------------------------
    * Members of The Heritage Foundation staff testify as individuals 
discussing their own independent research. The views expressed are 
their own, and do not reflect an institutional position for The 
Heritage Foundation or its board of trustees. G5
---------------------------------------------------------------------------
    The family is the fundamental building block of society and 
predates the state and even the societies it builds. This is very 
easily seen in the history of the United States where the societies 
before the Union was formed had their own very recent histories. Al the 
states were clearly preceded by families uniting to form communities 
and these communities in turn becoming commonwealths and states. Even 
as the Union expanded this pattern was repeated again and again.
    At the heart of the family is the mother and father who bring the 
child into existence. Each child comes, not seeking to be brought into 
the world, but coming as a response to the sexual union of its father 
and mother. To grow to adulthood each child thrives best when raised in 
a married family where his or her father and mother are permanently 
devoted to each other and to their children. The social science data 
has always supported this common-sense and ancient insight but recently 
the avalanche of research makes this conclusion incontrovertible. And 
almost to a piece these studies are produced by politically liberal 
academics, not by conservatives. If there is any right that each child 
has it is the right to the married love of the father and mother that 
brought it, unasked, into existence.
    Today however only 28 out of every hundred children conceived in 
the United States will reach age 18 having the marriage of the 
biological father and mother intact. Only 40 out of every 100 American 
children born reach age 18 with the marriage of their biological father 
and mother intact. The level of alienation and rejection between 
fathers and mothers has reached such astronomical proportions that one 
can only conclude that America is a very dangerous place for a child to 
come into existence. Despite all our rhetoric of concern for children 
we have so far refused to give them that which they most desire and 
want: the love of their parents for each other. It is time to begin to 
redress this disastrous cultural drift. Not only the welfare of the 
nation needs it, the welfare of children cries out for it.
    To help Congress in its deliberations for the last round of Welfare 
Reform I reviewed the literature on the effects of out of wedlock 
births.<SUP>1</SUP> The conclusions still stand and have only been 
amplified by time, and the further review of others. Out of Wedlock 
Births increase the national incidence of
---------------------------------------------------------------------------
    \1\ For that review of the literature see: Patrick F. Fagan, 
``Rising Illegitimacy: American Social Catastrophe'' June 29, 1994, The 
Heritage Foundation, FYI #19, 1994.
---------------------------------------------------------------------------
    <bullet> lowered health for newborns and increases their chances of 
dying;
    <bullet> retarded cognitive, especially verbal, development of 
young children;
    <bullet> lowered educational achievement;
    <bullet> lowered job attainment as young adults;
    <bullet> increased behavior problems;
    <bullet> lowered impulse control (aggression and sexual behavior);
    <bullet> increased anti-social development. Together all these 
effects help change their communities from being a support to being a 
danger to the development of families and their children, and increases 
the crime rate in their community.
    Last year I and my colleague Robert Rector reviewed the literature 
on the effects of divorce on children,<SUP>2</SUP> and from the social 
science literature we can clearly state that divorce increase the 
national incidence of
---------------------------------------------------------------------------
    \2\ Patrick F. Fagan and Robert R. Rector, ``The Effects of Divorce 
on America'' The Heritage Foundation, Backgrounder #1373, June 5, 2000.
---------------------------------------------------------------------------
    <bullet> Crime
    <bullet> Abuse
    <bullet> Addiction
    <bullet> Decrease the Capacity to Learn
    <bullet> Decrease the Graduation Rates
    <bullet> Lower Income and Higher Incidences of Poverty
    <bullet> Adult and juvenile suicide
    <bullet> Harmful Mental and Physical Health Effects
    Furthermore within family life divorce has the effect of increasing 
the incidence of
    <bullet> Weaker parent-child relationships;
    <bullet> Destructive ways of handling conflict within the family;
    <bullet> Diminished social competency with peers;
    <bullet> A diminished sense of masculinity or femininity in 
adolescence;
    <bullet> Troubled courtships;
    <bullet> Increased premarital teenage sexual activity, number of 
sexual partners during adolescence, and out-of-wedlock childbirths;
    <bullet> Higher numbers of children leaving home earlier, as well 
as higher levels of cohabitation for these children; and--keeping the 
cycle expanding;
    <bullet> Higher rates of divorce for the children of divorced 
parents.
What States have not done
    As others have testified and I have reviewed <SUP>3</SUP> the 
states response to the breakdown of marriage has been minimal. Outside 
those who have testified before this panel virtually nothing else has 
been attempted by state legislatures or governors.
---------------------------------------------------------------------------
    \3\ Patrick F. Fagan, ``Encouraging Marriage and Discouraging 
Divorce'' The Heritage Foundation, Backgrounder #1421, March 26, 2001.
---------------------------------------------------------------------------
    If we include all the monies spent or budgeted by the states that 
have moved on this issue they amount to less than one cent spent to 
shore up marriage for every thousand dollars spent to support single 
parenthood though welfare.<SUP>4</SUP> This pattern of spending is a 
guaranteed way to expand the need for a bigger and bigger safety net as 
marriage continues to break down more and more. And is hardly the 
response Congress desired when in the TANF reform it urged states to 
strengthen marriage and family life:
---------------------------------------------------------------------------
    \4\ Total spent out on all TANF: average of $400 billion per year 
for the last four years. The total amount spent to increase marriage or 
reduce divorce in all 50 states over this period amounts to about $13 
million.
---------------------------------------------------------------------------
How the Welfare Reform Act of 1996 Encourages Marriage
    Public Law 104-193, which block grants Temporary Assistance to 
Needy Families funds to the states, encouraged the states to strengthen 
marriage and reduce out-of-wedlock births by stipulating that:
    The purpose [of this legislation] . . . is to increase the 
flexibility of States in operating a program designed to:
    (1) provide assistance to needy families so that children may be 
cared for in their own homes or in the homes of relatives;
    (2) end the dependence of needy parents on government benefits by 
promoting job preparation, work, and marriage;
    (3) prevent and reduce the incidence of out-of-wedlock pregnancies 
and establish annual numerical goals for preventing and reducing the 
incidence of these pregnancies; and
    (4) encourage the formation and maintenance of two-parent 
families.<SUP>5</SUP>
---------------------------------------------------------------------------
    \5\ Public Law 104-193, Section 401, Block Grants to States for 
Temporary Assistance to Needy Families (emphasis added).
---------------------------------------------------------------------------
What Federal Government can do to guide the states
    This level of family breakdown is totally new in human history and 
learning how to restore marriage is going to be one of societies 
biggest tasks this coming decade, this coming century.
    One overriding common sense rule is that all forms of penalty 
against marriage, penalties put in place by the federal government over 
decades, need to be substituted over time with marriage bonuses, 
particularly for the poor. What was penalized by this body, unjustly 
and to great national detriment, needs to be reversed.
    However more concrete regulation of the states is in order on this 
issue. Just as clear and unambiguous federal rules created the welfare 
reform miracle that we have seen in this cycle, so too unambiguous and 
clear guidelines are needed to strengthen marriage and help discourage 
or minimize the desire for divorce.
    A set proportion of TANF monies or a separate TANF budget for the 
rebuilding of marriage among the poor or near poor needs to be 
appropriated by Congress and then its spending needs to be guided in 
much the same fashion as happened with TANF. However lessons from 
Congress's efforts to reward states that reduced out of wedlock birth 
need to be incorporated. By rewarding those states that had the 
greatest drop in out of wedlock births without requiring a plan of 
action to bring about the reduction Congress has rewarded some states 
that have done nothing to deserve the rewards. They just happened to be 
the lucky recipients of demographic changes that had nothing to do with 
policy initiatives. In experimental psychology the behavior induced by 
rewarding in this fashion is called ``superstition'', much as a gambler 
who wins big on number ``26'' at the roulette table continues 
thereafter to play ``26'' on his big bets.
New Offices of Marriage Initiatives
    The federal government should move to create in each federal social 
issue department (Health and Human Services, Education, Housing and 
Urban Development, and Justice) an Office of Marriage Initiatives. It 
would make sense for these offices to coordinate with each other, 
because the main work of many of their sub-agencies is increased by the 
breakdown of marriage: ill health, poverty, crime, and addictions. The 
good news is that with success in figuring out how to promote marriage 
and stabilize families the demand for services and the cost to the 
taxpayer will drop over time. This is one of the few instances where 
the success of a government social agency would cause a decrease in the 
need for government.
    For instance the HHS Office of Marriage Initiatives I propose the 
following:
Program Description:
    A new agency within the U.S. Department of Health and Human 
Services would coordinate the Administration's efforts to make all 
federal social programs more marriage-friendly; bring attention to the 
positive effects that increasing stable marriages will have on 
decreasing demand for federal entitlements (which merely deal with the 
effects of the breakdown of the family); and initiate ways to foster 
marriage and decrease divorce, particularly among welfare recipients. 
It would be funded by transferring monies from the following 
entitlement programs: Temporary Assistance to Needy Families (TANF), 
the Child Support Enforcement Program, and Family Planning Programs.
Recommended Action:
    Create a new Office of Marriage Initiatives within the U.S. 
Department of Health and Human Services' Administration for Children 
and Families (ACF) to target TANF, Child Support Enforcement, Family 
Planning, and other program dollars to pro-marriage initiatives with 
the specific objective of reducing the rate of divorce and out-of-
wedlock births each by 30 percent, especially among welfare recipients, 
within the next decade. Merge the Office of Adolescent Pregnancy and 
Title V Office (abstinence programs) with this new Office so that their 
programs contribute to the effort to rebuild the culture of marriage. 
Allocate about 10 percent of the ACF budget for personnel and 
discretionary programs to the new Office.
Rationale:
    The cost to society from the breakdown of marriage is substantial. 
According to one federal estimate, the cost of ``faltering child 
development'' approaches $1 trillion a year.<SUP>6</SUP> Much of this 
can be attributed to the breakdown of marriage, since out-of-wedlock 
births and divorce have been shown to feed the demand for welfare 
services and to contribute to a multiplicity of social problems, 
including poverty, crime, addiction, poor health, lower education 
achievement, job instability, depression, and suicide.
---------------------------------------------------------------------------
    \6\ Lackqueline L. Teague, Judy Thorne, Heather B. Luckey, and 
Thomas J. Hoeger, ``Social Costs of Faltering Child Development, Final 
Report,'' prepared by the Research Triangle Institute for the Centers 
for Disease Control, April 1999.
---------------------------------------------------------------------------
    The thinking and culture behind today's federal social programs 
must be made more marriage-friendly. A sound social policy that targets 
a portion of the federal budget to programs that reduce illegitimacy 
and divorce would decrease the future demand for federal assistance and 
entitlements. Setting aside at least 10 percent of the ACF budget to 
help increase stable marriages and reduce the demand for federal 
assistance is reasonable. This would leave 90 percent of the ACF's 
funding for programs that deal with the effects of family breakdown.
    Specifically, the new Office of Marriage Initiatives would:
    <bullet> Identify successful pro-marriage programs in operation and 
disseminate its findings;
    <bullet> Design demonstration projects based on those findings;
    <bullet> Advise states on how to use surplus TANF monies to 
increase marriage and decrease out-of-wedlock births and divorce;
    <bullet> Stimulate results-oriented curricula on marriage and 
sexual abstinence in high school, with follow-up evaluations of their 
effectiveness;
    <bullet> Rebuild a federal-state system for gathering hard data and 
statistics on marriage and divorce; and
    <bullet> Design research so that data are used to analyze how much 
the increase in out-of-wedlock births and divorce over the past 30 
years has cost the government, including the decrease in revenue 
resulting from the effects of family breakdown.
Child Support Enforcement Programs
    One federal program exists solely because of the breakdown in 
marriage, the child support enforcement program.
Program Description:
    The federal government has taken an increasingly large role in the 
Child Support Enforcement system to locate absent parents, establish 
paternity, obtain court orders for child support or modifications of 
existing court orders, promote medical insurance for children under the 
absent parent's plan, collect child support from non-compliant parents, 
and enforce interstate payments of child support.
    Total federal administrative expenditures for Child Support 
Enforcement have increased steadily from $236 million in 1978 to $2.04 
million in 1994.<SUP>7</SUP> The total net federal cost of these 
programs by FY 2001 is almost $2.22 billion.<SUP>8</SUP> Payments to 
the states for Child Support Enforcement are authorized under Titles I, 
IV-D, X, XI, and XVI of the Social Security Act.<SUP>9</SUP>
---------------------------------------------------------------------------
    \7\ 1998 Green Book: Background Material and Data on Programs 
Within the Jurisdiction of the Committee on Ways and Means, WMCP-105-7, 
[Report No. WMCP-105-7? Committee Print No. WMCP-105-7?] U.S. House of 
Representatives, 105th Cong., 2nd Sess., May 19, 1998, p. 549.
    \8\ Office of Management and Budget, Budget of the United States 
Government, Fiscal Year 2001: Appendix, p. 463.
    \9\ See P.L. 104-35 for the latest authorizations.
---------------------------------------------------------------------------
Recommended Actions:
    Transfer 10 percent of the Child Support Enforcement budget ($140 
million in FY 2000) to the new Office of Marriage Initiatives to fund 
efforts--including initiatives to reduce divorce and increase stable 
marriages--that will reduce the future need for child support 
enforcement.
    Dedicate a portion of the remaining Child Support Enforcement funds 
to training mediators in how to obtain more robust joint agreements to 
ensure that both parents continue supporting their children and to 
reduce the need to take delinquent parents to court, with special 
attention to the track record of the Focused Thinking Mediation program 
now in use in Southern Michigan's family courts.
    Many other aspects of HHS functioning have parts that really ought 
to be carried out in a marriage friendly office. The gathering and 
rebuilding of the national statistics on marriage and divorce is one 
such project that has always been the neglected program of the two 
agencies that have housed it: The Bureau of the Census and then the 
National Center for Health Statistics within the Center for Disease 
Control.
    Child and adult domestic abuse, foster care, and adoption all have 
many correlates to marriage as the best situation in which to achieve 
the desired ends. Yet marriage receives little to no attention in the 
agencies that direct these programs.
    The Department of Justice captures nothing, anywhere, in its 
statistics gathering, on the relationship between family structure and 
crime, not for juveniles or adults, despite the clear link of rates of 
abuse and of crime, particularly juvenile crime, to different family 
structures. The married family, we know from research other than that 
from DOJ is the safest and best at raising children to avoid crime. 
Similar patterns of data gathering hold for the Department of 
Education,<SUP>10</SUP> for HUD and likely for Interior as well.
---------------------------------------------------------------------------
    \10\ Though this department has recently released a study that 
confirms, in education outcomes, the superior contribution of married 
family life for children. See: Christine Winquist Nord and Jerry West, 
``Fathers and Mothers Involvement in their Children's Schools by Family 
Type and Resident Status,'' National Center for Education Statistics, 
Department of Education, May 2001.
---------------------------------------------------------------------------
    As backing for these conclusions and recommendations I offer as 
Appendix background a recent short study of the reviewing the 
activities of states, localities, and private secular and religious 
efforts to encourage marriage and discourage divorce.

[GRAPHIC] [TIFF OMITTED] T4227A.001

[GRAPHIC] [TIFF OMITTED] T4227A.002

[GRAPHIC] [TIFF OMITTED] T4227A.003

[GRAPHIC] [TIFF OMITTED] T4227A.004

[GRAPHIC] [TIFF OMITTED] T4227A.005

[GRAPHIC] [TIFF OMITTED] T4227A.006

[GRAPHIC] [TIFF OMITTED] T4227A.007

[GRAPHIC] [TIFF OMITTED] T4227A.008

[GRAPHIC] [TIFF OMITTED] T4227A.009

[GRAPHIC] [TIFF OMITTED] T4227A.010

[GRAPHIC] [TIFF OMITTED] T4227A.011

[GRAPHIC] [TIFF OMITTED] T4227A.012

[GRAPHIC] [TIFF OMITTED] T4227A.013

[GRAPHIC] [TIFF OMITTED] T4227A.014

[GRAPHIC] [TIFF OMITTED] T4227A.015

[GRAPHIC] [TIFF OMITTED] T4227A.016

[GRAPHIC] [TIFF OMITTED] T4227A.017

[GRAPHIC] [TIFF OMITTED] T4227A.018

[GRAPHIC] [TIFF OMITTED] T4227A.019

[GRAPHIC] [TIFF OMITTED] T4227A.020

[GRAPHIC] [TIFF OMITTED] T4227A.021

[GRAPHIC] [TIFF OMITTED] T4227A.022

                                <F-dash>

    Chairman Herger. Thank you, Mr. Fagan. And now we will turn 
to Ms. Kathryn Edin, Northwestern University. Ms. Edin?

 STATEMENT OF KATHRYN EDIN, ASSOCIATE PROFESSOR OF SOCIOLOGY, 
    INSTITUTE OF POLICY RESEARCH, NORTHWESTERN UNIVERSITY, 
                       EVANSTON, ILLINOIS

    Ms. Edin. I am an urban ethnographer. I go out and talk to 
people. Between 1989 and the present, my colleagues and I have 
conducted lengthy, multiple ethnographic interviews with well 
over 300 low-income, single mothers, most of whom are either 
TANF recipients, welfare recipients or have some welfare 
history. Overall, the majority that we spoke to did aspire to 
marriage, but many felt that marriage offered more risks than 
rewards. Our interviews revealed four reasons single mothers 
may be hesitant to marry.
    First, affordability--for the mothers we spoke to, economic 
stability was a necessary, but not sufficient condition for 
marriage. This does not mean, however, that the mothers we 
interviewed do not often deeply care about the men in their 
lives. One woman said, ``There was a struggle going on inside 
of me. I mean, he lost his job at the auto body shop and then 
he couldn't find another one. I was trying to live on my 
welfare check and it just wasn't enough. Finally, I couldn't do 
it anymore, because it was too much pressure on me, even though 
he is the love of my life. I told him he had to leave even 
though I knew it wasn't really his fault that he wasn't 
working. But, I had nothing in the house to feed the kids, no 
money to pay the bills, nothing. I could not take it, so I made 
him leave.
    Second, respectability--many Americans believe the marriage 
norm no longer operates within poor communities. They think 
that poor people think too little of marriage. Our 
conversations with low-income, single mothers revealed the 
opposite. They avoid marriage, in part, because they think too 
much of it. In these communities marriage has a kind of sacred 
significance and is a powerful marker of respectability. 
However, it only confers respectability if accompanied by 
financial stability and some measure of upward mobility. One 
woman says, ``I want to get married. I have always wanted to 
get married and have a family. My baby's father, he's doing 
pretty good economically, but I'm not going to get married 
until we save up enough money to buy an acre of land and 
finance a trailer. Then we will marry.''
    Others often talked about the sacred nature of marriage and 
felt that entering into a union that would almost certainly 
collapse under economic strain would be quote, ``a sacrilege.'' 
This reflects the strong belief of many that marriage should be 
quote, ``forever.''
    Third, trust--the substantial minority of our respondents 
say they have given up on marriage. This is more because of 
their low view of the men they know, than because they reject 
institution of marriage itself. Women tend to believe men are 
untrustworthy in several respects. For example, they fear that 
the men will not or even cannot be sexually faithful. When 
women says, ``Maybe I will find a good person to get married 
to, someone to be a stepfather to my son. They are not all bad. 
There are three things in my life; my school, my work and my 
son, not men. At first they love you, and then they think 
you're beautiful, and then they leave for another woman. My 
father is like that. He has kids by several different women. I 
hate him for it. I say I hate you, why do you do that? Why?''
    Another fear is that men will be irresponsible with the 
money. One woman told me, ``I gave my children's father the 
money to go buy some Pampers. He went down some street with his 
cousin and they were down partying and drinking, and he spent 
my son's Pampers money on partying.'' Additionally, mothers 
sometimes do not trust men with their children. We heard 
stories about men who leave their children home alone, drink 
heavily or smoke crack in front of the kids, neglect to feed or 
otherwise care for them, or even physically or sexually abuse 
them. One women summed it up as follows, ``Men can say, `Well, 
honey, I'm going out for the night.' '' And then they disappear 
for 2 months, whereas the mother has a deeper commitment, 
conscience or compassion. If women acted like men, our kid 
would be in the park, left. We would say somebody else is going 
to take care of it. Everybody would be orphaned.
    Finally, fourth, the stalled sexual revolution at home--
having a child often times reveals competencies mothers did not 
know they possessed, yet they are hard pressed to get the men 
in their lives to respect these competencies. They think men 
try to take power away from women and try to be in control of 
all the decisions, and since they do not trust men, this lack 
of control is very frightening. Most mothers want a partnership 
of equals. They believe the best way to achieve this is to make 
sure they are contributing financially to the household economy 
and will have something to fall back on if the relationship 
goes bad. As one women told us, ``I want to have a nice job so 
I know if he walked out, I have something to fall back on. The 
mortgage and everything else is going to be in my name. That is 
how I want it to be. I do want to get married, but I'm going to 
get myself stabilized and get everything together with me and 
my daughter before I take that route.''
    I take three lessons from this data. Number one, it is true 
that most low-income women do aspire to marriage. Two, but it 
is on their terms. They want some level of social mobility and 
economic stability. They will marry provided the husband 
doesn't fool around with other women, mismanage the money, 
neglect or abuse their children or beat them. Domestic violence 
was quite common with the women we interviewed. They also do 
not want to make all the decisions and they want him to respect 
their competencies. Unless low-skilled men's economic 
situations improve and they begin to change their behaviors 
toward women, it is quite likely that large numbers of low-
income women will continue to resist marriage.
    [The prepared statement of Ms. Edin follows:]

  Statement of Kathryn Edin, Ph.D., Associate Professor of Sociology, 
   Institute of Policy Research, Northwestern University, Evanston, 
                                Illinois

    Scholars currently hold four different theories of non-marriage. 
First, Gary Becker and others point to the increasing economic 
independence of women. This theory holds that as women have become 
better able to support themselves economically, they need marriage 
less. However, the data seem to show that for low income women, those 
most likely to be affected by welfare reform, the opposite seems to be 
true: for this group, the probability of marriage increases with a 
woman's earnings.
    Second, William Julius Wilson and others have looked at the 
phenomenon from the other side of the relationship and assume that a 
man must be stably employed in order to marry. Indeed, the last 30 
years have seen huge declines in the earnings of unskilled and 
semiskilled men, but the decline in marriage is simply much greater 
than this approach would predict.
    Third, Charles Murray and others blame welfare, arguing that as 
welfare became more generous, women were increasingly likely to trade 
dependence on a man for dependence on the government, or to combine the 
two by opting to live together rather than marry. However, since the 
1970s welfare benefits have declined dramatically in real terms, while 
non-marriage has continued to increase.
    Finally, some point to cultural factors, such as the revolution in 
sex roles that have changed the views of women. Men, especially low-
income men, have been slower to change their views, resulting in a 
mismatch in the sex role expectations of low-income men and women. But 
no study I know of has looked directly at how changes in sex role 
expectations have influenced marriage rates per se.
    So, we are left with more questions than answers. How do low-income 
single mothers feel about marriage? What factors do they believe 
prevent them from marrying? To what extent does the marriage norm still 
operate in poor communities?
    Between 1989 and the present, my colleagues and I conducted lengthy 
multiple ethnographic interviews and observations of well over 300 low-
income single mothers living in the poorer areas of three cities: 
Chicago, Charleston, SC, and Philadelphia. About half of these mothers 
were receiving cash welfare when we talked with them and about half 
worked at low wage jobs. Overall, the interviews show that the majority 
of mothers aspire to marriage. However, they also feel that, given the 
relationships they've been in or are currently in, marriage may offer 
more risks that rewards. Our interviews reveal four major motives for 
non-marriage: affordability, respectability, trust, and control.
    Mothers do believe they can diminish these risks if they find the 
right man, and they define rightness in both economic and non-economic 
terms. In sum, they say they are willing and even eager to wed if the 
marriage represents substantial upward mobility and if their husband 
doesn't beat them, abuse their children, insist on making all the 
decisions, or ``fool around'' with other women. If they cannot find 
such a man, most would rather remain single and raise their children 
alone.
    Let's now consider each of these motivations in turn.
Affordability
    For the mothers we spoke to, economic stability was a necessary, 
though not sufficient, condition for marriage.

          Men simply don't earn enough to support a family. This leads 
        to couples breaking up.

    As my book with Laura Lein showed, welfare reliant and low-wage 
working mothers worry a lot about money simply because they have to. 
The price for not balancing their budgets is high: the stability of the 
household and the well-being of their children.
    Though we found that men frequently contribute cash and in kind 
goods to single mothers' households, their employment is so unstable 
that single mothers often feel that they cannot count on these 
contributions. Therefore, mothers' consistent need for supplemental 
income, combined with men's erratic employment and earnings, mean that 
couples often break up over money or fail to marry because of it.

          I've been with my baby's father for almost 10 years . . . 
        He's talking marriage, but what I'm trying to do now is get 
        away from him. He just lost his job . . . [of] 18 years. [Now] 
        he's in work, out of work, then in work again. . . . I can do 
        bad by myself. I don't need no one helping me [do bad].

    However, mothers aren't completely cold and calculating in this 
regard. Not only do they value the AMOUNT of money a man could 
potentially contribute to the household and its STABILITY, they also 
value the EFFORT men expend to find and keep employment. However, in 
the end, their dire economic straits generally mean that they must 
enforce a ``pay and stay'' rule.

          I didn't want to be mean or anything [but when he didn't 
        work], I didn't let him eat my food. I would tell him, ``If you 
        can't put any food here, you can't eat here. There are your 
        kids and you should want to help your kids, so if you come 
        here, you can't eat their food.'' Finally, I told him he 
        couldn't stay here either.

    This doesn't mean that the women we interviewed don't often care 
deeply about the men in their lives.

          There was a struggle going on inside of me. I mean, he lost 
        his job at the auto body shop when they went [bankrupt] and 
        closed down. Then he couldn't find another one. It it was 
        months and months, and I was trying to live on my welfare check 
        and it just wasn't enough. Finally, I couldn't do it anymore 
        [because] it was just too much pressure on me [even though] he 
        is the love of my life. I told him he had to leave even though 
        I knew it wasn't really his fault that [he wasn't working]. But 
        I had nothing in the house to feed the kids, no money to pay 
        the bills, nothing. And he was just sitting there not working. 
        I couldn't take it, so I made him leave.

    Mothers also value the SOURCE of the money a man brings into the 
household. In general, drug money cannot buy marriage or even long term 
co-residence. In fact, it is often fathers' entry involvement with the 
drug trade that breaks couples up. Mothers are afraid that such a man 
might stash weapons, drugs, or drug proceeds on the premises, and that 
the violence of street life might follow him into the household. The 
mothers generally believe that anyone who is involved in the drug trade 
for long will go jail or get killed, leaving their children fatherless, 
at least for a time. They also believe that most men who deal will 
start ``using product'' himself, rendering any kind of sustainable 
family life impossible.

          I'm frustrated with men, period. Hey bring drugs and guns 
        into the house, you take care of their kids, feed them, and 
        then they steal your rent money out of your purse. They screw 
        you if you put yourself out for them. So now, I don't put 
        myself out there any more.
Respectability
    Many Americans believe the marriage norm no longer operates within 
poor communities because the resident think too little of marriage. Our 
conversations with low-income single mothers revealed the opposite: 
they avoid marriage because they think too much of it. In these 
communities, marriage has a kind of sacred significance, and is a 
powerful marker of respectability. However, it only confers 
respectability if accompanied by financial stability and some measure 
of upward mobility. Marriage to an unskilled, erratically employed man 
doesn't confer respectability, but makes one a fool in the eyes of the 
community.
    Since most women in these communities believe strongly marriage 
should be for life, and since women in our society still seem to borrow 
their class standing from their husbands, marriage to a partner with 
low or unstable earnings means that the women is willing to take on his 
very low status as her own for life. By doing so, the woman is making a 
profound statement to her community (and to herself) that, ``this is 
the best I can do.'' For most women living in poverty, giving up all 
hope of eventual upward mobility in exchange for marriage to a poor 
man, even if she is just as poor as him, is simply too hard a road to 
contemplate traveling. Thus, it is not surprising that most women in 
the same situation want to marry up or not at all.

          I just want [a marriage] that will take me up to where I want 
        to go.
          I want a big wedding. I want to be set--out of school, nave a 
        career, and then go from there. . . . Yeah, my friends that 
        have children, my one girlfriend, she wants to get a house 
        first and be ready with that and then decide.
          I want to get married. I've always wanted to get married and 
        have a family. [My baby's father,] he is doing pretty good, but 
        I am not going to marry him until . . . we get some land. 
        [After that, we'll] start off with a trailer, live in that for 
        about 10 years, and then build a dream house (a dream house in 
        Charleston, SC, where this interview took place, often meant a 
        trailer with a brick facade and a chain link fence). But I am 
        not going to get married [now] and pay rent to someone else. 
        When we save up enough money to [buy] an acre of land and [can 
        finance] a trailer, then we'll marry.

    Mothers often talked about the ``sacred'' nature of marriage, and 
believed that no ``respectable'' woman would marry a poor man--such 
marriages were even sometimes described as ``sacrilege.'' In interview 
after interview, mothers stressed the seriousness of marriage and their 
belief that ``it should last forever.'' Even if she were to contemplate 
marriage to an unskilled erratically employed man for love, she knew 
full well that it would likely collapse under economic strain, making a 
mockery of the social institution she revered. In such circumstances, 
it is more respectable to remain single and hope for a respectable 
match in the future.
    Thus, it is not that mothers hold marriage in low esteem, but 
rather the fact that they hold it in such high esteem, that convinces 
them to forgo marriage, at least until their prospective marriage 
partner can prove himself economically worthy, or they find another 
partner who can. To these mothers, marriage is a powerful symbol of 
respectability and should not be diluted by foolish unions.
Trust
    Though a substantial minority our respondents said they'd given up 
on marriage, this is more because of their low view of the men they 
know than because they reject the institution of marriage itself. Women 
tend to believe men are untrustworthy in several respects.
    First, they fear that the men will not (or even cannot) be sexually 
faithful. Though many women view infidelity as almost inevitable, they 
are not willing to accept it as a natural part of marriage. Women often 
say the best way to avoid being deceived by an unfaithful spouse is to 
either avoid marriage altogether (being cheated on by a boyfriend 
entails less loss of face) or delaying marriage while observing and 
evaluating a potential spouse's behavior over time.

          Living with [a man] would be fine. If after I lived with him 
        for a couple of years and I see that nothings gonna change in 
        the relationship, then maybe I'll marry him. But he's gotta be 
        somebody that's got [enough] money to take care of me.
          All those reliable guys, they are gone, they are gone. 
        They're either thinking about one of three things: another 
        woman, another man, or dope. . . . [M]y motto is ``there is not 
        a man on this planet that is faithful.'' It's a man thing. I 
        don't care, you can love your wife 'til she turns three shades 
        of avocado green. A man is gonna be a man and it's not a point 
        of a woman getting upset about it. It's a point of a woman 
        accepting it. 'Cause a man's gonna do what a man's gonna do. . 
        . . [Other] black women, they say ``once you find a man that's 
        gonna be faithful, you go ahead and get married to him.'' 
        [They] got it all wrong. Then they gonna [be surprised when 
        they find out] he ain't faithful. And the wife gonna end up in 
        a nut house. It's better not to get married, so you don't get 
        your expectations up.
          I would like to find a nice man to marry, but I know that men 
        cannot be trusted. That's why I treat them the way I do--like 
        the dogs they are. I think that all men will cheat on their 
        wives regardless of how much he loves her. And you don't ever 
        want to be in that position.
          I've been a single parent since the day my husband walked out 
        on me. He tried to come back but I am not one to let someone 
        hurt me and my children twice. I am living on welfare [rather 
        than living with him].
          Maybe I'll find a good person to get married to, someone to 
        be a stepfather to my son. They're not all the same, they're 
        not all bad. There are three things in my life; my school, my 
        work, and my son. Not men. At first they love you, they think 
        you're beautiful, and then they leave. When I got pregnant, he 
        just left. My father is like that. He has kids by several 
        different women. I hate him for it. I say, ``I hate you. Why do 
        you do that? Why?''

    A second fear is that men will be irresponsible with the family's 
money.

          I gave my child's father the money to go buy my son's 
        Pampers. He went on some street with his cousin [and] they were 
        down there partying, drinking, everything. He spent my son's 
        Pamper money [on partying].

    Since mothers understand that a married couple has joint 
responsibility for either party's debt, unmarried partners need not 
assume such responsibility. In considering marriage, mothers often 
begin to demand financial accountability, which not only ensures that 
the bills get paid but also makes it harder for him to maintain a 
relationship with a woman on the side. Not surprisingly, a prospective 
husband resents her lack of trust and does not always comply, thus 
behaving in ways that confirm her fears.
    Third, mothers sometimes do not trust men with their children. We 
heard many stories about men who leave their children home alone, drink 
heavily or smoke crack in front of them, neglect to feed or otherwise 
care for them, or even physically or sexually abuse them.

          I let him take them down the shore. He got into a fight with 
        his girlfriend, beat her up, got locked up. I didn't know where 
        my kids were [and] I didn't find out until 9:00 [the next 
        morning].
          Men can say, ``Well honey, I'm going out for the night. And 
        then they disappear for two months. Whereas, the mother has a 
        deeper commitment, conscience, or compassion. . . . If [women] 
        acted like men, our kids would be in the park, left. We'd say, 
        ``Oh, somebody else is going to take care if it.'' Everybody 
        would be orphaned.

    While the experience of parenthood straightens out the lives of 
many women, they feel it does so less often and less dramatically for 
men.

          He's 25, but he still likes to run the streets and go out 
        with his friends all the time. I just can't be bothered with 
        that.
          Sometimes men don't grow up as fast as women. He's still a 
        kid in part--a kid, period, to be honest with you.
          They're stupid. They're still little boys. You think you can 
        get one and mold him into a man, [but] they turn out to be 
        assholes. All men are. They're good for one thing and one thing 
        only, and it ain't supporting me.

    The sharp mistrust voiced above is often quite slow to develop. In 
fact, many of the men these women had children with were, at one time, 
the loves of their lives. For unmarried couples, it is often during the 
pregnancy that the mistrust begins.

          That first stage of me being pregnant was so stressful. . . . 
        He would call up [and say that] I was cheatin' on him and it 
        wasn't his baby. I went through that whole [pregnancy with him 
        calling me a] cheater.
          He started really beating me up [so I learned not to trust 
        him]. I was pregnant and he beat the shit out of me . . . I 
        must have been like four, five months pregnant. . . . By then I 
        had a belly. . . . He's on top of me--a grown six-foot-two man, 
        205 pounds, [and] I'm five feet and maybe 120 pounds because of 
        the fact that I was pregnant--him on top of me, beating me up, 
        punching me, hitting me. And I got a belly with his child.

    The relationships between these couples deteriorate partly because, 
as the women's pregnancy advances, her sense of what the baby will need 
materially grows more concrete. Though an intermittently employed 
boyfriend might have had adequate income to play the role of boyfriend, 
a pregnant girlfriend quickly realizes that these meager earnings 
cannot support a family. A young man who may have been completely 
acceptable to her six months prior is suddenly viewed as ``no good'' by 
his girlfriend, even when his behavior may not have changed.
    Mothers often describe a golden period in their relationship with 
the child's father at the moment their child is born. Often, the father 
comes to the hospital during or just after the birth, and the couple 
renews their desire to stay together and perhaps marry. However, the 
new mothers, who must immediately begin to deal with the practical 
demands of raising the child, again places increased financial demands 
on the father.

          That's when everything started blowing up. I didn't wanna be 
        with him no more cause he wasn't working and he was getting on 
        my nerves. . . . He just never gave me no money. I would tell 
        him, you know, ``Well, the baby needs diapers.'' ``Well, I 
        don't have no money.'' ``The baby needs milk.'' ``Well, I don't 
        have no money.'' I just started getting mad. I had to buy milk 
        and diapers so I just told him to leave me alone.

    Fathers in tight economic straits grow increasingly resentful and 
the relationship quickly deteriorates--sometimes within days of the 
birth. Many of the same men that had talked of romance and marriage at 
the hospital often deny they are the father of the child soon after. 
They accuse their baby's mother of ``stepping out,'' ``sleeping 
around,'' or ``whoring'' behind their back. Some demand a blood test 
before buying anything for the baby. Not surprisingly, mistrust 
results.
Control
    When we asked mothers about the benefits of being single, many told 
us they enjoyed the control it offered. Some mothers who had been 
married had been completely dependent on a man and had forgone 
investments in human capital that might have resulted in higher wages. 
The period of economic shock and near-destitution that often followed 
the marital breakup was devastating, and every inch of economic 
independence they were enjoying at present had been hard won. These 
lessons convince many that it is not safe to be completely dependent on 
a man.

          One guy was like, ``Marry me, I want a baby.'' I don't want 
        to have to depend on anybody. No way, I would rather work. [If 
        I married him and had his baby], I'd [have to quit work and] be 
        dependent again. It's too scary.''

    For never-married mothers, the story is different. Some learn these 
hard lessons through observing their own mothers or their female kin, 
whose boyfriends or husbands beat them, cheated on then, abused their 
children, or ``[drank] or smok[ed] up their paychecks.'' For others, 
enrollment in the school of hard knocks occurred during the pregnancy 
or shortly after the birth, as I described earlier. For a mother, 
having a child often reveals competencies they did not know they 
possessed. Yet, they are hard pressed to get the man in their lives to 
respect these competencies. Rather, they try to take power away from 
women and be in control of the household decisions. UNMARRIED male 
partners are on their best behavior because they know they are on 
trial, and fear that their female partners will end the relationship if 
they behave badly. Women like this control over the men's behavior, and 
are afraid marriage will change all that.

          [Men] think that piece of paper says they own you. You are 
        their personal slave. Cook their meals, clean their house, do 
        their laundry. Who did it before I came along, you know? That's 
        why they get married. A man gets married to have somebody take 
        care of them 'cause their mommy can't do it any more.

    Most mothers don't want to be owned or slave for their husband. 
They want a partnership of equals. Many believe that they best way to 
maintain power in a relationship is to make sure they are contributing 
financially to the household economy and have something to fall back on 
if the relationship goes bad.

          [For me, marriage] will be me and my husband [both] working. 
        We both work, [while] the children are in school.

    A good marriage from the woman's point of view is one where she 
contributes financially and can have a say in the decision-making. The 
greater her financial contributions, the more say she believes she is 
entitled to. Since mothers generally believe that childbearing and the 
early child-rearing years mandate at least a partial withdrawal from 
the labor market, they equate the early child-rearing years with 
relational vulnerability. A marriage that occurs prior to or during the 
prime family buildings years, when the mother is least able to 
contribute financially to the household, leaves a mother quite 
powerless in her relationship with her husband. Waiting to marry until 
all of the children are in school (or even out on their own) means that 
mothers can focus more of their energies on market work and increase 
their chances of entering into a marriage relationship with more 
control. These marriages, they feel, are likely to be more satisfying 
and sustainable over time.

          I want to have a nice job, [so] that I know if he walked out 
        I have something to fall back on. The mortgage [and] everything 
        [else] is going to be in my name. That's how I want it to be . 
        . . I do want to get married, but I'm going to get my self 
        stabilized and get everything together with me and [my 
        daughter] before I even take that route.
SUMMARY
    In sum, the low-income single mothers we spoke with believe that 
marriage will probably make their lives more difficult. Though most 
aspire to marriage eventually, they do not, by and large, perceive any 
special stigma to remaining single. If they cannot enjoy economic 
stability and respectability from marriage, they see little reason to 
expose themselves or their children to a man's irresponsible or even 
abusive behavior, or to risk the loss of control over their lives they 
fear marriage might exact from them. Unless low-skilled men's economic 
situations improve and they begin to change their behaviors toward 
women, it is quite likely that large numbers of low-income women will 
continue to resist marriage.

                                <F-dash>


    Chairman Herger. Thank you, Ms. Edin, for your testimony; 
and now Ms. Laurie Rubiner, of the National Partnership for 
Women and Families. Ms. Rubiner?

 STATEMENT OF LAURIE RUBINER, VICE PRESIDENT, PROGRAM & PUBLIC 
       POLICY, NATIONAL PARTNERSHIP FOR WOMEN & FAMILIES

    Ms. Rubiner. Thank you very much. Good afternoon, Chairman 
Herger and Congressman Cardin and other distinguished Members 
of the Subcommittee. I am pleased to present to have the 
opportunity to present testimony this afternoon on marriage and 
welfare reform. If we are truly committed to helping people out 
of poverty, then our public policy should be directed at 
providing real supports to those who are actually living in 
poverty. Such assistance should be provided not based upon 
family formation, but rather upon the needs of the family and 
the adult's willingness to follow the rules we have established 
for receiving aid.
    The mission of welfare reform should be to reduce poverty 
and help people achieve economic independence, not to engage in 
social engineering or discrimination against families that do 
not meet a particular ideal about family composition, nor 
should welfare reform legislation be used as a vehicle to 
punish families who fail to conform to our individual views of 
what a family should or should not be. We should learn from our 
past welfare policy that attempts to influence family formation 
can backfire. It is essential that welfare policies are 
developed with a primary focus on providing assistance and 
supports to all eligible families in need and not just a 
favored few.
    Some have suggested that married couples should be given 
preferential treatment in the distribution of scarce welfare 
benefits, under the theory that this will encourage people to 
get married. Such a policy would be misguided. First, there is 
no conclusive evidence that links increased welfare benefits to 
increased marriage rates. Second, to give preference to 
families solely because they are comprised of a married couple 
with children discriminates against those who are not married, 
but are working hard and playing by the rules.
    Consider the example of Elizabeth Jones in Katharine Boo's 
recent article in The New Yorker magazine. Ms. Jones followed 
the rules of the 1996 welfare reform law. She left welfare and 
got not one, but two jobs to care for her three children. She 
sleeps 4 hours a night. Even with a day job as a D.C. police 
officer and a night job in private security, she still cannot 
afford child care. So her school-age children are left to care 
for each other after school in a dangerous D.C. neighborhood. 
While Ms. Jones may be in the success column of those welfare 
recipients who have moved into financial independence, it is 
hard to understand how anyone, after reading her story, could 
not agree that scarce welfare resources should be used to help 
her get the kind of support that we know would help, such as 
quality affordable child care, health insurance and 
transportation.
    If marriage were only about economics, then policies that 
provide financial incentives for people to get married would be 
appropriate, but a successful marriage is a much more 
complicated equation, and a marriage license is not a winning 
lottery ticket. Rather than simply promoting marriage as a 
quick-fix economic solution, we ought to be focused on helping 
individuals make responsible decisions about their 
relationships and their lives. In addition, studies have found 
that significant percentages of welfare clients are victims of 
domestic violence and may turn to TANF to help escape an 
abusive environment.
    It is wrong to promote policies that make women choose 
between supporting their children or returning to their 
abusers. Rather than focusing merely on getting individuals 
married, regardless of whether there is a solid foundation, our 
focus ought to be on what it takes to make those marriages 
work. It should come as no surprise that low-income women want 
the same kinds of marriages that we want for ourselves and our 
children, and that they prefer to remain single rather than 
enter into an unstable, unsuitable or abusive marriage.
    There are millions of hardworking, single-parent families 
without adequate resources. The number of single-parent 
families is growing at a faster rate than married couple 
families, confirming that the concept of what constitutes a 
family is changing. We ought to do whatever we can to 
strengthen family bonds, including where grandparents and other 
relatives are struggling to keep families together. Our efforts 
should be informed about what we have learned about policies 
that work and policies that do not work.
    We already know from our previous efforts at welfare policy 
that we have to exercise care in constructing policies that may 
impact family composition. To the extent that the old Aid to 
Families with Dependent Children (AFDC) law may have resulted 
in a disincentive to marry, we ought not repeat those same 
mistakes. I am not here to condemn marriage. It is precisely 
out of respect for what the institution of marriage should be 
that I reject the outdated notion that a woman's only route out 
of poverty is a walk down the aisle. I urge you not to allow a 
discussion about marriage to divert attention from the task at 
hand, adopting concrete, comprehensive policies to provide all 
families in poverty with the support they need to make a 
permanent transition from welfare to economic security.
    Thank you.
    [The prepared statement of Ms. Rubiner follows:]

   Statement of Laurie Rubiner, Vice President for Program & Public 
           Policy, National Partnership for Women & Families

    Good afternoon, Chairman Herger, Congressman Cardin, and other 
distinguished members of the Subcommittee. I am Laurie Rubiner, Vice 
President for Program & Public Policy at the National Partnership for 
Women and Families. I am pleased to have the opportunity to present 
testimony before the House Ways and Means Subcommittee on Human 
Resources on marriage and welfare reform. The National Partnership for 
Women & Families is a non-profit advocacy organization that has worked 
since 1971 to ensure fairness in the workplace, and to help women and 
men at all income levels balance their work and family obligations.
    If we are truly committed to helping people out of poverty, then 
our public policies should be directed at providing real supports to 
those who are living in poverty. Such assistance should be provided not 
based upon family composition but rather upon the needs of the family 
and the adults' willingness to follow the rules we have established for 
receiving aid. The mission of welfare reform should be to reduce 
poverty and help people achieve economic independence, not to engage in 
social engineering or discrimination against families that don't meet a 
particular ideal about family composition. Nor should welfare reform 
legislation be used as a vehicle to punish families who fail to conform 
to our individual views of what a family should or should not be. We 
should learn from our past welfare policy that attempts to influence 
family formation can backfire.
    Legislation to reauthorize the Temporary Assistance for Needy 
Families (TANF) program must be grounded in several, central guiding 
principles: all eligible families in need who follow program rules must 
be treated fairly and have equal access to assistance; welfare policies 
must help all types of families move out of poverty; and welfare 
policies must be designed to provide a wide variety of supports that 
can promote strong, healthy families.
I. Welfare policies must be designed with the goal of providing 
        assistance to all eligible families in need
    It is essential that welfare policies are developed with a primary 
focus on providing assistance and supports to all eligible families in 
need and not just a favored few. Some have suggested that married 
couples should be given preferential treatment in the distribution of 
scarce welfare benefits, under the theory that this will encourage 
people to get married. Such a policy would be misguided. First, there 
is no conclusive evidence that links increased marriage rates to 
increased welfare benefits. Second, to give preference to families 
solely because they are comprised of a married couple with children 
discriminates against those who are not married, but are working hard 
and playing by the rules.
    Consider the example of Elizabeth Jones in Katherine Boos' recent 
article about moving from welfare to work in the New Yorker 
Magazine.\1\ Ms. Jones followed the rules of the 1996 welfare reform 
law. She left welfare and got not one, but two jobs to care for her 
three children. She sleeps four hours a night. Even with a day job as a 
D.C. police officer and a night job in private security she still can't 
make ends meet. Meanwhile, because she can't afford child care, her 
school-age children are left to care for themselves after school in a 
rundown apartment in a dangerous D.C. neighborhood. And, while Ms. 
Jones may be in the ``success'' column of welfare recipients who have 
moved into financial independence, it is hard to understand how anyone 
after reading her story could not agree that scarce welfare resources 
should be used to help her get the kinds of supports that we know help 
families like the Joneses, such as quality affordable childcare, health 
insurance and transportation.
---------------------------------------------------------------------------
    \1\ Boo, Katherine. ``After Welfare.'' The New Yorker, 9 April 
2001: 92-107.
---------------------------------------------------------------------------
    In distributing our limited resources we must begin with the 
reality of who is living in poverty and in need of assistance. The face 
of poverty in the United States is diverse:
    <bullet> Nearly 6.7 million families, consisting of 23.4 million 
individuals, were living in poverty in 1999--half were black or 
Hispanic families;
    <bullet> 53% were families headed by single female heads of 
households;
    <bullet> 7% were families headed by single male heads of 
households, and 40% were married couples;
    <bullet> 88% of single-headed households were headed by women; 
almost 62% of these female-headed families with children living in 
poverty were headed by black or Hispanic women.\2\
---------------------------------------------------------------------------
    \2\ U.S. Census Bureau, Current Population Reports, Series P60-210, 
Poverty in the United States: 1999, Table B-3 (Washington: Government 
Printing Office, 2000).
---------------------------------------------------------------------------
    While there has been important progress in reducing poverty rates, 
there clearly is more work to do. There are a wide range of 
strategies--from ensuring access to quality education and training, to 
job creation, to increasing Medicaid enrollment and providing 
affordable health care, to expansion of the Earned Income Tax Credit--
that collectively can and should be pursued to help more families 
achieve economic security. Any serious efforts to develop sound, 
effective welfare policies must have as their central goal a commitment 
to serving all eligible families in need.
    It is particularly crucial to pay special attention to the needs of 
families facing unique hurdles, such as families stuck at the bottom of 
the economic ladder, welfare clients with limited English proficiency 
or disabilities, and clients with multiple barriers to employment. 
Poverty has deepened for the poorest 20% of female-headed families and 
many are worse off today than they were six years ago. Recent data, for 
example, indicates that between 1995 and 1999 the inflation-adjusted 
disposable income of female-headed families with the lowest incomes 
actually declined by 4 percent.\3\ Many clients with limited English 
proficiency have been unable to get the services they need because they 
cannot get accurate information about their program in other 
languages.\4\ Many clients with disabilities have been shut out of 
training or job opportunities because their disability has not been 
assessed or adequately accommodated.\5\
---------------------------------------------------------------------------
    \3\ Wendell Primus, What Next for Welfare Reform A Vision for 
Assisting Families, Brookings Review (Summer 2001). For a discussion of 
earlier research, see Wendell Primus, Lynette Rawlings, Kathy Larin, 
and Kathryn Porter, The Initial Impacts of Welfare Reform on the 
Incomes of Single-Mother Families (Washington: Center on Budget and 
Policy Priorities, August 1999). See also Ron Haskins, Isabel Sawhill, 
and Kent Weaver, Welfare Reform Reauthorization: An Overview of 
Problems and Issues (Washington: The Brookings Institution, January 
2001) (finding that ``while the overall poverty rate has dropped 
consistently since 1995, the rate of families in deep poverty (which is 
below half the federal poverty level) has actually increased'').
    \4\ For example, the Department of Health and Human Services Office 
for Civil Rights (HHS-OCR) found that New York unlawfully discriminated 
against Hispanic clients by frequently denying interpreter assistance, 
requiring clients to bring their own interpreters to appointments, 
failing to have bilingual staff at some offices, and lacking basic 
information for clients in different languages. Docket No. 02-99-3130, 
HHS OCR Region II, OCR Determination, October 21, 1999.
    \5\ For example, the Department of Health and Human Services Office 
for Civil Rights (HHS-OCR) in Massachusetts found that the state TANF 
agency discriminated against two clients with learning disabilities 
because it failed to conduct adequate client assessments or provide 
sufficient services for disabled clients. Complaint No. 01-98-3055, HHS 
OCR Region I, OCR Determination, January 19, 2001. See Tina Cassidy, 
``US Faults State, Says it Discriminated Against 2 Cites Case Involving 
Impaired Woman,'' Boston Globe, 23 January 2001, at B1; see also Ramos 
v. McIntire, Civil Action No. 98-2154E (Mass. Superior Court, Suffolk 
Cty., Aug. 25, 1998).
---------------------------------------------------------------------------
    Still other welfare clients face a combination of employment 
barriers--limited opportunities to acquire education or build skills, 
unreliable childcare, mental and physical health problems, and lack of 
transportation--that together make it even more difficult to leave 
welfare and achieve some level of economic security.\6\ A research 
study by the University of Michigan of welfare clients in an urban 
Michigan county found that multiple employment barriers--such as low 
education, lack of job skills, lack of transportation, health problems, 
perceived discrimination, and domestic violence--were common: 37% of 
clients reported having two or three different employment barriers, 24% 
reported having four to six barriers, and 3% reported having 7 or more 
barriers.\7\ And increasingly many low-income fathers are struggling to 
acquire new skills and find and retain jobs. All of these clients have 
unique needs that require focused, targeted strategies--such as 
offering English as a Second Language classes, or training programs for 
non-traditional, higher-paying careers. Most importantly, it is 
critical that we do not create policies that pit different groups 
against each other to compete for much-needed services. Low-income 
mothers and low-income fathers who are underemployed or unemployed both 
need access to education and training--and we should take steps to make 
sure that both can have access to the services they need.
---------------------------------------------------------------------------
    \6\ For example, see National Partnership for Women & Families, 
Detours on the Road to Employment Obstacles Facing Low-Income Women, 
October 1999 (describing various employment barriers facing non-welfare 
and welfare clients).
    \7\ Danziger, Sandra, et al. Barriers to Employment of Welfare 
Recipients (Ann Arbor, MI: Poverty Research & Training Center, July 
1999) (revised version February 2000).
---------------------------------------------------------------------------
II. We must concentrate on developing policies that support and promote 
        strong, healthy families
            A. Coercive policies that promote certain types of families 
                    ultimately will do more harm than good
    Coercive policies designed to promote certain types of family 
structures at the expense of others, particularly children, will do 
more to undermine families than strengthen them. We ought not to 
desecrate the ideal of marriage by ``paying people to get married,'' 
nor should we endorse policies that penalize families that are most in 
need because they do not conform to a preferred family structure. If 
marriage were only about economics, and the road out of poverty were as 
simple as a walk down the aisle then policies that provide financial 
incentives to people to get married would be appropriate. But a 
successful marriage is a much more complicated equation, with more than 
one variable, and a marriage license is not a winning lottery ticket. 
Kathryn Edin's study of marriage among low-income women reveals that 
they look for the same things the rest of us look for in a mate.\8\ 
Yes, they want someone with a stable income, but they also want 
kindness, partnership, respect, emotional support, and a good father 
for their children. It should come as no surprise that low-income women 
want the same kinds of marriages that we want for ourselves and our 
children and that they prefer to remain single than enter into an 
unstable, unsuitable, or abusive marriage.
---------------------------------------------------------------------------
    \8\ Edin, Kathryn. ``Few Good Men: Why Poor Women Don't Remarry.'' 
The American Prospect, 11.4 (2000).
---------------------------------------------------------------------------
    Rather than simply promoting marriage as a ``quick-fix'' economic 
solution, we ought to be focused on helping individuals make sound, 
reasonable, responsible decisions about their relationships and their 
lives, so that if they do choose to get married the marriage will be 
stable and will be less likely to end in divorce. Helping to equip 
individuals to make the right choices ultimately can help strengthen 
both marriages and families. If our sole focus is on making a family 
look the way we want it to look, then we risk ignoring important pieces 
of the equation that can impact whether families grow together and get 
stronger or fall apart.
    Most importantly, marriage should not be used as a band-aid to cure 
other, more complicated problems. Many clients have turned to TANF as a 
source of critical support as they try to address difficult problems 
such as domestic violence or a family health crisis. Several different 
research studies have found, for example, that significant percentages 
of welfare clients are victims of domestic violence. A study of a 
scientific sampling of 734 female welfare clients in Massachusetts 
found that 19.5% reported current physical violence and 64% reported 
experiencing domestic violence at some point as an adult.\9\ Similar 
research involving 846 female welfare clients in Passaic County, New 
Jersey found that nearly 14.6% reported current physical abuse, 25% 
reported verbal or emotional abuse, and 57.3% reported physical abuse 
at some point during adulthood.\10\ Women who have been in abusive 
relationships and who need TANF assistance to be able to escape their 
abusers should not be penalized for trying to take control of their 
lives and create a safer and emotionally sound environment for their 
children. Forcing them to get married will only exacerbate their 
problems. To promote policies that put women, or any low-income 
individual, in the position of having to choose between financial 
support for their children or remaining in an abusive or destructive 
situation is wrong and not good policy. And it will do little to create 
the strong, healthy families that we claim to support.
---------------------------------------------------------------------------
    \9\ Jody Raphael and Richard M. Tolman, Trapped by Poverty/Trapped 
by Abuse: New Evidence Documenting the Relationship Between Welfare and 
Domestic Violence (Chicago & Ann Arbor: Project for Research on 
Welfare, Work, and Domestic Violence, April 1997).
    \10\ Id.
---------------------------------------------------------------------------
    In the long term, helping to equip individuals with the skills and 
judgment needed to make the right decisions about their families, and 
effectively manage their work and family responsibilities is the best 
strategy for fostering strong/healthy families, strong/healthy 
marriages, and strong/healthy relationships.
    In crafting policies, there a number of factors to keep in mind:
    <bullet> Protections for victims of domestic violence, child abuse, 
or other forms of abuse. Clients should not be forced or coerced into 
remaining in unhealthy, abusive relationships because they are unable 
to receive TANF assistance. Clients who face these types of problems 
should be able to get TANF assistance and other supports, and they 
should not be excluded from certain types of benefits because they are 
not married. Privacy protections are essential to ensure that clients 
can share sensitive information without fear of putting themselves and 
their families at risk, but also to ensure that clients are not forced 
to navigate cumbersome requirements to establish that they are victims 
of domestic violence or other forms of abuse.
    <bullet> Education and counseling on responsible decision-making 
and sustaining healthy relationships. Education programs, primarily 
targeted at youth, that focus on making responsible choices, entering 
into healthy relationships, and understanding the family situations 
that offer the best chance for children's growth and success can help 
clients to be informed and thoughtful about the choices they make and 
the consequences of those choices.
    <bullet> Efforts to remove penalties to marriage. Individuals 
should not be paid to get married, but they should not be penalized if 
they get married. Welfare policies should be neutral on the subject of 
family formation and instead target resources where they are most 
needed.
    <bullet> Voluntary participants. Clients must not be forced to 
marry as a condition to receive benefits; clients must not be coerced 
into special ``marriage incentive programs'' by dangling the promise of 
basic benefits that are critical to their family's survival.
            B. Providing supports to help strengthen low-income 
                    families
    One priority in developing new welfare policies must be to provide 
support and promote strong, healthy families in all their different 
forms. Clearly, we should support strong marriages and married couples, 
and remove impediments to marriage that discourage individuals who want 
to marry. But we ought to create these types of policies with our eyes 
open and not shut to the realities facing many families. Rather than 
focusing merely on getting individuals married regardless of whether 
there is a solid foundation, our focus ought to be on what it takes to 
make marriages work. To the extent that we want to assist low-income 
married couples who receive welfare, or are recent welfare leavers, we 
should concentrate on addressing the real problems that they face, such 
as removing TANF provisions that place additional burdens on married 
couples, and increasing the availability of transitional childcare, 
family and medical leave, affordable health care, and affordable 
housing.
    But we cannot limit our support only to married couple families who 
represent only a portion of all families. We have to promote strong, 
healthy families in whatever way they are constructed. Very few would 
disagree that having two parents in the home working together to 
provide a healthy and nurturing environment can be an ideal setting for 
children. But it is not the reality for many children. And, given that, 
we cannot conclude that it is the only environment in which children 
can prosper and grow. We must be willing to take a variety of steps to 
support low-income families headed by single parents to give their 
children the best chance to succeed. In addition, there are many 
families where grandparents, other relatives, and family friends are 
struggling to keep families together. We ought to do everything we can 
to strengthen those bonds and help those families stay intact and 
survive.
III. Welfare policies must be designed to address the problems of 
        families as they are and not only as we would like them to be
    As we craft new welfare policies, we ought not to operate in a 
vacuum. Targeting benefits only at married couples will leave millions 
of hard-working single-parent families without adequate resources, 
exacerbating their already difficult circumstances. The stark reality 
is that married couple families are on the decline. If the Congress 
wants to try to reverse this trend through non-punitive, non-
discriminatory policies, it should do so. But those policies should not 
be a substitute for providing supports to the families who have 
immediate needs that must be met.
    The most recent Census Bureau statistics reveal significant shifts 
in the different types of families in our country.\11\ Less than a 
quarter of American households--23.5%--are composed of traditional, 
``nuclear'' families with two married parents living at home with 
children. The number of single-parent families is growing at a faster 
rate than married couple families. These numbers only confirm that 
family arrangements are becoming increasingly complex and the concept 
of what constitutes a family is changing.
---------------------------------------------------------------------------
    \11\ United States Census Bureau, Profile of General Demographic 
Characteristics for the United States: 2000 (Washington: Government 
Printing Office, 2001). See Schmitt, Eric, ``For First Time, Nuclear 
Families Drop Below 25% of Households,'' New York Times, 14 May 2001 at 
A-1.
---------------------------------------------------------------------------
    It is in this context that we must develop welfare policies that 
are responsive to the needs of different types of families living in 
poverty. Our efforts should be informed by an accurate, comprehensive 
understanding of the families being served, and by what we have learned 
about policies that work and policies that do not work. We already know 
from history that we have to exercise care in constructing policies 
that may impact how families compose themselves. Some have criticized 
the prior Aid to Families with Dependent Children (AFDC) system because 
there were marriage disincentives. To the extent that the old AFDC law 
may have had incentives that discouraged certain types of families, we 
ought not to repeat those same mistakes. Nor should we penalize 
families now because they followed the old rules by changing those 
rules in the middle of the game. One lesson that we should have learned 
from the past is that we must proceed with caution when crafting 
policies that affect families when they are at their most vulnerable. 
If we want to move families out of poverty, then we first have to be 
willing to understand the reality of their lives and develop policies 
that enable them to become economically secure, whatever their 
structure. We ought not to have disincentives to marriage, but we ought 
not to coerce individuals into getting married either.
    Equally important, we must not endorse policies that discriminate 
against certain types of families, nor should we oversimplify the 
problems of families living in poverty. The vast majority of single-
parent families receiving TANF are headed by women, and they would be 
affected disproportionately by any policy that relegates them to 
``second-class family'' status. Adopting policies that have the effect 
of discriminating against female-headed families in favor of married 
couples is unfair, unwise, and unnecessary. Denying supports to the 
families who often are most in need not only hurts families, but also 
ultimately will lead to more long-term costs as these families struggle 
to survive.
    More fundamentally, we cannot assume that the problems facing 
single-headed households living in poverty--whether headed by women or 
by men--will be solved simply by getting married. Marriage is not a 
panacea: there are a multitude of factors that lead to poverty in this 
country, we ought not to oversimplify them or ignore their 
complexities. If two parents are unemployed and have limited job 
skills, marriage alone may do little to solve that problem. In fact, 
such a marriage will undergo significant stress and is much more likely 
to dissolve. If we are committed to the goal of helping families move 
out of poverty, then first and foremost we have to be willing to 
provide concrete supports that can help make that dream a reality. A 
report released by the National Campaign for Jobs and Income, for 
example, revealed that many states have significant TANF surpluses even 
though many welfare clients cannot access much-needed supports like 
childcare.\12\
---------------------------------------------------------------------------
    \12\ Poverty Amidst Plenty: Amount of Unspent Federal Anti-Poverty 
Funds Grows Despite Persistent Need (Washington: National Campaign for 
Jobs and Income, February 2000).
---------------------------------------------------------------------------
    It is critical that states provide basic supports to low-income 
families, and make investments in important strategies like the 
creation of livable wage jobs, so that families can have a realistic 
chance of achieving economic independence. And these basic supports 
should not be ignored in favor of largely unproven policies--such as 
paying clients to get married--that may not even scratch the surface of 
the underlying problems that clients confront on a daily basis.

                               Conclusion

    These cautionary words about marriage formation policies in the 
context of welfare reform are not a condemnation of marriage, or an 
effort to discourage individuals who want to get married. It is 
precisely out of respect for what the institution of marriage should be 
that I reject outdated notions about which people are more deserving of 
support, and resist efforts to use marriage as the solution to other, 
more complicated problems. But most importantly, I urge you not to 
allow a discussion about marriage to divert attention from the task at 
hand--adopting concrete, comprehensive policies to provide all families 
in need with the supports they need to make a permanent transition from 
welfare to economic security.

                                <F-dash>


    Chairman Herger. Thank you, Ms. Rubiner. Now we will hear 
from Mr. Gene Steuerle of the Urban Institute.
    Mr. Steuerle.

STATEMENT OF C. EUGENE STEUERLE, SENIOR FELLOW, URBAN INSTITUTE

    Mr. Steuerle. Thank you, Mr. Chairman, Mr. Cardin. As the 
last of six speakers on the topic of marriage at the end of a 
long day, I am reminded of Henry VIII's admonition to his own 
six wives, that they were not to overstay their welcome. What I 
would like to talk to you about today is the way that Federal 
policy creates marriage penalties, and I would like to 
emphasize that TANF is only the tip of the iceberg. Marriage 
penalties are created by food stamps, by Medicaid, by housing 
subsidies, by Supplemental Security Income, by the earned 
income credit, by the individual income tax, and--even for some 
widows, widowers and divorced persons--by the way Social 
Security and military and Foreign Service retirement systems 
work. And these are only some of the culprits.
    Marriage penalties, however, are not inevitable. Most 
public expenditures are made through programs that do not 
create marriage penalties. Marriage penalties essentially arise 
in those programs that phase out benefits as income increases, 
and then attempt to impose that additional tax, that implicit 
tax, on a household when a spouse with earnings marries into 
it. Two rationales are used to justify marriage penalties. Some 
believe that we should grant fewer benefits or impose higher 
taxes on a married couple than on two single individuals with 
the same combined income as the couple.
    The argument is that there are economies of scale in the 
marriage and therefore the household with people living 
together are better off because of those shared facilities and 
goods. It is not that there are no economies of scale. Indeed, 
there are; however, they apply to almost all sharing 
arrangements: dormitories, retirement homes, cohabitation and 
so on. If you think about it, it is only the marital vows of 
allegiance that is the type of arrangement on which we impose 
those taxes.
    In those communities where marriage is no longer the norm, 
and, as the recent census shows, those communities are growing, 
this natural social incentive to achieve economies of scale in 
living does not disappear, but is merely converted into forms 
that avoid the marriage contract. For example, adult males in 
marriage-discouraged communities still live with someone, they 
still achieve economies of scale, only now they are more likely 
than before to stay with their mothers, with relatives, with 
friends, or in serial relationships, rather than with a spouse 
or their own children.
    The transfer and tax systems say, in particular that, if 
they are fathers, they can support their children better by 
remaining unmarried. Marriage penalties are also a classic 
example of the type of liberal-conservative compromise that has 
dominated social policy for several decades. Liberals wanting 
social programs to be as progressive as possible want to 
concentrate benefits on the lowest-income people. Conservatives 
wanting to limit budget cost also want to limit the benefits. 
Both motives, progressivity and budget containment, are 
honorable motives. The net result, however, of this compromise 
has been that we have achieved substantial marriage penalties 
on significant portions of the population.
    Because each new expenditure and tax program tends to have 
its own unique, built-in phase out, households in America 
literally face dozens of income tax systems. Every one of these 
programs--TANF, food stamps, Earned Income Tax Credit (EITC)--
has a little mini income tax in it that is imposed as that 
program phases out. To see how these tax rates affect marriage, 
take an example of a single head of household who has moved out 
of TANF and has a job making a little over $10,000 a year. If 
this benefit recipient now marries a single person earning, 
say, about $8 an hour (a logical partner), their combined 
income would fall by about 22 percent, or over $7,000. The 
reason? They would lose earned-income credits; they would lose 
food stamps; they would lose Medicaid.
    In my view, taxing a large share of marital commitments 
makes little sense in any society, especially one seeking to 
foster community spirit among its members. After all, the 
primary feature of a community is to share, and the most basic 
form of sharing is between two people or within a family. 
Independently, from whether marriage penalties significantly 
affect behavior, I believe they have a corrosive effect on 
society, and especially on low-income communities most affected 
by marriage penalties.
    In summary form, there are four steps that I believe would 
solve this marriage penalty problem. First, we must reduce the 
combined marginal tax rate, implicit and explicit, that applies 
to low and moderate income individuals, so that they do not 
rise much above the rates that now apply to middle and upper 
income families. In other words, we have to keep the tax rate 
down around 30 or 40 percent, and not at the rate of 70 percent 
or more that it often achieves.
    Second, we have to avoid adding phase out after phase out 
after phase out to every benefit and tax program. If you 
remember nothing else from my testimony, I hope you remember 
that every time a phase out is added to a government program, 
it creates a marriage penalty. Third, we need to move toward 
individually based, as well as family based wage subsidies for 
low-income workers. And, finally, at least for the low and 
middle-income ranges, apply income splitting rules, which 
Congress is attempting to do in its 2001 tax legislation.
    Finally, regardless of whether you accept these 
recommendations, I do hope you will consider attempting to 
coordinate administrative structures and to share data in all 
government programs so we can learn just better what is 
happening to America's families.
    Thank you.
    [The prepared statement of Mr. Steuerle follows:]

    Statement of C. Eugene Steuerle, Senior Fellow, Urban Institute

    [Significant portions of this testimony appeared in ``Valuing 
Marital Commitment: The Radical Restructuring of Our Tax and Transfer 
Systems,'' The Responsive Community (Spring 1999). Any opinions 
expressed herein are solely the author's and should not be attributed 
to the Urban Institute, its officers, or funders.]
    Mr. Chairman and Members of the Subcommittee:
    In principle, both American voters and their elected officials want 
to support marriage and the family. One would expect, then, that our 
expenditure programs and tax code would reflect this desire. 
Unfortunately, this is not always the case. Instead of a consistent 
policy, we have a crazy quilt of expenditure and tax policies that 
directly affect families, some for the better, some for the worse. It 
is a quilt weaved with no overall pattern or shape. Today's 
extraordinary array of marriage penalties was not present a few decades 
ago. The penalties arise mainly from the high rate at which welfare and 
other expenditure programs reduce benefits in the presence of a spouse 
with earnings.
    Among other programs, large marriage penalties are created by:
    <bullet> Food Stamps;
    <bullet> Temporary Assistance to Needy Families (TANF);
    <bullet> Medicaid;
    <bullet> Various Housing Subsidies;
    <bullet> Supplemental Security Income;
    <bullet> The Earned Income Tax Credit;
    <bullet> The Individual Income Tax;
and, for many widows, widowers, and divorced persons:
    <bullet> Social Security;
    <bullet> Military and Foreign Service Retirement Systems.
    And these are only some of the culprits. Almost the entire gamut of 
other income-conditioned programs--including child care benefits and 
energy assistance--create marriage penalties.
    Marriage penalties are not inevitable. Most public expenditures are 
made through programs that do not create marriage penalties. Medicare, 
public education at the primary and secondary level, and highways are 
examples of public programs that generally do not create marriage 
penalties. These penalties can be avoided, but only through a good deal 
of careful thinking about design.
Required Conditions for Creating Marriage Penalties
    Let me turn more precisely to the conditions under which marriage 
penalties arise. Marriage penalties or bonuses will arise in almost any 
tax or expenditure system meeting the following two conditions:
    (1) a subsidy or tax, explicit or implicit, assessed on the basis 
of household or family income or resources, and
    (2) different marginal or incremental subsidy, tax, or phaseout 
rates at different levels of income or resources.
A Critical Analysis of the Rationales Used to Justify Marriage 
        Penalties
    Taxing by Households: Penalizing Committed Sharing. Marriage 
penalties are acceptable to some who believe that we should grant fewer 
benefits or impose higher taxes on a married couple than on two single 
individuals with the same combined income as the couple. The argument 
is that there are economies of scale in households because of shared 
facilities and goods. One TV may be enough for two people, one person 
may be able to prepare a meal for two just as easily as for one, and so 
on. Thus, sharing is a process that adds economic benefit over and 
above household income.
    If our sole goal were to treat all households equally on their need 
for help or ability to pay taxes, then technically, it is correct that 
the household sharing goods and services would have lesser need and 
greater ability than an equal-size, equal-income grouping of people not 
sharing a household. The problem with using this argument to justify 
marriage penalties is not that there are no economies of scale from 
sharing. There are, and, indeed, these gains reinforce other natural 
instincts to engage in mutual support. Economies of scale, however, 
apply to almost all sharing arrangements--dormitories, retirement 
homes, cohabitation, and so on. Yet marital vows of allegiance are the 
only type of arrangement that is taxed.
    In those communities where marriage is no longer the norm--and, as 
the most recent census shows, these communities are growing--this 
natural social incentive to achieve economies of scale in living 
arrangements does not disappear, but merely is converted into forms 
that avoid the marriage contract. For example, adult males in marriage-
discouraged communities often still live with someone, only now they 
are more likely than before to stay with their mothers, with other 
relatives or friends, or in serial relationships rather than with a 
spouse or with their own children. The transfer and tax systems say 
that these males deserve significantly lower levels of taxation and 
higher levels of support than males with equal incomes who marry. If 
they are fathers, it tells them that they can support their children 
better by remaining unmarried.
    Marriage Penalties: A Classic Liberal-Conservative Compromise. 
Marriage penalties are a classic example of the type of liberal-
conservative compromise that has dominated policy-making for several 
decades. Liberals, wanting social programs to be as progressive as 
possible, often try to concentrate whatever benefits are available at 
the bottom of the income distribution. Conservatives, wanting to limit 
the cost to government, also want to limit the benefits. Both motives--
progressivity and budget containment--are honorable. The compromise 
usually used to achieve these goals, however, is to phase-out benefits 
quickly as income (or wealth) increases in the household. This effort 
attempts to achieve target efficiency by maximizing help to the poor 
for the lowest stated expenditure cost. To tax experts, these phaseouts 
are equivalent to additional layers of income tax systems. As income 
rises, a household is implicitly taxed in the form of a reduction of 
benefits, with almost the same economic effect as explicit taxes.
    Because each new expenditure and tax subsidy program tends to have 
its own unique, built-in, phase-out, households in America (and in most 
developed countries) literally face dozens of tax systems. For example, 
if I lose 50 cents of a benefit when my income goes up by $1, the 
effective tax rate from that benefit program alone is 50 percent. Now 
think about the multiple programs in the expenditure and direct tax 
systems that are phased out--welfare, food stamps, housing allowances, 
earned income tax credits, Medicaid, child credits, educational 
assistance, personal exemptions, eligibility for participation in 
individual retirement accounts, exclusion from the minimum tax, and so 
on.
    These high tax rates affect not only extra income earned through 
work. They affect any income introduced into a benefit-receiving 
household through marriage. Some examples are presented in Table 1 and 
Figure 1. Consider, in particular, a single head of household moving 
off of welfare to a minimum wage job earning $10,710 a year--just as 
recent welfare reform encourages (example 4). Such an individual does 
succeed in moving out of (or almost out of) traditional welfare 
(defined as Temporary Assistance to Needy Families), but still receives 
a variety of other supplements, such as food stamps and earned income 
tax credits. The problem is that if this benefit recipient now marries 
a single person earning, say $8/hr or $16,640 a year, their combined 
income would fall by 22 percent, or $7,570 because of the marriage 
alone!
    This reality may explain in part why, in many low-income families, 
fathers feel little sense of accomplishment in staying around to marry 
and raise children. Government in effect has declared that working 
fathers in low-income, two-parent families are a liability. Whatever 
the changes in cultural standards or mores that may have led to this 
situation, the government has created enormous barriers to responsible 
fatherhood. The total income of those households dominated by income 
assistance, children born out of wedlock, and the absence of married 
couples would fall significantly if individuals in these communities 
would marry in patterns closer to national averages. In these 
communities, government has effectively pronounced that marriage is a 
foolish exercise--even though marriage is a principal route out of 
poverty.
    In recent years, Congress has turned its attention to a moderate 
subset of all the marriage penalties: those associated with the 
progressive rate schedule in the individual income tax and with the 
requirement for joint filing in the case of married couples. It is true 
that during a brief period of time most marriage penalties did arise 
out of the progressive income tax rate schedule. But as should be clear 
by now, with the myriad of expenditures and tax subsidy programs that 
have developed over the years, the sources of marriage penalties extend 
far beyond those imposed by the individual income tax. To the 
Congress's credit, I should note that its 2001 legislation does appear 
to reduce some of these marriage penalties through changes in the 
standard deduction, tax rate structure, and the child credit.
Options for Removing or Reducing Marriage Penalties
    To reduce or eliminate marriage penalties essentially involves 
addressing either of the two conditions--household filing or multiple 
rates--that creates the penalties. There are several approaches or 
options, and sometimes they can be combined. These options and some of 
their related difficulties are outlined below.
    Flattening of the Combined Tax Rate Schedule. Complete elimination 
of variable rates would mean that income would face the same tax rate 
whether the income was combined in marriage or not. As a practical 
step, one could try to limit the combined marginal tax rate for low- 
and moderate-income individuals moving out of welfare programs to 
around 30 percent or 40 percent, rather than the 70 percent rate 
(sometimes even 100 percent or more) they now often face. Then, when 
they moved into the income or Social Security tax systems, they would 
again face a similar combined rate (in general, the 15.3 percent Social 
Security tax plus a 15 percent bottom rate bracket in the income tax). 
Marriage is effectively penalized much less, and how income is split 
matters less when each person faces the same tax rate inside or outside 
of marriage.
    Note that a true flattening of tax rates at low-income levels would 
require reconsideration of almost every income-conditioned expenditure 
and tax program on the books. Today, however, these programs often do 
not even share administrative records and their administrators have 
little idea how they overlap. It would also require abandonment of the 
liberal-conservative compromise placing so much stress on progressivity 
and measured (although not always real) budget saving within every 
income-related program, taken one at a time. Given changes that could 
simultaneously be made in other features, such as the level of minimum 
benefit and the direct income tax rates at higher income levels, it is 
unclear whether overall progressivity would be reduced by this type of 
effort. Nonetheless, phase-outs cannot be sought by Congress every time 
it deals with an individual expenditure or tax subsidy program without 
almost inevitably adding to marriage penalties.
    Income Splitting. A traditional option to deal with marriage 
penalties has been income splitting, which effectively treats married 
couples as if each were an individual filing a single return and 
reporting exactly the right share (one-half) of the couple's total 
income so as to minimize tax liability. Unfortunately, income splitting 
eliminates only those marriage penalties arising from a schedule where 
rates are always successively as high, or higher, at greater levels of 
income, a situation that is the norm in the middle- and upper-income 
classes from the income tax alone. But our two conditions demonstrate 
that marriage penalties can also occur when rates fall as income 
increases. Because of all the phase-outs and implicit tax schemes, the 
real tax system now imposes such a rate structure on a large portion of 
the population. Thus, when an individual moves through the phaseout 
ranges of the earned income tax credit, food stamps, Medicaid, the 
itemized deduction limitation, the IRA contribution limit, and so 
forth, marginal tax rates fall rather than rise.
    Take the simple case of the welfare recipient who considers 
marriage. Assume a welfare/tax structure that provides to unmarried 
adults $5,000 of benefits at zero income, no tax and no benefits at 
$10,000 of income, and a tax of $1,000 at $20,000 of income. Before 
marriage, a couple with $0 in income for one partner and $20,000 for 
the other would get benefits of $5,000 and taxes of $1,000 for a net 
benefit of $4,000. If they marry and split their income, then each is 
treated as having $10,000 of income. They then get no benefits and pay 
no taxes for a net benefit of $0. The net income of the couple would 
fall $4,000. Income splitting just doesn't work here.
    Individual Filing. Congress could also move toward individual 
filing. An intriguing possibility, and one that I increasingly favor, 
is for wage subsidies like the earned income tax credit to accompany 
the worker and not the family, and for child credits or subsidies to 
accompany the child. Canada is currently experimenting with such an 
approach with respect to wage subsidies, although eligible recipients 
are limited to those already on welfare. I recognize that some high-
income families would then get a credit or subsidy. But worrying about 
whether someone paying millions of dollars in tax gets a small subsidy 
here or there is simply not worth the trouble. On average, higher 
income families can be made to pay for these changes through an 
explicit tax rate structure. (We now have programs that allow high-
income individuals to benefit from the much larger and more expensive 
Social Security or Medicare programs or from public school education, 
yet progressivity is not removed; the rich simply pay more than their 
share of taxes to support these systems.)
    My main concern is trying to address issues related to parenthood, 
marriage, and work among low- and moderate-income individuals. If 
subsidies were applied at low wage levels on an individual basis, they 
would not create the current strong incentives against marriage in low-
income communities. Such a step would also remove the negative impact 
of the welfare system, as currently structured, on the forgotten low-
income male. The trick again is that once a program is aimed at the 
individual, marriage can have no effect on benefits or taxes paid. This 
type of reform could significantly change the environment of low-income 
communities. Consider an example: if a single mother earning $10,000 a 
year received a wage rate subsidy like the earned income tax credit on 
an individual basis, she would not lose it if she married someone with 
income of his own. Similarly, if a low-earning male married into a 
family, he would still be eligible for any wage rate subsidy that was 
available for low-income workers living with dependent children. With 
individually based programs, his earnings would not affect his wife's, 
and her earnings would not affect his.
    Note that many taxpayers are already in a world of optional 
individual filing. The main difference is that the benefit now is 
granted only to those who are able or willing to treat the act of 
marriage as the option.
A Comprehensive Approach
    In my view, taxing a large share of marital commitments makes 
little sense in any society, much less one searching for ways to revive 
or foster community spirit among its members. After all, the primary 
feature of community is to share, and the most basic form of sharing is 
between two people or within a family. Admittedly, the research in this 
field does not prove that removal of marriage penalties would have a 
significant effect on behavior. It would not by itself, for instance, 
reverse the sexual revolution. But empirical research is not good at 
detecting the influences of policy on long-term social norms.
    Moreover, although the marriage penalties within the income tax 
have been around since 1969, we have only recently moved to a society 
where the very large marriage penalties from income assistance and wage 
subsidy programs have been extended well into the middle class and 
beyond the stereotypical poor, nonworking, welfare recipient. It is 
doubtful that the long-run influences of any of these conditions have 
yet to be fully experienced by society.
    Independently from whether marriage penalties will significantly 
affect behavior in a narrow sense, I believe that they have a corrosive 
effect on society and especially on those low-income communities most 
affected by marriage penalties. Marriage penalties violate almost 
everyone's sense of fairness because they penalize only one type of 
sharing: that achieved through moral and legal promises. These 
penalties further discourage responsible fatherhood and motherhood. 
Finally, where economies of scale are conjured, the reasoning mentioned 
at the beginning of this paper is easily turned on its head. That is, 
because sharing can increase the effective well-being of individuals 
with no increase in their nominal income, society might want to 
subsidize such economies of scale rather than tax them. A similar 
efficiency argument lies behind some of the subsidies offered for 
education and other income-supporting activities.
    What all this implies in practical terms is that to deal with 
marriage penalties in a thorough manner, Congress almost inevitably has 
to reconsider the entire range of explicit and implicit taxes it has 
imposed on income. Most of the hidden taxes it has adopted over the 
years would need to be reconsidered, pulled into an integrated whole, 
and, where appropriate, replaced by direct, explicit taxes.
    Drawing from all the options outlined above, here is a 
comprehensive package that would successfully change the ways our 
transfer and tax systems penalize marriage for low- and moderate-income 
individuals:
    <bullet> Reduce combined marginal tax rates on low- and moderate-
income individuals so that they do not rise much above the rate that 
applies to middle- and higher-income individuals.
    <bullet> Use the direct tax rate schedule as the primary means to 
establish overall progressivity and abandon the complicated effort to 
put ``progressivity'' into everything government does. In other words, 
stop adding phaseout after phaseout of benefits and subsidies.
    <bullet> Move toward individually based rather than family-based 
wage subsidies for low-income workers.
    <bullet> At least for low- and some middle-income ranges, apply 
income splitting rules. Congress appears on the verge of taking this 
step in its 2001 legislation.
    Let me be clear that the issue of how to make adjustments for 
children is, for the most part, a separable issue. Where adjustments 
are desired because of the costs of raising children, they can be 
achieved through child credits and dependent exemptions without giving 
additional bonuses to all married couples. Put another way, if the goal 
is to assist parents because of the presence of children, spousal 
benefits and bonuses are a poorly targeted device.
    As I have indicated, it is not clear to me that policymakers fully 
comprehend what's required to achieve changes of this scale and 
magnitude. Incremental changes here and there may reduce marriage 
penalties slightly, but they may be more than offset by new marriage 
penalties introduced every time a new phase-out or implicit income tax 
is introduced. The momentum for change may need to come from acceptance 
of a broader principle. For example, a law might limit the combined 
marginal tax rate facing a low- or moderate-income worker to no more 
than the tax rate applying to the highest income individuals. To 
implement that goal, however, considerable effort would be required to 
coordinate administrative structures in all the government's many 
programs and convert the crazy quilt of family policy into a more 
consistently designed overall program.
[GRAPHIC] [TIFF OMITTED] T4227A.023

[GRAPHIC] [TIFF OMITTED] T4227A.024

                                <F-dash>


    Chairman Herger. Thank you very much, Mr. Steuerle. I thank 
each of our panelists, and now we will turn to some questions.
    Mr. Popenoe, we hear a lot about the negative effects of 
family breakdown on children. Could you tell us more about the 
positive effects of marriage on adults, and especially women, 
some of which you note on page four of your testimony?
    Mr. Popenoe. Which I did not get to, and there is a lot of 
new information about how marriage provides health benefits, 
wealth benefits, longevity, happiness, low levels of 
depression. These are determined by comparing married people 
with single people, and by comparing married people with 
cohabiting couples. In such comparisons, the married couples 
tend to come out way ahead. There have been a many attempts to 
try to determine that this is not just a selection affect: in 
other words, that is due only to the fact that the happier, 
healthier and wealthier people go into marriage. The general 
belief now among scholars is that it is not primarily the 
selection affect. There is a real marriage effect, and the 
reason for it seems to be that two people who pledge a long-
term commitment to each other can plan their life together, can 
achieve economies of scale, can monitor each other's behavior, 
can be lifelong, intimate sexual companions, and all those 
things bring enormous benefits to the married couple.
    Chairman Herger. Thank you, Mr. Popenoe.
    Mr. Steuerle, you were mentioning in your testimony, and 
you referred to it on page three, that if a single head of 
household earning $10,700 per year married someone making $8 
dollars per hour, their combined income could fall by over 
$7,500 due to the marriage alone. Is there data on whether low-
income workers actually make these sorts of calculations prior 
to marrying or choosing not to marry?
    Mr. Steuerle. Mr. Chairman, I should be honest. The 
research is very mixed on the question of whether you can 
slightly change incentives in these programs and thereby affect 
the marriage rate. Certainly trying to remove marriage 
penalties in government programs, for instance, is not going to 
remove the sexual revolution. However, I should also indicate 
that we have no good evidence on what the social effect in a 
community is. We do know that people learn from each other. 
There is a similar debate, for instance, about whether a lot of 
the penalties for working longer lead people to retire. But 
there is some evidence that if you retire and I live next to 
you in New York, and you have better incentives than I do, I 
still might retire and move to Florida because you moved. And 
the same thing appears to take place in a lot of these low-
income communities--in particular that people learn by watching 
each other.
    But as an analyst and a researcher, I must be honest. The 
research is very mixed. I am not going to exaggerate that we 
know how to slightly change incentives and thereby foster 
marriage. I will start, however, that in all these programs the 
government does say to low-income people that marriage is a 
mistake that is very costly. That message is there, whether it 
affects their marriage rates or not.
    Chairman Herger. Thank you, Mr. Steuerle. Ms. Edin, would 
you like to comment on this, on our culture and low-income----
    Ms. Edin. Sure. I think the kind of research you really 
need to get at these questions is the kind of research that 
ethnographers and qualitative researchers do, who actually go 
out and spend time in low-income communities. I would say that 
in terms of some of the penalties, for example, in the earned-
income tax credit, the credit still has not quite been around 
long enough for people to begin noticing these things. I 
suspect they will, because it is very interesting, in another 
line of research on welfare reform, how they are noticing the 
effect of the increased income disregard, which in many States 
has moved from 33 percent, and this is really--our evidence 
suggests that this might be having at least a modest incentive 
effect on mothers' sense of working being worthwhile.
    So I would suspect that because the penalty for marriage is 
so huge in the earned-income tax credit, in particular, that 
people will begin learning from each other and picking up on 
it, and it is a matter of time.
    Chairman Herger. Thank you very much, Ms. Edin. Mr. Cardin, 
to inquire?
    Mr. Cardin. Well, thank you, Mr. Chairman.
    I want to thank each of the panelists. This panel has 
brought us back to the realities of the problem that we have 
with people, in promoting marriage and dealing with children 
born out of wedlock. It has convinced me that the goals that we 
have in TANF are the correct goals in this regard, but we need 
to expand that to deal with the economic problems of poverty, 
which is clearly stopping us from making the type of progress 
that we want. I think, Ms. Edin, your observations from the 
people that you interview bring us back to reality; that a 
mother is not interested in marrying if that mother believes it 
is not going to be in the best interest of her family, and 
taking on the financial responsibility of a husband is not 
always in the best interest of the family.
    It also brings us back to the bill that we worked on last 
year, Mr. Chairman, the fatherhood initiative, where we were 
trying to connect fathers to family by helping fathers become 
more responsible by having the skills necessary to earn a 
livelihood, and we think that program made sense in the goals 
of welfare. So it really, I think, reinforces some of our 
points from our work last year. Also, there are currently 
disincentives in the welfare law that--Ms. Ooms, you mentioned 
the fact that 33 States, I think, have moved to remove the 
distinction between a two-parent family and a one-parent family 
in eligibility. That means there are 17 States that have not, 
so we still have disincentives in our law that really need to 
be examined as to whether they are counterproductive to the 
goals we are trying to establish here.
    Also, the post-employment services, which are very 
difficult for States to participate in because the clock is 
still tolling. If they provide supplemental assistance or if 
they try to deal with some of the skills training that is 
necessary, it can affect a State's willingness to move in this 
direction. So I think you have to look at it in total, and we 
have not done that. I do not agree with the point, I think that 
you make, Mr. Fagan, about such a small percentage of the 
resources going to these goals. I think you have to take a look 
at it in more general way, and I am not sure we have the 
numbers. We need better statistics. I agree with you there. We 
need much better information in order to make these judgments, 
but I was just impressed by, at least--and if you want to add 
more to this, Ms. Ooms or Ms. Edin, I would appreciate it--the 
fact that if you deal with the economics, you can deal with 
trying to get the family more connected.
    If there are rewards in it, there is a better chance of 
having the father connected to the family, at least that is how 
I interpret it from some of the work that you were doing.
    Ms. Edin. I can respond to that a little bit. I think what 
the interviews with these mothers have shown, and we are doing 
corollary interviews with fathers in three cities, by the way, 
is that there are really two things going on. One is economic 
and the other thing is sort of behavioral, and in some ways the 
two are tied together, because we know, for example, that 
although domestic violence occurs across the income 
distribution, it is more concentrated among the poor, among 
low-income men.
    Other problems are similarly true. The sex gap, the gap in 
sexual expectations between men and women, is wider at the 
bottom than it is in the middle, and so it is kind of hard to 
sort that out. But I think we would be mistaken to think it is 
all economics. I think economics plays a big role, but there 
are cultural issues, as well, in the way men have been 
socialized to treat women, and the way men are not socialized 
to be very good dads or very connected to their kids.
    But I will tell you that based on, now, 6 years of 
interviewing low-income, non-custodial fathers, that there is a 
great deal of willingness or maybe even wishful thinking, on 
the part of fathers, willingness to want to be more involved in 
family life.
    Mr. Cardin. Again, that is why this Committee and the House 
last year passed the fatherhood initiative. Unfortunately, it 
did not pass the Senate. But the fatherhood initiative was 
recognition that we had to put more attention on the 
noncustodial parent for the reasons you just said, gain some 
experience, figure out how to deal with the problem, and 
hopefully that will develop some guidelines for States to be 
more aggressive in this area.
    Ms. Ooms, did you want to add something?
    Ms. Ooms. I just wanted to add, I think we have to do 
several things at once. This is a complicated issue, especially 
for low-income couples. However, the TANF goals that address 
the two-parent families and out-of-wedlock childbearing relate 
to the general population. I think it is a question of 
economics. I think it is a question of culture. I think it is a 
question of the relationship skills that were talked about in 
the first panel. I think you would agree, Kathy, that in low-
income families, you could give the guy a job and they could 
live together, but they could still have a hard time if 
somebody did not help them learn to get along better together. 
I think they need some of these kinds of soft-skills services, 
as many other people do, too.
    So, I think we have to have multiple strategies and not 
rely on just one or the other. I think we also need to think 
what are the best times at which we can give this kind of help. 
This new study that some of you know about, the Fragile 
Families and Child Well-being study, which is showing that the 
time of birth is the time when many of these unmarried couples 
are really very romantically attached, 50 percent are living 
together and say they want to marry. This offers a window of 
opportunity when we should be offering both the economic help 
and the training in relationship skills and other supports to 
couples. I think that this is one of the most exciting pieces 
of research that is really helping guide policy in the future.
    Ms. Edin. 30 seconds?
    Mr. Cardin. Sure.
    Ms. Edin. I would say, in all of these interviews, the most 
palpable reality is the incredibly high level of mistrust 
between men and women in these communities.
    Chairman Herger. Thank you very much. It would appear that 
we are in need of more research as we listen to both of our 
panels; and Ms. Ooms, just your comment, if you could, about 
research in this area, and especially federally funded 
research. Is the government paying appropriate attention to 
issues of family structure and their impact, especially on 
children? What more do you feel should be done? What are some 
of the possible benefits if we had better research in this 
area?
    Ms. Ooms. I think there are a couple of things we should 
do. I think first our basic vital national statistics on 
marriage and divorce, collected by the Centers for Disease 
Control from state governments, have to be rebuilt. We must 
invest in getting those statistics in the same shape as we have 
our birth and death statistics, because otherwise we cannot 
keep track of trends in marriage and divorce in the States and 
communities. So that is one area that we really need to pay 
some attention, and it has been terribly, badly neglected.
    What we do know about these issues has been learned from a 
lot of federally funded research, but I would say that the 
whole issue of ``couple unions,'' as researchers call it, has 
had very low priority in the Federal research agenda. I think 
the kind of thing that would be helpful, because there are so 
many issues that we still do not understand and we need to know 
about--is the kind of initiative we had on the fatherhood front 
about 3 or 4 years ago. All the Federal statistical agencies 
got together and said how can we learn more about fathers and 
fatherhood, and they began to plan to add fathers to certain 
surveys and to do certain kinds of piggybacking on each other's 
studies to learn more.
    I think if there is The Interagency Forum on Child and 
Family Statistics, which made this effort in the fatherhood 
area, should be asked by the Congress to make the same kind of 
effort in the couples and marriage area. Then we might be able 
to learn a lot more from data that is already out there, and 
also from new data they decide needs to be collected. So I 
think we have a big job to do.
    Mr. Steuerle. Mr. Chairman, could I also add one very quick 
comment there?
    Chairman Herger. Yes.
    Mr. Steuerle. One way, to really leverage up what you want 
to do in the way of research is to combine administrative data 
sets and the survey data sets. There is not a lot of money 
required: in some sense, the people have already paid for those 
surveys, already paid to file those administrative records. In 
a lot of States and at the national level, those sets are not 
combined. There are a lot of reasons why they are not combined. 
It is not just resources. Issues of confidentiality are also 
involved. But a lot of the data, I think, are there to improve 
our understanding greatly. It may only be a minor element in 
the type of legislation you deal with, but I believe it could 
be very important.
    Chairman Herger. Thank you very much. Again, I want to 
thank each of you for your outstanding testimony, both this 
panel and our first panel. Once again, I trust the witnesses 
would respond to additional questions on these issues. It has 
been a very informative hearing. I appreciate the work that 
each of you have done and the time that you have given us 
today, and with that, this Committee stands adjourned.
    [Whereupon, at 4:25 p.m., the hearing was adjourned.]
    [Questions submitted from Chairman Herger to the panel, and 
their responses follow:]

                          National Marriage Project
                               Piscataway, New Jersey 08901
                                                       June 5, 2001
Hon. Wally Herger
Chairman, Subcommittee on Human Resources
Committee on Ways and Means
House of Representatives
Congress of the United States
    Dear Chairman Herger:
    It is a pleasure and a privilege to be able to provide further 
information to you and your distinguished Committee. I will answer the 
questions in the order they were asked.
    Question 1. As the hearing reflected, the Subcommittee is 
interested in overall trends in marriage and family formation, with a 
special focus on the impact of these trends on lower income families, 
including those on or at risk of going on welfare. Thus, in addition to 
the general data included in your testimony about overall marriage, 
divorce, cohabitation, and out-of-wedlock birth data and trends, please 
provide us with similar marriage, divorce, cohabitation and out-of-
wedlock birth information, to the degree available, for low-income 
families, including families on or at risk of going on welfare.
    1. The National Marriage Project does not keep marriage data broken 
down by income or by those at risk of going on welfare. These data can 
be secured from the U.S. Census Bureau and from such private sources as 
the Urban Institute or the Heritage Foundation. As you well know, 
however, the marriage situation in the low-income community is far 
worse than it is for the nation as a whole. Indeed, in some urban areas 
marriage has all but disappeared as the basis of family life.
    Question 2. Is there anything we can do about reversing the trends 
in family formation? What social, cultural or legal factors reinforced 
marriage in prior generations and what specifically changed? Were there 
legislative policies that had an effect on undermining marriage?
    2. The decline of marriage and the family in the United States over 
the past four decades is largely attributed to changes in three areas: 
the economy, government policies, and the culture. In the economy, the 
rise in women's employment opportunities and earning ability has 
reduced the benefits associated with sharing income and household costs 
with a man and also made divorce and the single life more attractive. 
In other words, women's new economic independence enhances both their 
unwillingness to marry and their willingness to divorce. At the same 
time, as men's wages and job opportunities have declined relative to 
women's, the eligibility of men as potential marriage partners has 
dropped. Women are less likely to want to marry lower-earning men, and 
lower-earning men are less likely to want to marry because they feel 
unable to support a family. Studies have indicated that these economic 
changes have made a measurable but rather modest contribution to family 
change in America.
    The impact of government has focused largely on two areas. At the 
national level are the perverse incentives in tax policies and welfare 
programs, incentives that reward people for being unmarried rather than 
married. For the society as a whole these public policies have probably 
been relatively unimportant. But for the very poor, and those on 
welfare, their impact has been much greater. At the state level, the 
most widely analyzed policy has been the shift to ``no-fault'' divorce, 
beginning in the late sixties. Scholars differ about the effect this 
may have had on increasing the divorce rate. Some have found little or 
no effect, while others have determined that the divorce increase may 
have been as high as 20%. The increase, however, was for only the first 
few years following the legal change, after which the effect 
diminished.
    By far the most important cause of family decline has been changes 
in the culture, that is, the values and beliefs that give coherence and 
meaning to life. During the past forty years we have seen changes in 
the fundamental ideals and role expectations that have defined the 
family for the past several centuries. ``Self-fulfillment'' has risen 
as a dominant life goal, displacing such values as self-sacrifice, 
commitment to others, and institutional obligation. The traditional 
moral legitimacy and authority of almost all social institutions, 
including marriage, has eroded. Although individuals still favor 
marriage as an intimate partnership, they have become more hesitant to 
commit themselves to institutionalized marriage roles and societies 
have weakened their sanctions of such roles. This broad cultural shift 
is the end result of the long-term growth of individualism in modern 
societies, accentuated by the relative affluence of our era.
    Question 3. How can government help ``rebuild a marriage culture'', 
as you put it? Is it enough to remove marriage penalties in the Tax 
Code and certain marriage disincentives in benefit programs? What else 
is needed, including from non-government sources, such as churches, 
civic leaders, the media and so on?
    3. Obviously, public policies are not particularly well suited to 
changing matters of the heart. Without significant cultural change--for 
example, the dampening of the sexual revolution, moral responsibility 
on the part of the organized entertainment industry, and a renewed 
cultural focus on children--the task of restoring a marriage culture 
will be difficult to achieve. Nevertheless, there is a significant role 
at the margins for government to play. Lying behind all government 
family policies should be three simple propositions: (1) children are 
our future; (2), the family is the most important institution for child 
wellbeing; (3) marriage is the best arrangement for family life. 
Generally speaking, the goal of government should be to increase the 
proportion of children who are living with and cared for by their two 
natural, married parents and to decrease the proportion of children who 
are not.
    What follows are some key pro-marriage and pro-family policies that 
the National Government could institute. I shall emphasize in this 
discussion initiatives that apply to all economic segments of the 
population. You have many other witnesses, more knowledgeable about 
such matters than I, who deal specifically with policies for welfare 
and other very low-income populations. And I shall take for granted, 
and not discuss, policies already under consideration by the Congress 
that help to remove marriage penalties from the Tax Code and marriage 
disincentives from benefit programs.
    a. Develop and widely promulgate an annual measurement of our 
nation's marital and family health, much like the government today 
provides annual measurements of our Nation's economic health. The 
importance of marriage and the family must be publicized more widely; 
this would be an effective way to start. In addition to divorce and 
out-of-wedlock birth rates, the measurement should include indicators 
such as the percent of children living apart from their two married 
parents and the percent of children living apart from their biological 
fathers.
    b. Develop, test, and disseminate widely on an informational basis, 
premarital and marital education programs. Many educational programs 
now exist that are designed to strengthen existing and future 
marriages. Good marriages are a national resource, and we should be 
encouraging them. This effort might be thought of as akin to the 
Federal government's cooperative extension programs in agriculture, 
which have been instrumental in promoting scientific agriculture and 
have led to the world's most productive agricultural economy.
    c. Provide educational credits or vouchers to parents who leave the 
paid labor force for extended periods of time to care for their young 
children. Parents who raise their own children perform an important 
social service, but in doing so may harm their long-run career 
prospects (not to mention their loss of current income). In return for 
this sacrifice, society could compensate their further education so 
that they can more effectively reenter the labor force or become 
established in their careers. Sometimes referred to as a ``parental 
bill of rights'' because it is designed along the lines of the G.I. 
Bill for World War II veterans, these credits or vouchers could be 
provided for high school, vocational, college, graduate or post-
graduate education.
    d. For married couples with dependent children, increase their 
personal tax exemption for each year, after 5 years, that they remain 
married. Not only should marriage be unpenalized by the tax system, it 
should be favored with a tax reward. This marriage bonus would not have 
to be great; it could be mostly symbolic. It could also be capped after 
a certain time. But it would be a stunning affirmation that long-
lasting marriages are in the national interest.
    Question 4. ``Cohabit'' doesn't carry with it the stigma of terms 
our parents used for this concept. I can only imagine what today's term 
for ``shotgun wedding'' would be, if that concept even has meaning any 
more. Does our language indicate society's unwillingness to be more 
forceful in promoting marriage above other ``lifestyles''?
    4. Our language reflects the way culture has changed in the family 
realm. Some of the linguistic changes, such as ``nonmarital 
cohabitation,'' stem from the sometimes-misguided attempt of the social 
sciences to develop ``value-neutral'' categories. Other changes, such 
as the ``right to choice,'' come from advocacy groups. There is not 
much that can be done to shape the language once something becomes 
established. In my own work, I mostly have to follow the linguistic 
guidelines in current use within the social sciences. Where 
appropriate, however, I still tend to use such descriptive and 
meaningful terms as ``broken'' instead of ``alternative'' family, or 
family ``decline'' instead of family ``change.''
    Question 5. In the May 22, 2001 Washington Post, E.J. Dionne claims 
that the statistics revealing a decline in married two-parent families 
are misleading and exaggerated. He says ``the headlines are wrong. The 
two-parent family is still the norm in America.'' What is your 
reaction?
    5. E.J. Dionne was largely right in his assessment of the media's 
handling of the new Census Bureau numbers. The Census Bureau made some 
initial gaffes in their press release of the data and these were then 
compounded by many journalists. The biggest problem was the use by the 
media of the Census category ``household'' to mean ``family.'' The 
media stressed that less than 25% of all households now contain married 
couples with children, but that is a little misleading. What one really 
wants to know is how many families (or family households) with children 
are headed by a married couple. And the answer to that is not 25% but 
72%!
    At the same time, Dionne's article itself was misleading: The 
``fading family'' is no myth, as he suggested. In 1960 the percentage 
of families with children headed by married couples was 93%, in 1990 it 
was 76%, today it is just 72%. Thus the downward trend has been steep 
and continuing. Although the divorce rate has declined a bit in recent 
decades, the percentage of all births that are out-of-wedlock has 
remained virtually the same in recent years at about one third (it even 
went up slightly last year). The most important problem today is 
probably the rapid increase in cohabiting couples with children. As of 
this writing, the Census Bureau has not given us the data on cohabiting 
couples with children, but from other surveys we know that it has grown 
enormously since 1990. As I mentioned in my testimony before the 
Committee, there is no tangible evidence yet that the fading family 
trend has turned around, although it slowed a little in the 1990s.
    I hope this further clarification of my hearing testimony is 
helpful, and I would of course be happy to answer any additional 
questions you or the other Members of the Committee might have.
            Very truly yours,
                                      David Popenoe        
                                 Professor of Sociology    
                     Co-Director, National Marriage Project
                                                 Rutgers University

                                <F-dash>

                   Center for Law and Social Policy
                                       Washington, DC 20036
                                                       June 6, 2001
Chairman Wally Herger
Subcommittee on Human Resources
Committee on Ways and Means
Washington, DC 20515
    Dear Chairman Herger:
    I received your letter of May 23 asking me to respond to follow up 
questions to my testimony provided at the hearing on marriage and 
welfare issues. I will first respond to your two specific questions and 
then make a general comment.
    Your two questions were: How many States are using TANF funds to 
operate fatherhood programs? Do States consider these programs to be 
pro-marriage programs? These apparently simple questions are in fact 
quite difficult to answer. There have been few systematic attempts to 
date to find out what is going on in the states on this issue, and 
these inquiries that have taken place have confronted two major 
difficulties.
    First, there is the problem of defining what is meant by the very 
broad term ``fatherhood programs.'' For example fatherhood programs can 
refer to media efforts to promote responsible, involved fatherhood for 
all fathers (unmarried, married, separated and divorced); to activities 
designed to encourage young men not to become fathers before they are 
ready to be responsible, and to community-based programs designed to 
provide specific services to noncustodial fathers, fathers in 
``fragile'' families and so forth.
    A second problem is that the broad range of programs and strategies 
being used by states to promote responsible fatherhood are scattered 
among different agencies and offices. Typically there is no central 
office or person who keeps track of what is going on and what funds are 
being spent on this issue.
    I will summarize below the information that is currently available 
from three different sources, the National Center on Children in 
Poverty, the Welfare Information Network and the National Conference on 
State Legislatures.
    1. The National Center for Children in Poverty (NCCP) published a 
report in 1999 titled Map and Track, State Initiatives to Encourage 
Responsible Fatherhood by Jane Knitzer and Stanley Bernard. This report 
was based on two surveys sent to all state governments, DC, Puerto Rico 
and the territories. The survey asked states to report on what policies 
and practices states were using that relate to responsible fatherhood. 
The survey asked about activities classified in five different 
categories:
    <bullet> Promoting public awareness about responsible fatherhood;
    <bullet> Preventing unwanted or too-early fatherhood;
    <bullet> Enhancing fathers as economic providers;
    <bullet> Enhancing fathers as nurturers; and
    <bullet> Promoting leadership capacity.
    The report found that all of the 43 of the states that responded 
reported at least one activity to encourage responsible fatherhood, and 
80% of the states reported that they had initiatives in four out of the 
five categories.
    In the NCCP survey states were also asked to report separately on 
whether they were using Welfare to Work to fund any of these programs, 
or TANF funds to provide services to noncustodial fathers of children 
receiving TANF funds. 17 of the 43 states that responded reported that 
they ``used Federal funds from the welfare law to fund access and 
visitation projects.'' Of the twenty-nine states reporting job-related 
activities for low income or unemployed fathers, thirteen said that 
their program is primarily for fathers of children receiving TANF and 
planned to use Welfare to Work moneys for these programs. (Stanley 
Bernard told me that the information states provided on these funding 
questions was not very complete or clear.)
    The findings of the NCCP report suggest that in general fatherhood 
initiatives were not designed to promote marriage, however it notes 
that many of the programs were beginning to become more sensitive to 
gender issues. A few were beginning to focus on domestic violence 
issues and teaching the fathers to respect the mothers of their 
children, and not abusing them physically, mentally or verbally. And 
those programs that primarily served non custodial/non resident fathers 
recognize that the mother was typically the ``gatekeeper of access to 
children and for a variety of reasons may often make it difficult for 
them to be with their fathers.'' (p.53.). Consequently a few of these 
programs provided mediation services, and increasingly programs were 
developing efforts to teach cooperative parenting between the mothers 
and fathers (sometimes referred to as ``team'' parenting).
    2. The Welfare Information Network, in collaboration with ACF, NGA, 
NCSL and APHSA maintains two data bases of state and local policies, 
programs and initiatives: the State Plan Database (see 
www.welfareinfo.org/SPD) and the State and Local Initiative Database 
(SLID) (for information contact April Kaplan at WIN). The State Plan 
Database reports services states provide for noncustodial parents using 
TANF funding. These services were classified into six categories:
    <bullet> employment/job search;
    <bullet> parenting skills training;
    <bullet> visitation/shared custody;
    <bullet> arrearage reduction;
    <bullet> peer counseling programs;
    As of November 2000, of the 41 states who provided data, 28 states 
reported that they provided services in at least one of these 
categories. The most popular statewide program was the Employment/Job 
Search category (15 states).
    I think it would be safe to say that these programs are not 
generally regarded as pro-marriage efforts. Services to noncustodial 
parents generally have three purposes: (i) to increase the earnings 
capacity of non-custodial fathers so they can be more reliable payors 
of child support; (ii) to provide parenting skills training and peer 
support so that fathers can have better relationships with their 
children; and (iii) to facilitate visitation in high conflict families. 
While these programs are not designed to promote marriageability, they 
could however have that affect, and anecdotal evidence suggests that in 
some individual circumstances this has been the case.
    3. The National Conference of State Legislatures has established an 
Advisory Committee on Responsible Fatherhood. Members of this committee 
and NCSL staff conducted an informal review of state and local 
activities through interviews, site visits and committee meetings. In 
2000, NCSL published a report Connecting Low-Income Fathers and 
Families: A Guide to Practical Policies written by Dana Reichert. One 
section of this Guide highlights the availability of TANF funds to 
support fatherhood activities and reports on several states that are 
using TANF funds for this purpose. These states include California, 
Florida, Missouri, Arizona, North Carolina, Ohio and Iowa. In addition 
the NCSL report notes that Welfare-to-Work funds are being used in a 
number of states to fund services to noncustodial parents who meet 
certain eligibility criteria.
    Finally, from the NCSL report and from conversations I have had 
over the past couple of years with program providers it appears that a 
few fatherhood programs are trying out approaches to helping young men 
who are not yet fathers, and those who are already fathers learn more 
about marriage and the benefits of marriage, and what skills and 
attitudes are needed to have successful relationships and long lasting 
marriages.
    Comment. I conclude with a few personal observations about your 
question as to whether fatherhood programs have the effect of 
encouraging low-income fathers to marry. My short answer is that in 
some cases they may, but not necessarily to the mother of their 
children.
    When fatherhood programs help noncustodial fathers, or fathers in 
``fragile'' families get jobs, become more responsible providers, and 
overcome other personal barriers (such as substance abuse, or 
tendencies to be violent) their relationships with their children's 
mother may improve. In some circumstances this may lead the parents to 
marry (and hopefully have a good lasting marriage).
    However we need to be realistic about the chances that this will 
happen. The experience of the Faire Shares Demonstration Projects and 
other programs suggests that by the time many of these fathers have 
been referred to or are enrolled in a fatherhood program their 
relationships with their child(ren)'s mother, even when it was 
originally reasonably good, has deteriorated considerably. In these 
situations it is clearly very difficult to reestablish the trust, 
goodwill and motivation necessary to move them toward marriage. Thus 
however successful the father's ``rehabilitation'' may be, the chances 
of the father marrying his children's mother may be slight. In addition 
each parent has often moved on to form new partnerships. In these cases 
the best that can be hoped for is that the parents will actively 
cooperate around the rearing of the child(ren) they have in common, 
which is a very important and positive goal.
    In conclusion, I think it's fair to say that fatherhood programs 
certainly have the potential to be ``pro-marriage'' through activities 
that help to make them more ``marriageable''. However few of the 
programs at this point have an explicit emphasis on promoting marriage 
in their curriculum since marriage to their children's mother is not 
viewed as a realistic or desired option for most of their participants. 
However participating in a fatherhood program may make the father a 
more attractive marriage partner to, and strengthen the relationship 
with, their current partner. Thus while these fathers may not marry 
their children's mother, they may marry their current (or a future) 
partner.
    On a more optimistic note, the Fragile Families study suggests that 
if fatherhood programs were to explicitly target young unmarried 
couples around the time of birth they might be more successful in 
stabilizing the couple's relationships; this could lead a number of 
young parents to marry in some cases.
    Carefully designed and evaluated programs are very much needed to 
learn more about what kinds of additional information, services and 
supports they should provide these young parents that might encourage 
and support marriage. In my judgment it would be important to include 
services designed specifically for the young mothers as well as for the 
fathers and services that focus on the couple's relationship. As Kathy 
Edin's research suggests many of these mothers have had poor 
experiences with their own fathers and with men throughout their lives. 
As a result they have a great deal of mistrust of men in general, and 
may have never known a couple who had a successful marriage.
    One last point, some fatherhood programs are now seeking advice and 
help from experts in domestic violence. I believe any fatherhood 
program that wants to develop a more explicit emphasis on marriage, 
should be encouraged to seek advice, consultation (and perhaps even 
collaborate with) practitioners and educators who are expert in helping 
build relationships skills and strengthening marriage.
    I hope my responses have been helpful. I welcome any additional 
questions you may have.
            Yours sincerely,
                                              Theodora Ooms
                                              Senior Policy Analyst

                                <F-dash>

        National Partnership for Women and Families
                                     Washington, D.C. 20009
                                                       June 5, 2001
Honorable Wally Herger,
Chairman, Subcommittee on Human Resources
Committee on Ways and Means
B-317 Rayburn House Office Building
Washington, DC 20515
    Dear Congressman Herger:
    Thank you for your follow-up questions to the National 
Partnership's testimony at your recent hearing on marriage and welfare 
issues. We appreciated the invitation to testify at the hearing and 
welcome the opportunity to offer our perspective on important welfare 
policy questions. In your letter dated May 23, 2001, you posed three 
follow-up questions. Those questions are listed below and our response 
follows each question.
    1. In your testimony, you recommend that welfare policies should be 
``neutral on the subject of family formation.'' Haven't government 
programs discouraged marriage in a variety of ways (taxes, ``man in the 
house'' rules, etc.)? Haven't these factors contributed to rising out-
of-wedlock births and declines in marriage which contributes to 
negative effects on child well-being? In short, is current policy 
``neutral'' or do we need to do a better job promoting marriage just to 
reach neutrality?
    The National Partnership believes that welfare policies should be 
neutral on the subject of family formation. Forcing families in need to 
compose themselves in a specific family structure as a condition of 
receiving welfare assistance would ultimately have the effect of 
denying vital benefits to families at their most vulnerable. As we 
stated in our testimony, to the extent that past policies have 
influenced the composition of families receiving welfare assistance, we 
ought not to repeat those same mistakes. Instead, we should concentrate 
on developing policies that enable families to become more economically 
secure, whatever their structure. We ought not to have disincentives to 
marriage, but we ought not to coerce individuals into getting married 
either.
    In terms of broader concerns about the rise in out-of-wedlock 
births and declines in marriage over the past few years, we believe 
that there are a variety of factors that have contributed to these 
changes--including a complex array of societal and economic shifts--
that go well beyond the different welfare policies that have been in 
place.
    2. I noted your suggestion (page 1) that ``the mission of welfare 
reform should be to reduce poverty and help people achieve economic 
independence, not to engage in social engineering or discrimination 
against families that don't meet a particular ideal about family 
composition.'' Two million children have been removed from poverty 
since the welfare law passed, so the law has been successful on that 
front even though ``reducing poverty'' was not one of TANF's explicit 
purposes. However, as several witnesses mentioned at the hearing, three 
of the four basic purposes of TANF do involve promoting marriage, 
discouraging illegitimacy, and promoting the formation of two-parent 
families, which you seem to deride as ``social engineering''. Are you 
disagreeing with the basic purposes of TANF? Should those three basic 
purposes (including marriage and family formation) be removed, in your 
opinion? Should States operating programs that promote marriage or 
discourage out-of-wedlock pregnancy be barred from using TANF dollars?
    The National Partnership believes that the one point that should be 
uncontroversial and enjoy widespread agreement is that the fundamental 
purpose of a temporary assistance for needy families program is to help 
families in need become economically independent and ultimately escape 
poverty. The decline in the poverty rate over the last few years has 
been an encouraging development that can be traced to a variety of 
factors, including a strong economy and important policy changes such 
as increased availability of the Earned Income Tax Credit. At the same 
time, however, research indicates that many families in the lowest 
economic brackets are worse off today than they were five years ago. As 
we noted in our testimony, recent data, for example, reveals that 
between 1995 and 1999 the inflation-adjusted disposable income of 
female-headed families with the lowest incomes actually declined by 4 
percent. And, analysis of Census data indicates that while the number 
of children in poverty has decreased, many children who remain poor 
have grown poorer. The Center on Budget and Policy Priorities reports 
that in 1998 and 1999 the average poor child fell further behind the 
poverty line than in any year since 1979. Thus, while there has been 
progress in poverty reduction, there is still a great deal of work to 
do.
    The National Partnership supports policies that promote strong, 
healthy families, regardless of their structure. To that end, we 
support efforts in the context of TANF to provide supports to low 
income married-couple families and eliminate policies that make it 
difficult for these families to stay together. We also support programs 
that help individuals make responsible choices about their personal 
relationships and their decisions to form families. Rather than 
promoting marriage as a ``quick-fix'' economic solution, we believe 
that helping individuals make sound, reasonable decisions about their 
lives will make marriages and families stronger, healthier, and more 
stable. Thus, any ``marriage promotion'' policies must be considered 
with the utmost care. Using marriage as an imperfect band-aid to cure 
the complex problem of poverty ultimately may do more harm than good. 
Most importantly, we also believe that TANF funds must be used to 
provide support to all families in need and not just those families 
that conform to a preferred family structure. Poor families headed by 
single parents or other relatives also need assistance to ensure that 
they have the best chance to leave poverty and find economic security.
    3. In general, do you agree that married, two-parent households are 
the best environment in which to raise children? Do you know of any 
data that, in general, dispute that claim?
    As we stated in our testimony, very few would disagree that having 
two parents in the home working together to provide a healthy and 
nurturing environment can be an ideal setting for children. But the 
reality is that many children do not live in that type of environment. 
Thus, we believe that it is essential to focus on providing a full 
range of supports--such as quality healthcare, education, and 
childcare--to improve the well-being of low-income children regardless 
of family composition. Making these types of supports available to all 
families in need will maximize the chances of children growing up in a 
healthy, positive family environment.
    Further, focusing on ways to promote strong, healthy families--
rather than simply promoting marriage as a panacea--is particularly 
crucial because many low-income women have turned to welfare as their 
only source of support when trying to escape domestic violence or other 
abusive situations. These clients often need access to counseling and 
other forms of assistance, such as training opportunities, to get back 
on their feet and support themselves and their families. Coercing 
clients to get married without regard to whether there is a positive 
foundation for marriage will do little to promote healthy and stable 
marriages, healthy and stable families, or child well-being. We believe 
that research studies support the view that children are better off in 
non-abusive or non-disruptive family settings that can offer a 
nurturing, supportive environment.
    Again, thank you for the opportunity to offer these comments. We 
look forward to working with you in the near future.
            Sincerely,
                                             Laurie Rubiner
                       Vice President for Program and Public Policy

                                <F-dash>


    [Submissions for the record follow:]

  Statement of Alternatives to Marriage Project, Boston, Massachusetts

    As a national organization for unmarried people, we believe that 
the use of Temporary Assistance to Needy Families (TANF) funds to 
promote marriage and discourage ``illegitimacy'' is not in the best 
interests of Americans who live in poverty.
    One family form is marriage, and we agree that marriage should be 
supported. We believe, however, that a marriage-promoting agenda does 
real damage in a nation whose strength is rooted in diversity and 
tolerance. We believe that the well-being of children is critical to 
our nation's future, and that to that end, all families should be 
valued and all committed relationships supported. We do not believe it 
is possible for public policy to promote marriage without 
simultaneously stigmatizing people who are divorced, withholding 
resources from single parents, shaming unmarried couples, and ignoring 
the needs of gay, lesbian, and bisexual people for whom marriage is not 
an option. Such policies disadvantage the children growing up in such 
families, and deepen social inequality.
    The American family is indeed in profound transition. Although 
divorce rates have receded from their 1981 peak, marriage is not 
gaining ground. Between 1990 and 2000, the number of families 
maintained by women without legally married partners in the home 
increased three times faster than did married-couple families. 
``Cohabitation is the fastest-growing living arrangement in modern 
society,'' observes Johns Hopkins sociologist Andrew Cherlin. It is far 
from a childless state; scholars Larry Bumpass and Hsien Hen Lu of the 
University of Wisconsin note that, ``a large share of children born to 
supposedly `single' mothers today are born into two-parent 
households.'' These mothers are legally single, but are living and 
parenting together with an unmarried partner.
    Although much of the testimony delivered at your subcommittee 
meeting paints a bleak portrait of these families, in reality there are 
millions of happy, healthy, unmarried families whose members are 
neither ``illegitimate'' nor a threat to the social fiber of our 
country. The notion that somehow compelling them to marry as a social 
cure-all is simplistic and unrealistic. Longer lifespans, the economic 
independence of women, and later ages at marriage have all contributed 
to reducing the importance of marriage in everyday life. This is true 
in nearly every industrial nation, not just the United States.
    ``Under these circumstances, putting all our eggs in the leaky 
basket of a campaign to reinstitutionalize marriage is a risky strategy 
and may even backfire,'' writes family historian Stephanie Coontz in 
Newsday (5/27/01, page B8). Abundant research shows that the children 
of teen moms who marry the father after birth often do worse than those 
whose marital status remains unchanged, probably because the basis for 
the marriage is not a sound one. Researchers overwhelming agree that 
high-conflict marriages can do more damage to children than divorce. 
Promoting marriage is an appealing quick fix that ignores the deep 
complexity of family quality and process, which turns out to be far 
more important to children's well-being than family form.
    The real question here is what do real-world American families need 
in order to thrive? We believe that the first item on the agenda should 
be to reduce the economic stresses that contribute far more than any 
other factor to family instability. Consider the Minnesota Family 
Investment Program (MFIP), which allowed parents on welfare to continue 
to collect benefits as long as their earnings did not go over 40% of 
the poverty threshold, or about $18,200 for a family of three. An 
unexpected outcome of the pilot program was that MFIP clients were more 
likely to get and remain married than people enrolled in the standard 
welfare system. One place to start is with the minimum wage, currently 
averaging $5.15 per hour, or $10,712 per year. According to the 
Department of Labor, if minimum wage had kept up with inflation over 
the last thirty years, it would be $7.80 an hour today. We encourage 
the Ways and Means Committee to promote an hourly wage or annual income 
that enables an individual to meet his or her family's basic needs.
    Helping adults become gainfully employed is another legitimate way 
to foster stable two-parent households. Not surprisingly, women are 
three times as likely to want to marry the father of their child if he 
holds a job. Job-training programs, affordable quality child care, 
health care, transportation and paid parental leave are all crucial 
ingredients of a stable family life. Higher drop-out rates and more 
health problems among children are the negative effects of poverty, not 
marital status.
    In addition to a living wage and basic benefits, we believe that 
other laws and policies should be available to the full range of 
American families. These include domestic partner benefits, family and 
medical leave, hospital visitation rights, and survivors' benefits. 
Like public assistance, health care and benefits should not be 
contingent on one's relationship status, marital status, or sexual 
orientation. Although such policy changes will take time to effect, 
they are essential if TANF block grant requirements are to address the 
heart of economic and social injustice.
    Given today's diversity of family forms, it is morally problematic 
and logistically difficult to restrict social and economic support to 
families headed by married couples. It ignores the forces of history 
and the complex reality of American family life, and it penalizes those 
who most need the assistance of fair and enlightened government 
policies.
    Ultimately, diverting welfare money to programs that promote 
marriage denies basic services to millions of American children. 
Programs to promote marriage disregard the fact that marriage is not 
always the best choice, and may actually do harm, especially to women 
who are experiencing domestic violence. We hope the committee shares 
our support of principles that work toward creating healthy, loving 
relationships and families for all people, married and unmarried.
    The Alternatives to Marriage Project (www.unmarried.org) is a 
national organization for unmarried people, including people who choose 
not to marry, cannot marry, or live together before marriage. We work 
for greater understanding and acceptance of unmarried people.

                                <F-dash>


 Statement of NOW Legal Defense and Education Fund, New York, New York

    NOW Legal Defense and Education Fund (``NOW Legal Defense'') 
appreciates the opportunity to submit this testimony on the issue of 
welfare reform, marriage and family formation issues. We adhere to our 
long held belief that anti-poverty efforts must focus on initiatives 
that will empower individuals to become economically self-sufficient 
and permanently free them from poverty.
    NOW Legal Defense is a leading national not-for-profit civil rights 
organization with a 31-year history of advocating for women's rights 
and promoting gender equality. Among NOW Legal Defense's major goals is 
securing economic justice for all. Throughout our history, we have used 
the power of the law to advocate for the rights of poor women. We have 
appeared before the Supreme Court of the United States in both gender 
discrimination and welfare cases, and have advocated for protection of 
reproductive and employment rights, increased access to childcare, and 
reduction of domestic violence and sexual assault.
    NOW Legal Defense addresses welfare reform reauthorization from the 
perspective of ending women's poverty. To this end, we have convened 
the Building Opportunities Beyond Welfare Reform Coalition (BOB 
Coalition), a national network of local, state, and national groups, 
including representatives of women's rights, civil rights, anti-
poverty, anti-violence, religious and professional organizations.
    Our testimony focuses on the policy reasons that government 
involvement in personal issues of family formation will not reduce 
poverty. First, focus on marriage and family formation issues sidesteps 
the underlying causes of poverty, particularly the poverty of women and 
children--such as lack of job training and education, discrimination, 
violence and lack of childcare. Second, government pressure with 
respect to highly personal decisions such as marriage is a dangerous 
precedent, not just for poor women, but for all citizens who believe 
that liberty entails making fundamental personal decisions without 
governmental interference. While we support efforts to make public 
benefits equally available to two parent and single parent families, we 
oppose any effort to discriminate against single parent families in the 
distribution of precious public benefits.
I. Federal and State Marriage Proposals
    Both Federal and State initiatives with respect to marriage are 
alarming in their invasion of personal privacy and, at the same time, 
raise serious questions about the effective use of scarce government 
funds and the competence of government to administer programs dealing 
with intimate decisions such as marriage. We are particularly concerned 
that TANF funds will be diverted away from desperately needed economic 
supports, childcare and job training into questionable programs 
unlikely to have any positive effect in reducing poverty.
    Federal Initiatives: Proposals have been put forth to create a new 
Federal Office of Marriage Initiatives within the U.S. Department of 
Health and Human Services' Administration for Children and Families 
(ACF) that would target TANF, Child Support Enforcement, Family 
Planning, and other program dollars to pro-marriage initiatives. In 
addition, Congress is considering legislation relating to marriage and 
welfare reform. Those bills include the Responsible Fatherhood Act of 
2001, (S. 653/H.R. 1300), the Strengthening Working Families Act of 
2001 (S. 685) and the Child Support Distribution Act of 2001 (H.R. 
1471). The promotion of marriage requirement is included in all 
proposed bills, despite the experience and advice of community based 
fatherhood and family programs in low-income communities, especially 
communities of color that such an emphasis will frustrate their work.
    Although we oppose inclusion of marriage promotion as a goal in 
proposed fatherhood initiatives, we applaud provisions in both S. 685 
and H.R. 1471 that include crucial child support reforms, including, 
among others, requiring states to pay current child support to families 
who are no longer on welfare; giving states an option to convert state-
owed arrearages to the custodial parent; and giving states the option 
to pass through child support to families currently receiving TANF 
benefits without being penalized by the Federal government (for 
families on welfare 5 years or less). The bills also provide financial 
incentives to states that choose these options and that disregard the 
amount of child support when determining the families' TANF 
benefit.<SUP>1</SUP> If Congress wishes to promote marriage, reforming 
child support laws and providing supports to families is the most 
appropriate method of doing so.
---------------------------------------------------------------------------
    \1\ In addition, S. 685 increases funding for the Social Services 
Block Grant, simplifies the Earned Income Tax Credit (expanding the 
definition of dependents and providing a cost of living adjustment for 
phase-out) and includes a new employer tax credit to encourage 
employer-provided childcare.
---------------------------------------------------------------------------
    State Initiatives: Recommendations have also been presented 
regarding state marriage promotion and divorce reduction plans. These 
recommendations include: creating State Offices of Marriage 
Initiatives; using TANF funds to reduce non-marital births and divorce 
by one-third within the next ten years; increasing the distribution of 
TANF funds to faith based organizations for the provision of faith-
based marriage programs; and expanding chastity programs.<SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ Patrick F. Fagan, Heritage Foundation, Testimony Before the 
Committee on Ways and Means Subcommittee on Human Resources: the Fed. 
and State Gov'ts, Welfare and Marriage Issues (2001).
---------------------------------------------------------------------------
    Since PRWORA, states have been free to use TANF dollars to support 
marriage and two-parent families. One way in which states do this is by 
providing benefits to two-parent families. Currently 5% of families 
receiving TANF have two or more adults, and 18% of adult recipients are 
married and living together. At least fifteen states provide assistance 
to two-parent families through separate State programs.<SUP>3</SUP> 
Some states have begun using TANF dollars specifically to encourage an 
increase in marriage and a reduction in non-marital births and 
divorces. For example:
---------------------------------------------------------------------------
    \3\ Temp. Assistance for Needy Families (TANF) Program, U.S. Dept. 
of Health and Human Services, Third Annual Report to Congress 111 
(2000) [hereinafter TANF Report to Congress].
---------------------------------------------------------------------------
    <bullet> In Arizona, a Marriage Initiative was passed in April, 
2000 that allocates one million TANF dollars for marriage skills 
courses provided by community-based organizations, provides vouchers to 
make marriage skills courses available to low-income couples, and 
establishes a Marriage and Communication Skills Commission. The state 
also has a $3.5 million abstinence-until-marriage program and Covenant 
Marriage legislation under which couples promise to stay married for 
life and renounce their legal right to a no-fault divorce.
    <bullet> Oklahoma has said it plans to earmark 10 percent of the 
state's TANF surplus dollars to fund a $10 million program to encourage 
marriage and reduce divorce. The implementation of the Marriage 
Initiative includes a specific religious track under which state's 
religious leaders sign a marriage covenant, committing themselves to 
encourage pre-marital counseling for couples in their churches and 
other houses of worship.
    <bullet> Utah recently earmarked $600,000 of its TANF surplus funds 
for the promotion of marriage education over the next two years. The 
legislature formed a Marriage Commission and raised the minimum 
marriage age from 14 to 16, and Governor Leavitt presides over an 
annual Marriage Week each February.
    <bullet> Wisconsin has created a ``Community Marriage Policy'' and 
uses TANF dollars to fund a coordinator to work with local clergy 
across the state to assist in the development of community-wide 
standards for marriage solemnized by members of the clergy in that 
community.<SUP>4</SUP>
---------------------------------------------------------------------------
    \4\ Department of Workforce Development, State of Wisconsin, 
Revisions to Wisconsin State Plan, at http://www.dwd.state.wi.us/desw2/
amendment%5Flist.htm
---------------------------------------------------------------------------
    Again, we believe that states' efforts to support fragile families 
are laudable. However, programs such as those described above may 
divert funds from needed benefits programs or directly intrude on 
private decision-making, going beyond appropriate public policy. At the 
very least, Congress should forego any federal mandates in this area 
until the impact of these programs has been carefully and independently 
evaluated.
II. Welfare Reform Reauthorization Should Not Focus on Marriage
    Welfare reform reauthorization should focus on ending poverty for 
all. In order to accomplish that goal, it must focus on the barriers to 
economic self-sufficiency rather than marriage. It should invest in 
education, training and work supports to help families and individuals 
get to a point where they can survive and prosper, whether married or 
not.
    A. Reauthorization should not coerce low-income women into giving 
up their fundamental rights to privacy. The Supreme Court has long 
recognized that an individual's right to privacy regarding decisions to 
marry and reproduce as ``one of the basic civil rights of man, 
fundamental to our very existence and survival.'' <SUP>5</SUP> 
Significantly, this constitutional right equally protects the choice 
not to marry.<SUP>6</SUP> Reproductive privacy, initially honored as a 
right of marital privacy,<SUP>7</SUP> has been firmly established as a 
protected right of the individual, irrespective of marital 
status.<SUP>8</SUP> According to the Supreme Court, ``if the right of 
privacy means anything, it is the right of the individual, married or 
single, to be free from unwarranted governmental intrusion into matters 
so fundamentally affecting a person as the decision whether to bear or 
beget a child.<SUP>9</SUP> This right of privacy extends to an 
individual's decision whether to have an abortion or not <SUP>10</SUP> 
and protects individuals from government imposition of substantial 
obstacles in the path of reproductive choice.<SUP>11</SUP>
---------------------------------------------------------------------------
    \5\ Skinner v. Oklahoma ex rel. Williamson, 316 U.S. 535, 541 
(1942).
    \6\ Loving v. Virginia, 388 U.S. 1, 12 (1967).
    \7\ Griswold v. Connecticut, 381 U.S. 479, 495 (1965).
    \8\ Eisenstadt v. Baird 405 U.S. 438, 453-54 (1972).
    \9\ Id. at 453.
    \10\ Roe v. Wade, 410 U.S. 113 (1973).
    \11\ Casey v. Planned Parenthood, 502 U.S. 1056 (1992).
---------------------------------------------------------------------------
    B. Congress should not discriminate against non-marital families. 
Our country consists of diverse family structures: those in which 
parents are married, divorced, remarried, widowed, single, gay and 
lesbian. In fact, according to the United States Census, there are 
currently more non-marital than marital families in our 
country.<SUP>12</SUP> These families that have built loving, healthy 
relationships with their children and cooperative relationships with 
other caregivers deserve to be valued and respected.
---------------------------------------------------------------------------
    \12\ United States Census Bureau, U.S. Dept. of Commerce, U.S. 
Dept. of Commerce News (May 15, 2001), http://www.census.gov/Press-
Release/www/2001/cb01cn67.html.
---------------------------------------------------------------------------
    Women and their children represent the vast majority of people 
living in poverty and on welfare.<SUP>13</SUP> A confluence of factors, 
including labor market discrimination, primary care responsibility, the 
lack of quality, accessible, affordable childcare, domestic violence 
and divorce has resulted in women's disproportionate poverty. Unequal 
pay means that women make 75 cents for every white man's every dollar. 
This impact is even greater on African American women, who make 65 
cents on that dollar, and even more so for Latinas, who make only 54 
cents. As a result, women of color are disproportionately 
poor.<SUP>14</SUP> Women and their children are also the majority of 
people on welfare.
---------------------------------------------------------------------------
    \13\ United States Census Bureau, Current Population Reports, 
Series No. p60-210, Poverty in the United States: 1999 (2000), 
available at http://www.census.gov/pord/2000pubs/p60-210.pdf.
    \14\ Id. at vi.
---------------------------------------------------------------------------
    Several welfare reform reauthorization proposals advocate for 
discriminatory treatment against non-married families (the majority of 
families in need of public assistance.) Wade Horn, the current nominee 
for Assistant Secretary for Family Support at the Department of Health 
and Human Services, has proposed that pregnant women on welfare give up 
their child for adoption to married two-parent families.<SUP>15</SUP> 
Proposals have been floated that would allow states to deny benefits to 
single parent families, or to pay out benefits to married couples 
first, and then give any remaining benefits to single parent families. 
With the threat of reduced reauthorization funding, this is a 
frightening proposition to the majority of families on welfare who are 
single mothers and their children.
---------------------------------------------------------------------------
    \15\ Wade Horn & Andrew Bush, the Hudson Institute, Fathers, 
Marriage, and Welfare Reform, text associated with note 95 (1997).
---------------------------------------------------------------------------
    The racial composition of welfare has shifted since welfare reform. 
In 1996, Whites represented 35.9%, African-Americans 36.9%, Hispanics 
20.8%, and Asians 3.0% of the caseload.<SUP>16</SUP> By 1999, Whites 
had dropped to 30.5%, while African Americans rose slightly to 38.3%, 
and Hispanics grew to 24.5%.<SUP>17</SUP> Asians increased slightly to 
3.6% while Native Americans remained essentially constant, increasing 
from 1.4 to 1.5%.<SUP>18</SUP> Thus today, women of color make up two-
thirds of welfare recipients and in 20 states are more than three-
fourths of those on welfare.<SUP>19</SUP> Policies targeted to 
influence low-income women's behavior thus have a disproportionate 
impact on women and communities of color.
---------------------------------------------------------------------------
    \16\ TANF Report to Congress, supra note iii, at 115.
    \17\ Id.
    \18\ Id.
    \19\ TANF Report to Congress, supra note iii, at 127.
---------------------------------------------------------------------------
    This is especially insidious when viewed in light of a long history 
of discriminatory practices aimed at denying African-American's rights 
to reproduce and marry, including the denial and destruction of the 
African-American family during slavery, the long delay in defining rape 
against African-American women a crime, the refusal to recognize 
African-Americans' right to marry at all, followed by the denial of the 
right to marry if the choice of spouse was a white person.<SUP>20</SUP> 
Against that backdrop, practices that manipulate the reproductive and 
marital rights of African-American women are especially suspect.
---------------------------------------------------------------------------
    \20\ See Loving v. Virginia, 388 U.S. 1 (1967).
---------------------------------------------------------------------------
    C. Domestic Violence. When considering marriage as a solution for 
poverty, Congress must face the reality that violence against women is 
one of the main causes of women's poverty. Domestic violence makes 
women poor and keeps them poor. The majority of battered women attempt 
to flee from their abusers.<SUP>21</SUP> Many end up on welfare or 
homeless. Study after study demonstrates that a large proportion of the 
welfare caseload (consistently between 15% and 25%) consists of current 
victims of serious domestic violence.<SUP>22</SUP> Between half to two 
thirds of the women on welfare have suffered domestic violence or abuse 
at some time in their adult lives.<SUP>23</SUP> Over 50% of homeless 
women and children cite domestic violence as the reason they are 
homeless.<SUP>24</SUP>
---------------------------------------------------------------------------
    \21\ See Patricia Horn, Beating Back the Revolution, Dollars and 
Sense, Dec. 1992, at 21.
    \22\ See Jody Raphael & Richard M. Tolman, Taylor Inst. and the 
Univ. of Mich. Research Dev. Ctr. on Poverty, Risk and Mental Health, 
Trapped by Poverty, Trapped by Abuse: New Evidence Documenting the 
Relationship Between Domestic Violence and Welfare, 12 (1997).
    \23\ See Mary Ann Allard et al., McCormack Inst., In Harms Way? 
Domestic Violence, AFDC Receipt and Welfare Reform in Mass., 12, 14 
(1997) (64.9% of 734 women); Ellen L Bassuck et al., The 
Characteristics and Needs of Sheltered Homeless and Low-Income Housed 
Mothers, 276 JAMA 640 at 12, 20 (1996) (61.0% of 220 women); William 
Curcio, Passaic County Study of AFDC Recipients in a Welfare-to-Work 
Program: A Preliminary Analysis, 12, 14 (1997) (57.3% of 846 women).
    \24\ See Joan Zorza, Woman Battering: A Major Cause of 
Homelessness, 28 Clearinghouse Rev. 383, 384-85 (1994).
---------------------------------------------------------------------------
    For these women and their children, the cost of freedom and safety 
has been poverty. Marriage is not the solution to their economic 
insecurity. For them marriage could mean death; it will almost 
undoubtedly mean economic dependence on the abuser. Many battered women 
are economically dependent on their abusers; 33-46% of women surveyed 
in five studies said their partner prevented them from working 
entirely.<SUP>25</SUP> Those who are permitted to work fare little 
better. Ninety-six percent reported that they had experienced problems 
at work due to domestic violence, with over 70% having been harassed at 
work, 50% having lost at least three days of work a month as a result 
of the abuse, and 25% having lost at least one job due to the domestic 
violence.<SUP>26</SUP> Thus, battered women are overwhelmingly either 
totally economically dependent on the abuser or are economically 
unstable due to the abuse.
---------------------------------------------------------------------------
    \25\ See United States General Accounting Office, Report to 
Congressional Committees, Domestic Violence: Prevalence and 
Implications for Employment Among Welfare Recipients, 7 (1998).
    \26\  See Joan Zorza, Woman Battering: High Costs and the State of 
the Law, 25 Clearinghouse Rev. 421 (1991).
---------------------------------------------------------------------------
    Those who would promote marriage in every circumstance sometimes 
claim that marriage decreases domestic violence. This idea may result 
from a lack of understanding regarding the dynamics of domestic 
violence, separation and divorce. Domestic violence is about power and 
control. Marital separation is experienced as a loss of control by the 
batterer, and thus separation or divorce frequently incites batterers 
to increase the danger of abuse for the battered women.<SUP>27</SUP> 
Because much of this violence against the survivor is perpetrated 
before and after visits, children's exposure to this violence is 
increased.<SUP>28</SUP> While supervised visitation centers have been 
utilized as an avenue for allowing visitation between batterers and 
their children, there are not enough supervised visitation centers and 
in many cases the security in those centers is inadequate, staff is not 
trained in domestic violence, and women and children are abducted, 
harmed, or killed. Thus, even supervised visitation centers are not 
always safe.
---------------------------------------------------------------------------
    \27\ See Einat Peled, Parenting by Men Who Abuse Women: Issues and 
Dilemmas, Brit. J. Soc. Work, Feb. 2000, at 28.
    \28\ See id.
---------------------------------------------------------------------------
    Congress has repeatedly recognized that domestic violence is a 
serious national problem and has made efforts to minimize the severe 
risk to women and children from that violence, most recently by 
reauthorizing the Violence Against Women Act last year. We urge you to 
reject marriage and family formation proposals that ignore the very 
real risks of violence. Precious federal dollars should not go to 
programs that may contribute to the problem of violence against women 
that this Congress has taken great strides to ameliorate.
    D. Marriage does not address the root causes of women's poverty and 
is not a reliable long-term solution to women's poverty. In general, 
two incomes are better than one and thus more likely to move people off 
of welfare. But that fact is not sufficient to support an argument that 
marriage will lead to an end to family poverty. Because of death, 
divorce, and job instability, marriage does not provide insurance of 
women's economic security. Approximately 40% of marriages end in 
divorce <SUP>29</SUP> and 12% due to the husband's death.<SUP>30</SUP> 
Even those who conceive of marriage as the solution to poverty 
recognize that when marriages fail, women fall into poverty while men 
do not. As noted above, the cause of the failure of many marriages is 
domestic violence.
---------------------------------------------------------------------------
    \29\ The National Marriage Project, Annual Report: the State of Our 
Unions: the Social Health of Marriage in America, 2000 (June 2000), 
available at http://marriage.rutgers.edu/NMPAR2000.pdf.
    \30\ United States Census Bureau, Current Population Reports, 
Series No. P20-514, Marriage Status and Living Arrangements: March 1998 
(Update) (2000), available at http://www.census.gov/prod/99pubs/p20-
514u.pdf.
---------------------------------------------------------------------------
    The reasons that women, not men, experience an economic downfall 
outside of marriage include: discrimination in the labor market, 
primary care giving responsibility without attendant employment 
protections, the lack of quality, affordable, accessible childcare, and 
domestic violence. Without addressing the factors that keep women from 
being economically self-sufficient, marriage and family formation 
advocates are merely proposing to shift women's ``dependence'' from the 
welfare system to marriage. With domestic violence and divorce at their 
current rates, such marriage is not the answer.
    The Minnesota Family Investment Program (MFIP) supports this policy 
approach. MFIP covered welfare-eligible single and two-parent families 
and focused on participation in employment-focused services for long-
term welfare recipients combined with financial incentives to encourage 
and support work. These work supports include childcare, medical care, 
and rewarding work by helping the family to develop enough earning 
power to survive financially without cash assistance before cutting 
them off. Studies compared former AFDC recipients to those on MFIP and 
found that MFIP individuals were 40 percent more likely to be married 
at the 36-month follow up, and nearly 50 percent less likely to be 
divorced after five years. The outcomes of the MFIP program suggest 
that allowing families to combine welfare and work, and providing work 
supports to help individuals become economically secure, strengthened 
marriage and reduced the chance of divorce.<SUP>31</SUP>
---------------------------------------------------------------------------
    \31\ Manpower Demonstration Research Corp. (MDRC), chap. 6, 
available at http://www.mdrc.org/Reports2000/MFIP/MFIP-Vol-1-Adult.pdf.
---------------------------------------------------------------------------
III. Welfare Reform Reauthorization Should Focus on Ending Poverty
    Welfare reform reauthorization must focus on ending poverty. Most 
of the families who have left welfare remain in poverty and the bottom 
20% of families are doing worse economically than they were before 
welfare reform. Families who have left welfare and are working are 
still by and large poor. Similarly, families who are reliant on welfare 
are subsisting on income well below the poverty line. Poverty reduction 
rather than reduction of the welfare rolls must be the major 
legislative goal of reauthorization. At a minimum, the TANF block grant 
needs to be reauthorized at the present funding levels to provide work 
supports to support families who lose jobs in case of recession. 
Moreover, lifetime time limits do not make sense in the light of what 
we know now about the welfare caseload: those who can get jobs have 
done so; those remaining on the rolls need more time to prepare for 
non-supported work. A recession may mean that those who did exactly 
what they were supposed to do--get jobs and leave welfare--will lose 
their jobs and need income support. Time limits should not deprive 
families of assistance that they need to survive, especially when all 
other program requirements such as work outside the home are met. A 
blueprint for reauthorization with the goal of ending women's poverty 
by addressing the issues that cause poverty is attached as an appendix 
to this testimony.
Conclusion
    The solution to poverty is not to interfere with basic privacy 
rights of poor women but rather to focus on economic self-sufficiency. 
Decisions regarding marriage and childbearing are among the most 
private decisions an individual can make. Congress must not use women's 
economic vulnerability as an opportunity to control their decisions 
regarding marriage and childbearing. Fighting poverty and promoting 
family well-being will depend on positive governmental support for 
policies that support low income parents in their struggle to obtain 
and retain good jobs while at the same time providing the best possible 
care for their children. It is important to focus government resources 
and efforts on reduction of poverty, not on interference with personal 
family formation decisions.

                                APPENDIX

A BLUEPRINT FOR SOLUTIONS TO WOMEN'S POVERTY--GOALS FOR REAUTHORIZATION
Welfare Reform Reauthorization Should Insure Family Privacy
    <bullet> Eliminate promotion of marriage as an anti-poverty goal;
    <bullet> Recognize that marriage is not the solution to poverty and 
focus on empowering individuals to have the economic freedom to choose;
    <bullet> Ensure that welfare reauthorization does not discriminate 
against families;
    <bullet> Eliminate the family cap in all states;
    <bullet> Replace ``Abstinence-Only'' programs with comprehensive 
sex education programs;
    <bullet> Repeal the ``Illegitimacy'' Reduction Bonus;
    <bullet> Make paternity establishment voluntary, not required;
    <bullet> Support child support and EITC reforms.
Welfare Reauthorization Should Address the Causes of Women's Poverty
    Insure Movement Into Jobs That Will Lift Families Out of Poverty, 
Employment Rights, and Workplace Protections by:
    <bullet> Insuring use of the Self-Sufficiency Standard to measure 
outcomes for welfare leavers.
    <bullet> Targeting good jobs that are available in the local 
economy and provide education and training necessary to obtain and 
retain those jobs;
    <bullet> Allowing education and training to count as work 
participation under TANF.
    <bullet> Protecting basic employment rights for TANF recipients.
    <bullet> Stopping the time limit clock for working families who 
still need income support.
    Address Violence in the Lives of Poor Women by:
    <bullet> Mandating that all states implement the Family Violence 
Option.
    <bullet> Providing incentives for successful implementation of 
programs for victims of domestic and sexual violence.
    <bullet> Prohibiting sanctions against victims of domestic and 
sexual violence.
    <bullet> Encouraging use of emergency assistance for victims of 
domestic and sexual violence.
    Insure Adequate Childcare and That No Family Suffers for Lack of 
Childcare by:
    <bullet> Strengthening provisions protecting families from 
sanctions if they do not have childcare.
    <bullet> Strengthening procedures to get childcare subsidies to 
TANF families and welfare leavers.
    <bullet> Limiting childcare co-fees for poor parents.
    <bullet> Stopping the clock for families who cannot find 
appropriate childcare.
    <bullet> Increasing childcare funding.
    Value caregiving of children as real, socially important work by:
    <bullet> Allowing the full-time parenting of pre-school age or 
disabled children to count as work participation under TANF.
    <bullet> Making the child tax credit refundable.
    <bullet> Specifically authorizing states to provide in-home 
caregiving allowances.
    <bullet> Raising rates for childcare providers.
    Reform child support collection and distribution by:
    <bullet> Making child support cooperation requirements voluntary.
    <bullet> Insuring appropriate levels of obligation for non-
custodial fathers.
    <bullet> Insuring that families on welfare receive some of the 
money paid by the fathers.
    <bullet> Disregarding any child support payments passed through to 
a family receiving benefits.
    <bullet> Insuring that families that have transitioned off welfare 
receive all child support they are owed before the state reimburses 
itself for past assistance.
    Employ a comprehensive high performance bonus that rewards states 
for moving families out of poverty, not off the welfare rolls.

                                <greek-d>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
